<html>
<title> - ONGOING MILITARY OPERATIONS AND RECONSTRUCTION EFFORTS IN IRAQ</title>
<body><pre>[Senate Hearing 108-653]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-653
 
     ONGOING MILITARY OPERATIONS AND RECONSTRUCTION EFFORTS IN IRAQ

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2003

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE
96-500 PDF                 WASHINGTON DC:  2004
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

     Ongoing Military Operations and Reconstruction Efforts in Iraq

                           september 25, 2003

                                                                   Page

Bremer, Hon. L. Paul, III, Presidential Envoy to Iraq............     9
Abizaid, Gen. John P., USA, Commander, United States Central 
  Command........................................................    16

                                 (iii)


     ONGOING MILITARY OPERATIONS AND RECONSTRUCTION EFFORTS IN IRAQ

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Talent, Dole, 
Cornyn, Levin, Kennedy, Byrd, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Brian R. Green, professional staff 
member; William C. Greenwalt, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; Lynn F. Rusten, professional staff member; and 
Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Evelyn N. 
Farkas, professional staff member; Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Jeremy L. Hekhuis, professional staff member; Maren R. 
Leed, professional staff member; Gerald J. Leeling, minority 
counsel; and Peter K. Levine, minority counsel.
    Staff assistants present: Leah C. Brewer, Andrew W. 
Florell, and Sara R. Mareno.
    Committee members' assistants present: Dan Twining, 
assistant to Senator McCain; James Beauchamp, assistant to 
Senator Roberts; Lance Landry and Jayson Roehl, assistants to 
Senator Allard; Arch Galloway II, assistant to Senator 
Sessions; James P. Dohoney, Jr., assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Christine 
O. Hill, assistant to Senator Dole; Russell J. Thomasson, 
assistant to Senator Cornyn; Sharon L. Waxman and Mieke Y. 
Eoyang, assistants to Senator Kennedy; Erik Raven, assistant to 
Senator Byrd; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi and Richard Kessler, assistants to 
Senator Akaka; William K. Sutey and Caroline Tess, assistants 
to Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Todd Rosenblum, assistant to Senator Bayh; Andrew 
Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning. The committee meets this 
morning to receive the testimony of Ambassador Paul Bremer, 
Presidential Envoy to Iraq, and General John P. Abizaid, 
Commander, U.S. Central Command.
    We extend to you a very warm welcome, Mr. Ambassador. While 
we may have differences among us with regard to policy issues, 
I think you're setting somewhat of a record in the United 
States Congress for the number of hearings and appearances. 
Monday, you appeared before a committee, three committees 
yesterday, three today. That's seven, plus I think three other 
briefings. But not only is it a reflection on the depth of 
knowledge that you have, which you're sharing with Congress, 
it's also a reflection on the leadership on both sides of the 
aisle of both houses that are trying to lay before the 
respective bodies and Congress, as a whole, a body of fact on 
which we hopefully proceed early next week to have a full and 
thorough debate and passage of this matter.
    General Abizaid, you've taken leave of your forces in 
Central Command, but the urgency of your appearance justifies 
that, and we commend you and those under you in your command, 
particularly their families here at home, for the extraordinary 
courage and staying power that they've manifested throughout 
this.
    We're pleased to have both of you here today, together with 
Mr. Korologos. Mr. Korologos has been Ambassador 
Plenipotentiary throughout this whole matter, and we welcome 
him.
    The timelessness and importance of this hearing in the wake 
of President Bush's forceful speech to the United Nations 
(U.N.) on Tuesday cannot be overstated. The stakes, not only 
Iraq, but, indeed, Afghanistan, are enormous. The military 
victories--and, indeed, they were military victories--achieved 
by our Armed Forces are not complete as yet. Certainly initial 
goals were achieved on the military side. We did that with 
coalition partners. We must now secure the advancements that 
have been made.
    While America is watching this hearing and the other 
hearings--indeed, the whole world is focused on them--they're 
watching to see if America has the staying power to complete 
its mission. I feel we do. I know you, Ambassador, and I know 
you, General, likewise feel we do.
    We've achieved these successes in a relatively short 
period. Saddam Hussein has been deposed, his ruthless regime 
deposed, and I have not heard anyone raise their voice to say 
we'd be better off had we not done that. We must, though, 
through deliberations and actions in the days ahead on 
President Bush's emergency supplemental request, send another 
strong message of bipartisan resolve to our fellow countrymen 
here in America, to our troops, to our coalition partners, to 
the rest of the world. We'll stay the course and get the job 
done.
    It is part of the oversight responsibility of this 
committee to review ongoing military operations and other 
significant activities undertaken by the Department of Defense 
(DOD). This is the fifth hearing in a series of hearings this 
committee will conduct, along with countless briefings and 
updates we receive, to review the conduct of Operation Iraqi 
Freedom and to understand the challenges that lay ahead of us 
in the future operations.
    The hearing is also part of a unique process. This week 
alone, three Senate committees and a like number of House 
committees will conduct hearings on this subject and provide a 
body of fact to Congress. This is, I think, unprecedented.
    Twenty-four months ago, terrorists turned New York City and 
the Pentagon and a lonely field in Pennsylvania into 
battlefields, terrorizing all the world and forever changing 
our sense of security. War against terrorists and those who 
support them became essential. This Nation, under the 
leadership of our President, responded, as did our coalition 
partners. America didn't ask for this war, but we have acted 
appropriately to defend our Nation and to prevent future 
terrorists from reaching our shores or from attacking our 
interests and friends abroad.
    As the President stated so eloquently on September 14, 
``And for America, there will be no going back to the era 
before September 11, to false comfort in a dangerous world. We 
are fighting the enemy in Iraq, in Afghanistan, so that we do 
not meet him again on our own streets here in the USA.''
    The choices involved in prosecuting this global war have 
been difficult. Not all nations have agreed. But I applaud our 
President for reaching out, as he has done this week and 
continues to do, not only in the U.N., but elsewhere. We invite 
their participation. If we, together with those who join us, 
succeed, we will have done this region of the world a whole 
change of direction towards freedom and some measure of 
democracy for their peoples.
    The decision to confront Saddam Hussein was made not 
without careful deliberation, extensive diplomacy, and 
substantial efforts to find a peaceful solution. By the time 
U.S. troops crossed into Iraq on March 19, it had been the 
conclusion of three consecutive administrations of our 
Government, countless other nations, and the U.N., that Saddam 
Hussein's Iraqi regime had used weapons of mass destruction 
(WMD), had threatened them against others, neighboring 
countries, and represented a clear and present danger to 
regional and world peace.
    It had been the conclusion of the Clinton administration 
that Saddam Hussein had stockpiles of WMD, was actively seeking 
more, and would ultimately use them. The U.N. Security Council 
had passed 17 resolutions dating back to 1991, 12 years, which 
required full Iraqi cooperation in the disarmament of WMD. 
Saddam Hussein's response was defiance, deception.
    October 2002, after an unprecedented amount of debate, the 
Senate voted, 77 to 23, to authorize the President to utilize 
force in Iraq. The House of Representatives also voted 
overwhelmingly in favor of authorizing the use of force. By 
that act, it became our war, and the American people's war, not 
the President's war.
    At this critical juncture, it is our responsibility to 
continue to support the President in this operation, which we 
overwhelmingly supported, and to provide the resources 
necessary for him to finish the job, together with our 
coalition partners.
    American Armed Forces, together with coalition partners, 
achieved extraordinary rapid military success in Iraq with 
minimum casualties and damage. This is a clear tribute to the 
professionalism and the dedication of our young men and women 
in uniform and those who support them. We have succeeded in 
ridding the world of a brutal tyrant and have revealed the 
extent of his barbarism. We should be congratulating our 
President and our Armed Forces on a job well done, and I so do 
this morning.
    Despite the pockets of resistance in Iraq, that feeling of 
gratitude and goodwill toward the United States seems to grow. 
A Gallup Poll conducted earlier this week found that 62 percent 
of Iraqis believe that ousting Saddam Hussein was worth the 
hardships they have endured since the invasion, and two-thirds 
think Iraq will be in better condition 5 years from now, before 
that invasion. That will be a direct result of your efforts, 
Mr. Ambassador, and those of the Armed Forces of the United 
States under our military commanders and the coalition 
partners. We must build on this goodwill and seize this 
historic opportunity to help build a thriving democracy, an 
ally against terror in Iraq.
    American forces and coalition partners have already done a 
remarkable job restoring basic services, and I think if there's 
anything that's been understated, Mr. Ambassador--and you have 
that opportunity this morning--you had a plan. Do not be 
reserved in telling us, in your judgment, how closely you've 
achieved the goals of that plan: ending ethnic violence, 
creating an environment where reconstruction can succeed. Most 
members of this committee have seen this with their own eyes, 
and the response of most members who have been to Iraq is 
concern for the good things that are taking place in Iraq and 
are not somehow getting that message out, not only to our 
people, but to the Iraqi people.
    This reconstruction work is being done in a difficult 
environment of harsh conditions and significant risk. Those who 
have been removed from power seek to delay their inevitable 
defeat and, as terrorists, lash out. We're ever mindful of the 
risk of our forces, General Abizaid, every day, and the 
sacrifices made by their families and communities that support 
them.
    What is the best way to reduce U.S. casualties and create 
better conditions for eventually withdrawing our forces? That's 
the question before this committee. In my judgment, the key is 
to improve the security situation in Iraq by restoring 
essential services, recruiting and training dependable Iraqi 
security forces, and repairing the infrastructure so that real 
economic growth opportunity can once again grow. The emergency 
supplemental request before this body, of $87 billion, 
submitted by President Bush specifically addresses that goal. 
That is why it merits our support.
    It is imperative that we give our President and our troops 
the resources they need to complete their missions, both in 
Iraq and Afghanistan. The faster money gets to these sources, 
the faster conditions will improve, and the faster our troops 
will have the opportunity to come home. I hope you, with 
specificity, address, as best you can, the schedules that you 
contemplate as it regards this particular bill and the monies 
in it.
    Lasting peace and security will be achieved when we 
establish the environment for a democratic, economically viable 
Iraq. The first steps to democracy have been taken, and a 
fledgling government is preparing itself to assume the 
responsibilities of sovereignty.
    Senator Levin and I and other Senators had the opportunity 
early this week to meet with two ministers, one in charge of 
electricity, the other, water, both vital to this 
infrastructure. I, myself, was greatly impressed with the 
credentials of their background, their professional training. 
One had left his family, as so many--you, yourself, and other 
members of your team left your families--to go and literally 
volunteer to let this nation once again take its rightful place 
in the world community. So I commend them, and I commend you.
    You will talk today about the Marshall Plan, which brought 
peace and prosperity to a war-ravaged continent. I think that's 
an important historical precedent. The modest investment has 
been repaid a hundred times over. The funding we are now being 
asked to provide is an equally important investment that will 
likewise be repaid many times over in the decades to come.
    You have my support. I wish you well.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    First, let me join you in welcoming Ambassador Bremer and 
General Abizaid to our committee this morning. We appreciate 
what you and those who work with you, particularly those on the 
ground in Iraq, are attempting to do, at great personal risk 
and under very different and very difficult circumstances.
    It is clearly in our national interest for democracy and 
stability to be successful in Iraq. For this to happen, the 
stabilization and reconstruction effort needs to become much 
more of an international effort. Achieving this will lower the 
risk to our military personnel, both by sharing that risk and 
by changing the nature of the effort from a U.S.-dominated 
occupation, where the United States is identified and visible 
as a target, to an internationally-supported transition to a 
new Iraqi Government. Internationalizing the effort is also the 
only way that the cost of reconstruction can be shared with 
other countries so that the burden is not carried so 
exclusively by U.S. taxpayers. We will be able to leave Iraq 
sooner, rather than later, the sooner that we internationalize 
the effort.
    Recent experiences in other settings illustrate that point. 
In Bosnia, for example, the 1,800 U.S. troops constitute 
approximately 15 percent of the 12,000 total NATO Stabilization 
Force, and the Police Task Force to which we contributed 
financially and with manpower has now been replaced by a 
European Union Police Mission. In Kosovo, the roughly 3,000 
U.S. troops make up about 11 percent of the 27,000 total NATO-
led Kosovo force, and the U.N. mission in Kosovo runs the 
civilian side of the effort there. The United States pays only 
25 percent of the cost of the U.N. mission, and the European 
Union carries most of the burden of reconstruction.
    While I was pleased that President Bush went to the U.N. 
this week, I was disappointed that the President seemed to so 
severely limit the possible role of the U.N. in Iraq to 
assisting, ``in developing a constitution and training civil 
servants and conducting free and fair elections.'' In the 
aftermath of other conflicts, and even at times when, as in 
Iraq, the conflict is continuing, the U.N. has been responsible 
for post-conflict reconstruction, for the conduct of civil 
administration, for the supervision of civil administration, 
and for executive responsibility for police and the judiciary.
    A number of nations have made it clear to us for months, 
that their willingness to provide troops for Iraq or to 
contribute financially to Iraq's reconstruction depends on the 
U.N. being given a key role in Iraq. U.N. Secretary General 
Kofi Annan told me earlier this month when I met with him in 
New York that the U.N. will need to have broad functions in the 
reconstruction and political development effort if we are going 
to have a realistic hope of persuading other key countries to 
join in the effort. The President's apparent reluctance to 
grant a meaningful decisionmaking role for the U.N. in Iraq's 
reconstruction means, I fear, that we will not succeed in 
acquiring the troops and financial resources from other 
countries that we seek.
    What is necessary is not just a vague U.N. resolution of 
support, but a resolution assuring real power-sharing with the 
international community over the civil administration and 
reconstruction effort that results in additional nations, 
including Muslim nations, joining this effort.
    There are a great many other very serious issues that 
Congress must address concerning the administration's $87 
billion supplemental request. Some are life-and-death issues 
affecting how long our troops will be in Iraq and at what risk. 
Some will have a long-term impact on our taxpayers and on our 
deficit. Others are transcendent issues relative to how a 
democratic nation can be built and sustained in Iraq in the 
current circumstances.
    There is no reasonable way that these issues can be 
adequately thought through, much less properly worked through, 
by next week, as the Majority Leader currently plans, despite 
urgent and repeated requests by the Democratic leadership and 
Democratic members for additional hearings. We take months to 
consider far less significant matters. The massive and 
unprecedented $87 billion request has been before us for just 2 
weeks.
    Some have compared the Iraq reconstruction effort to the 
Marshall Plan that led to the reconstruction of Europe after 
World War II. In fact, the differences between the current 
proposal and the Marshall Plan are dramatic. For instance, the 
Marshall Plan required countries receiving assistance to 
contribute a matching amount to their own reconstruction, and 
also included loans that were eventually paid back. Neither of 
these important requirements are present in the Iraqi 
reconstruction request of the administration.
    There is one aspect in which the Marshall Plan analogy can 
be helpful. When the legislation went to the floor of Congress, 
Senator Arthur Vandenberg of Michigan, the chairman of the 
Senate Foreign Relations Committee and one of the architects of 
our bipartisan World War II foreign policy, called the Marshall 
Plan, ``the final product of 8 months of more intensive study 
by more devoted minds than I have ever known to concentrate on 
any one objective in all my 20 years in Congress.''
    We don't need to study the request before us for 8 months, 
but we certainly owe it to the people that we represent, to our 
military members serving overseas in harm's way, and to the 
institution in which we serve, to give the $87 billion request 
more than a 2-week, slap-dash, lick-and-a-promise review.
    When it comes to the portion of the supplemental request 
which supports our troops, there should be no issue. Our troops 
must be, and they will be, supported.
    But when it comes to the request for tens of billions of 
dollars for the building of an Iraqi nation, the answers, and, 
indeed, the questions, are far more complex.
    Should a timeline be established for Iraqis to assume 
responsibilities for their own safety and security?
    What are the administration's goals for Iraq's economic 
reconstruction?
    What is the timeline and what are the costs to meet those 
goals, including a detailed plan for the restoration of basic 
services, an estimate of the costs and percentage to be borne 
by the United States and the percentage to be borne by other 
countries?
    What is the timeline to meet the administration's goals for 
Iraq's political reconstruction, including the adoption of a 
constitution, the holding of elections, and the establishment 
of an elected government with broad public support?
    What is the likelihood that the administration will be able 
to assemble a broad international coalition to address the 
military, economic, and political needs of Iraq? How does that 
affect the need for the $87 billion request before us?
    Why shouldn't Iraq invest more in its own future by 
pledging some of its future oil revenues to the building of its 
nation? Put more bluntly, isn't it essential that the people of 
Iraq want to become a unified and secure nation badly enough 
that they are willing to make that pledge and that financial 
commitment now to help raise funds now for reconstruction 
costs, and not simply be the recipient of financial assistance? 
Would it not be an important step towards independence and 
self-reliance for the Iraqis to make the same pledge of their 
``fortunes'' that the founders of our Nation made in 1776?
    How do we ensure competition in awarding contracts for 
reconstruction projects, and transparency in budgeting and 
expenditure of U.S. taxpayers' funds?
    These and many other questions need careful and thoughtful 
consideration by Congress. Getting answers to probing questions 
on the reconstruction funds is not aimed at shirking our 
responsibility, but at fulfilling our responsibility. That is 
what our constituents sent us here to do. That is the job that 
they expect us to do, and there is no way we can do that job 
properly in 2 weeks.
    The issue is not whether we are willing to spend enough to 
defend America. Of course we all are. The issue is whether the 
huge amount requested for an American reconstruction effort 
doled out by an American administrator, an effort that will be 
seen in some parts of the world as perpetuating an American 
occupation of Iraq, will make our troops more or less secure, 
and make their job of stabilizing Iraq more or less difficult. 
We have expended huge amounts of blood and treasure already. 
Will the additional $87 billion requested by the administration 
effectively reduce our future sacrifice, or will it be lost in 
a deepening and downward spiral of civil disorder and chaos?
    I hope that thoughtful congressional consideration of this 
reconstruction request can lead to sharing the burden with 
other countries, who will benefit from a secure and democratic 
Iraq, and to reducing the risk of American troops being drawn 
more and more deeply into a jihad-type guerrilla war against 
Western occupiers.
    We should take the time to do this right and to do it on a 
bipartisan basis. These times and the threats surely call for 
that.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Levin, thank you.
    I'd like to ask the committee if we could digress for a 
moment, that we have a quorum, as we have a number of 
promotions relating to the Armed Forces of the United States.
    I observe a quorum now present. I ask the committee first 
to consider the nomination of Gordon R. England to be Secretary 
of the Navy. His nomination has been before the committee the 
required length of time, and no objections have been raised 
regarding it. We had a thorough hearing on Tuesday.
    Is there a motion?
    Senator Levin. So moved.
    Senator Inhofe. Second.
    Chairman Warner. All in favor, say aye.
    [A chorus of ayes.]
    Opposed?
    [No response.]
    Next, I ask the committee to consider a list of 5,552 
military nominations. Again, no objection has been raised among 
the committee members regarding these nominations. However, I 
must inform the committee that 705 of these appointments, all 
for officers below the rank of brigadier general or rear 
admiral lower half, were not received by the committee until 
September 22 due to the Federal Government being closed last 
week. Under the committee's 7-day rule, these 705 officers 
would not be eligible for consideration unless the committee 
provided a waiver.
    Monday, in my view, would be not fair for the promotion of 
any of these officers to be delayed when they would have been 
eligible had we not had the storm conditions. Therefore, I ask 
that we now waive the 7-day rule with regard to those 
nominations.
    Senator Levin. So moved.
    Senator Inhofe. Seconded.
    Chairman Warner. All in favor, say aye.
    [A chorus of ayes.]
    Opposed?
    [No response.]
    The full slate of nominations have now been acted upon 
favorably by the committee. I thank my colleagues very much.
    Listening to not only the comments this morning by us, but 
there's a chapter in history that always interests me about the 
Marshall Plan. Truman is reputed to have said that he was 
concerned that Congress would not pass this plan. He turned to 
George Marshall, and he said, ``Let's name it the Marshall 
Plan. It'll go through.'' Perhaps we should refer to this as 
the Abizaid plan.
    Here we go.
    Mr. Ambassador, would you lead off?

  STATEMENT OF HON. L. PAUL BREMER III, PRESIDENTIAL ENVOY TO 
                              IRAQ

    Ambassador Bremer. Thank you, Mr. Chairman. Members of the 
committee, thank you for the opportunity to appear in behalf of 
the President's supplemental.
    Before I begin, I, like you, Mr. Chairman, want to pay 
tribute to the fine young men and women in our Armed Forces, 
who led a coalition to a military victory without precedent. In 
roughly 3 weeks, they defeated a country larger than Germany 
and Italy combined, and they did so with forces smaller than 
the Army on the Potomac, a point I make with all respect to the 
chairman for bringing up memories.
    [Laughter.]
    Chairman Warner. I hear you.
    Ambassador Bremer. Mr. Chairman, I know that you, like all 
Members of Congress, hate to wake up to the news that another 
American serviceman has been killed in Iraq. These deaths are 
painful. I hear about them often before you do, because I'm 
eight time zones ahead of you. The deaths, although they're 
painful, are not senseless. They are part of the price we pay 
for fighting for civilization, for being part of a world that 
refuses to tolerate terrorism and genocide and WMD.
    Those who ambush Coalition Forces, who set truck bombs, and 
who assassinate people like the deceased member of the 
Governing Council, are trying to thwart constitutional and 
democratic government in Iraq. They will win some battles, Mr. 
Chairman, but they're going to lose their war with history.
    President Bush's vision for Iraq envisages an Iraq that is 
secure through the efforts of the Iraqis. It provides for an 
Iraqi economy based on sound economic principles and bolstered 
by a reliable infrastructure. Finally, the President's plan 
provides for a democratic and sovereign Iraq at the earliest 
reasonable date.
    The stakes couldn't be higher. If we fail to recreate Iraq 
as a sovereign democracy sustained by a solid economy, we will 
have handed the terrorists a gift. We must deny terrorists that 
gift of state sponsorship, which they enjoyed under Saddam, and 
we just deny them the chaos such as they thrived on in the 
1980s in Lebanon. Creating a sovereign, democratic, 
constitutional, and prosperous Iraq deals a blow to terrorists. 
It gives the lie to those who describe us as the enemies of 
Islam, the enemies of Arabs, or the enemies of the poor. That's 
why the President's request has to be seen as an important part 
of the global war on terrorism.
    Mr. Chairman, many of you have pointed out our national 
experience teaches us how to consolidate a military victory. 
This was a lesson we did not learn at the end of the first 
world war. Many here opposed that war and wanted to solve 
problems at home. We won the war, but we did not consolidate 
the peace, and we know what price we paid. Extremism bred in a 
swamp of despair, bankruptcy, and unpayable debts gave birth to 
a world of fascism in Italy, Nazism in Germany, and another 
world war.
    After that conflict, America showed that we had learned 
that military victory must be followed by a program to secure 
the peace. In 1948, America's ``greatest generation'' responded 
with the boldest, most generous, and most productive act of 
statesmanship in the last century, the Marshall Plan.
    When George Marshall first described the Marshall Plan at 
Harvard, he laid out some truths that resonate, anyway to me, 
today. He said, ``Its purpose should be the revival of a 
working economy so as to permit the emergence of political and 
social conditions in which free institutions can exist.'' The 
emergence of political and social conditions in which free 
institutions can exist.
    The Marshall Plan, enacted with overwhelming bipartisan 
support by this Congress, sent war-torn Europe on the path to 
the freedom and prosperity which Europeans enjoy today. After a 
thousand years as the cockpit of war, Europe became the cradle 
of peace in two short generations.
    A similar opportunity for transforming the region lies 
before us in Iraq. The grants to Iraq the President seeks 
bespeak a grandeur of vision equal to the one which created the 
free world at the end of the second world war. Iraqis living in 
freedom with dignity will set an example in this troubled 
region which so often spawns terrorists. A stable, peaceful, 
economically productive Iraq will serve American interests by 
making Americans safer.
    I'd like to make just a few points about the supplemental 
request. In response to several comments, we do have a definite 
plan, with milestones and dates. Second, no one part of this 
supplemental is more important than any other part. It is an 
integrated request. Third, this request is urgent. The urgency 
concerning military operations is self-evident, but the funds 
for non-military action in Iraq are equally urgent.
    Most Iraqis welcomed us as liberators. As you pointed out, 
Mr. Chairman, a just-released Gallup Poll shows that almost 
two-thirds of the Iraqis continue to say that getting rid of 
Saddam makes the sacrifices of the war and the aftermath 
worthwhile.
    Even so, the reality of foreign troops on the street is 
understandably chafing. Some Iraqis are beginning to regard us 
as occupiers and not liberators. Some of this is inevitable, 
but faster progress on reconstruction can help stem the tide.
    The link to the safety of our troops is indirect, but real. 
It is true that the people who ambush our coalitions are small 
in number, and they're not ambushing because they don't have 
adequate electrical power, but the population's view of the 
United States and the coalition is directly linked to their 
cooperation in hunting down those who attack us and giving us, 
in a word, good intelligence. Early progress on restoring basic 
infrastructure gives us an edge against the terrorists.
    This money will be spent with prudent transparency. In 
answer to the question that Senator Levin raised, every 
contract of the $20 billion requested for Iraq will be 
competitively bid.
    Mr. Chairman, I know there's been some talk of granting 
some parts of this as a loan. Initially, this may appear 
attractive. But, once again, I'm afraid the facts and historic 
experience intrude. The facts are that the Iraqi people have a 
debt of more than $200 billion hanging over them, a debt 
incurred by Saddam's economic incompetence and by his wars of 
aggression against his neighbors--$200 billion. They cannot pay 
that debt, they can't even service it, and it makes no sense to 
lay more debt on top of them, again, a lesson that we should 
have learned from the aftermath of the first world war.
    The President's first priority in this supplemental request 
is security, and it has three elements, most of which you and 
the other Members heard about when you came to visit in July. 
First, public safety, money for the police to get a 
professional, well-trained police, respectful of human rights, 
onboard; funds for border police and border enforcement. 
Second, a national defense element, which involves standing up 
a new Iraqi army as quickly as we can, and a civil defense 
system. Third, a justice system so that when criminals are 
caught, there are courts and prisons to look after them.
    This security assistance benefits the United States in four 
concrete ways. First, Iraqis will be more effective collecting 
the important intelligence than we can be. As talented and 
courageous as Coalition Forces are, they can never replace an 
Iraqi policeman who knows his beat, who knows his people, their 
customs, their language, and their rhythms. Iraqis have asked 
repeatedly to play a greater role in providing their security, 
and we agree, they should.
    Second, as these Iraqi security forces assume their duties, 
they replace Coalition Forces in some of the roles that 
generate frustration, friction, and resentment, things like 
conducting searches, manning checkpoints, and guarding 
installations.
    Third, this frees up Coalition Forces for the mobile 
sophisticated offensive operations against former regime 
loyalists and terrorists, for which they are best suited.
    Finally, Mr. Chairman, building up these new Iraqi forces 
reduces the overall security demands on Coalition Forces and 
can speed up the day when we can bring our troops home.
    Security is, of course, indispensable, but it's not enough. 
A good security system cannot persist on the knife-edge of 
economic collapse. Saddam left behind an economy ruined, not by 
our attacks, but by decades of neglect, theft, and 
mismanagement. In 35 years, he never once prepared a national 
budget.
    The Iraqis must refashion their economy from the Soviet-
style command economy Saddam left behind. That poor model was 
further hobbled by cronyism, theft, and pharaonic self-
indulgence by Saddam and his intimates.
    Members of the committee saw a number of the palaces in 
Baghdad. I can tell you, those palaces exist in every single 
city in the country.
    The good news is that important changes have already begun 
on the economic front. As many of you know, on Sunday, at the 
annual meeting of the World Bank and the IMF in Dubai, the 
Minister of Finance announced a bold and sweeping set of 
economic reform programs, the most open program for foreign 
direct investment of any country in the region, a new Central 
Bank law which establishes complete independence for the 
Central Bank, a tariff policy which is simple. It's zero, 
except for a temporary 2-year 5 percent tariff, called a 
reconstruction tariff, to raise funds for the Iraqi Government. 
On October 15, we will introduce a new currency to Iraq. For 
the first time in 20 years, there will be a unified currency. 
That currency will float against the world's currencies.
    Mr. Chairman, the Iraqi Government, by taking these steps, 
has put in place the legal infrastructure necessary to create a 
vibrant private sector, but those policies will come to nothing 
if they don't rest on a sound economic infrastructure in a 
reasonable security environment.
    We've made significant progress in restoring these 
essential services. The widely predicted humanitarian crisis 
did not occur. There was no major flow of refugees. You spoke 
about our plan, Mr. Chairman. All 240 hospitals and 90 percent 
of its health clinics are open today. All of the schools 
finished their school year. All 22 universities in Iraq held 
final exams in late May and early June, despite the difficult 
circumstances, and they will reopen again in a few weeks. There 
is an adequate food supply, and there is no evidence of 
epidemic. We have cleared thousands of miles of irrigation 
canals. Electric service will reach prewar levels within a 
month.
    But there are remaining demands that are vast, and that is 
why most of the President's non-military, non-security 
assistance is focused on critical infrastructure.
    The third major element of our overall strategy is to move 
towards a democratic Iraq. Here, too, Mr. Chairman, there's 
good news.
    We have laid out a seven-step process for Iraq to return to 
full sovereignty through elections. Three of the seven steps 
have already been taken. Governing Council took office on July 
13. The second step was then when they appointed a committee to 
make recommendations to them on how to write a constitution. 
The third step was the appointment of the cabinet on September 
2. You met, and some other Members met, two of the very 
impressive members of this cabinet when they were here earlier 
this week.
    I might say, Mr. Chairman, that an Iraqi friend pointed out 
to me last week that this is the best-educated, most qualified 
cabinet in Iraq's history. As I probed a bit, I learned that 17 
of the 25 cabinet members have PhDs, which makes them probably 
the best-educated cabinet anywhere in the world. These are not 
just PhDs in subjects, like I'm an expert in, in history; these 
are PhDs that actually really count. The Minister of 
Agriculture is a professional agronomist. The Minister of Water 
Resources is a hydrologist. The Minister of Electricity, whom 
you met, has almost 30 years experience running power 
companies. They are a very competent group of people, and they 
have lots of responsibility.
    The remaining steps on the path to Iraqi independence and 
sovereignty are to write a constitution. We hope a 
constitutional convention will convene shortly, in the next 
month or so. That constitution will have to be ratified by the 
Iraqi people, the fifth step. An ultimate step will be holding 
of free elections. Finally, the seventh step is when the 
Coalition Provisional Authority (CPA) hands sovereignty back to 
the Iraqi people. No one looks forward to that day more than I 
do, except perhaps my wife.
    Some, including a few members of the Iraqi Governing 
Council, suggest we should give full sovereignty to an Iraqi 
Government immediately, or anyway very soon. Mr. Chairman, I 
believe that such haste would be a mistake, and so do the Iraqi 
people. The same Gallup Poll I cited earlier shows that 85 
percent of the people of Baghdad believe that an immediate 
departure of Coalition Forces would lead to chaos. No appointed 
government, even one as honest and dedicated as the Iraqi 
Governing Council, can have the legitimacy necessary to take on 
the difficult issues the Iraqis face as they write their 
constitution, elect a government, and, I might add, undertake a 
major economic reconstruction effort. The only path to full 
Iraqi sovereignty is through a written constitution, ratified 
and followed by free democratic elections. Shortcuts are 
potentially dangerous.
    As you examine the President's plan, as I hope you will, 
I'm sure you'll see that every part is connected to the others. 
The need to protect the coalition and the Iraqi people alike 
against terrorists and common criminals is obvious. The United 
States must take the lead in restoring Iraq as a friend and 
democratic model.
    There is, as you have mentioned, a donors conference in 
Madrid in late October, and we, the United States, must set the 
example before then and work to show that we must avoid 
together the near anarchy in which terrorists will feel right 
at home.
    Mr. Chairman, make no mistake, these requested funds 
represent an investment in America's national security. If, 
after coming this far, we turn our backs and let Iraq lapse 
into factional chaos, we will have sown the dragon's teeth, 
will sprout more terrorists and eventually cost more American 
lives in Iraq or even here at home.
    You may think I exaggerate, but I ask you to look at what 
happened in Afghanistan, another country which, after it was 
debilitated by decades of war and mismanagement, became easy 
prey to the Taliban and al Qaeda.
    The reconstruction of Iraq may seem distant from American 
concerns today. Eight time zones and two continents separate 
where we are on the East Coast from Iraq. The West Coast is 
effectively half a world away. But Iraq only seems far away.
    Today, Iraq has become a focal point in the global war on 
terrorism, a point I make with some trepidation, because it 
means we are on the front line of the global war on terrorism. 
But failure there would strengthen terrorists morally and 
materially. Mr. Chairman, I think you said in your opening 
remarks, it is extremely important for the world to understand 
that we have the staying power to see this through. All of this 
requires the combined support of the American people and of 
both parties in Congress. This is a large, serious, important, 
and urgent matter. It must be done quickly, and it must be done 
well.
    Mr. Chairman, members of the committee, I look forward to 
answering your question in support of this request.
    [The prepared statement of Ambassador Bremer follows:]
             Prepared Statement by Amb. L. Paul Bremer III
    Mr. Chairman and members of the committee, thank you for this 
opportunity to discuss the President's supplemental request.
    Before I begin, I want to pay tribute to the men and women of our 
armed services. Leading a coalition, our Armed Forces delivered a 
military victory without precedent.
    In roughly 3 weeks they liberated a country larger than Germany and 
Italy combined. They did so with forces smaller than the Army of the 
Potomac.
    Our Armed Forces accomplished all this while absorbing and 
inflicting minimal casualties. Iraqis understood that we tried to spare 
the innocent.
    Mr. Chairman, I know that you and all Americans hate waking up to 
hear a newscast that begins, ``Last night another American soldier was 
killed in Iraq. . .'' I am among the first to know of those deaths and 
no one regrets them more than I do.
    But these deaths, painful as they are, are not senseless. They are 
part of the price we pay for civilization, for a world that refuses to 
tolerate terrorism and genocide and WMD.
    Those who ambush Coalition Forces, who set the truck bombs, are 
trying to thwart constitutional and democratic government in Iraq. They 
will win some battles, but they are going to lose their war with 
history.
    President Bush's vision provides for an Iraq made secure through 
the efforts of Iraqis. It provides for an Iraqi economy based on sound 
economic principles and bolstered by a reliable infrastructure. 
Finally, the President's plan provides for a democratic and sovereign 
Iraq at the earliest reasonable date.
    If we fail to recreate Iraq as a sovereign democracy sustained by a 
solid economy, we will have handed the terrorists a gift.
    We must deny terrorists the gift of state sponsorship, which they 
enjoyed under Saddam, and must deny them the chaos such as they thrived 
in during the 1980s in Lebanon.
    But creating a sovereign, democratic, constitutional and prosperous 
Iraq deals a blow to terrorists. It gives the lie to those who describe 
us as enemies of Islam, enemies of the Arabs and enemies of the poor.
    That is why the President's request has to be seen as an important 
element in the global war on terrorism.
    Our national experience teaches us how to consolidate a military 
victory.
    We did not have that experience when we emerged victorious from 
World War I. Many had opposed the war and wanted to solve problems at 
home. We won the war and did not consolidate the peace.
    We know what happened. Extremism, bred in a swamp of despair, 
bankruptcy and unpayable debts, gave the world Fascism in Italy and 
Nazism in Germany--and another World War.
    After that conflict we showed we had learned that military victory 
must be followed by a program to secure the peace.
    In 1948 the greatest generation responded with the boldest, most 
generous and most productive act of statesmanship in the past century--
the Marshall Plan.
    When Secretary of State George C. Marshall first described the 
Marshall Plan, he laid out some truths that resonate today.
    ``Its purpose,'' Marshall said, ``should be the revival of a 
working economy . . . so as to permit the emergence of political and 
social conditions in which free institutions can exist.''
    The Marshall Plan, enacted with overwhelming bipartisan support, 
set war-torn Europe on the path to the freedom and prosperity which 
Europeans enjoy today. After a thousand years as a cockpit of war 
Europe became a cradle of peace in just two generations.
    The grants to Iraq the President seeks bespeak grandeur of vision 
equal to the one which created the free world at the end of World War 
II.
    Iraqis living in freedom with dignity will set an example in this 
troubled region which so often spawns terrorists. A stable, peaceful, 
economically productive Iraq will serve American interests by making 
America safer.
    There are some things I would like to point out about this 
supplemental request:

        <bullet> We have a definite plan with milestones and dates.
        <bullet> No one part of the supplemental is dispensable and no 
        part is more important than the others.
        <bullet> This is urgent. The urgency of military operations is 
        self-evident. The funds for nonmilitary action in Iraq are 
        equally urgent. Most Iraqis welcomed us as liberators. Now the 
        reality of foreign troops on the streets is starting to chafe. 
        Some Iraqis are beginning to regard us as occupiers and not as 
        liberators. Some of this is inevitable, but faster progress on 
        reconstruction will help.

    The link to the safety of our troops is indirect, but real. The 
people who ambush our troops are small in number and do not do so 
because they have undependable electric supplies. However, the 
population's view of us is directly linked to their cooperation in 
hunting down those who attack us. Earlier progress gives us an edge 
against the terrorists.

        <bullet> This money will be spent with prudent transparency. 
        Every contract of the $20 billion for Iraq will be 
        competitively bid.
        <bullet> That the money be granted and not loaned is essential. 
        Initially, offering assistance as loans seems attractive. But 
        once again we must examine the facts and the historical record. 
        Iraq has almost $200 billion in debt and reparations hanging 
        over it as a result of Saddam's economic incompetence and 
        aggressive wars. They cannot pay what they owe now, much less 
        take on more debt.

    The President's first priority is security and he has a three-
element plan.

        <bullet> Public safety--police, border enforcement, fire and a 
        communications system to link them.
        <bullet> National defense--a new army and civil defense system.
        <bullet> Justice system--courts and prisons.

    This security assistance to Iraq benefits the United States in four 
ways.
    First, Iraqis will be more effective. As talented and courageous as 
the Coalition Forces are, they can never replace an Iraqi policeman who 
knows his beat, who knows his people, their customs, rhythms, and 
language. Iraqis want Iraqis providing their security and so do we.
    Second, as these Iraqi security forces assume their duties, they 
replace coalition troops in the roles that generate frustration, 
friction and resentment--conducting searches, manning check points, 
guarding installations.
    Third, this frees up Coalition Forces for the mobile, sophisticated 
offensive operations against former regime loyalists and terrorists for 
which they are best suited.
    Finally, these new Iraqi forces reduce the overall security demands 
on Coalition Forces and speed the day when we can bring troops home.
    Security is indispensable, but by itself is insufficient and cannot 
endure.
    A good security system cannot persist on the knife edge of economic 
collapse. Saddam left behind an economy ruined not by our attacks but 
by decades of neglect, theft and mismanagement--he never once prepared 
a budget.
    The Iraqis must refashion their economy from the Soviet-style, 
command economy Saddam left them. That poor model was further hobbled 
by cronyism, theft and pharaonic self-indulgence by Saddam and his 
intimates.
    Important changes have already begun.
    The Iraqi Minister of Finance on Sunday announced a set of market-
oriented policies that is among the world's boldest.
    Those policies include:

        <bullet> A new Central Bank law which grants the Iraqi Central 
        Bank full legal independence.
        <bullet> Foreign firms may open wholly owned companies, 
        including banks, or buy them. Foreign firms receive national 
        treatment and have an unrestricted right to remit profits and 
        capital.
        <bullet> Tariff policy is simple. There is a 2-year 
        ``reconstruction tariff'' of 5 percent on most imports and the 
        rest come in with no tariff.
        <bullet> On October 15, Iraq will get a new currency, the New 
        Dinar, which will float against the world's currencies.

    The Iraqi Government has put in place these legal procedures for 
encouraging a vibrant private sector. But those policies will come to 
nothing if they do not rest on a sound infrastructure in a reasonable 
security environment.
    We have made significant progress restoring these essential 
services. The widely predicted humanitarian crisis did not occur. There 
was no major flow of refugees. All of Iraq's 240 hospitals and 90 
percent of its health clinics are open. There is adequate food and 
there is no evidence of epidemic. We have cleared thousands of miles of 
irrigation canals so that farmers in these areas have more water than 
they have had for a generation. Electrical service will reach prewar 
levels within a month.
    However, the remaining demands are vast, which is why most of the 
President's request for nonmilitary assistance is for infrastructure 
programs.
    On another front there is already good news. The democratization of 
Iraq, on which so much global attention is focused, is further advanced 
than many realize.
    Encouraging a quick political transformation, we have laid out a 
clear, seven-step process leading to sovereignty. Three of the seven 
necessary steps have been completed:

          1. An Iraqi Governing Council was appointed in July.
          2. In August the Governing Council named a Preparatory 
        Committee to recommend a mechanism for writing Iraq's new, 
        permanent constitution.
          3. Earlier this month the Governing Council appointed 
        ministers to run the day-to-day affairs of Iraq.
          4. The fourth step, writing a constitution, frames all that 
        follows. The constitution will be written by Iraqis.
          5. The constitution will be ratified by popular vote of the 
        entire adult population.
          6. After the constitution is ratified, elections for a new 
        government will be held.
          7. The final step will come after elections, when we transfer 
        sovereignty from the coalition to the new government.

    Some, including members of the Iraqi Governing Council, suggest we 
should give full sovereignty to an Iraqi Government immediately or very 
soon.
    I firmly believe that such haste would be a mistake.
    No appointed government, even one as honest and dedicated as the 
Iraqi Governing Council, can have the legitimacy necessary to take on 
the difficult issues Iraqis face as they write their constitution and 
elect a government.
    The only path to full Iraqi sovereignty is through a written 
constitution, ratified and followed by free, democratic elections. 
Shortcutting the process would be dangerous.
    As you examine the President's plan I am sure you will see that 
every part depends on every other part.
    The need to protect the coalition and the populace alike against 
terrorists and common criminals is obvious and indispensable.
    The United States must take the lead in restoring Iraq as a friend 
and democratic model. There is a donor conference in Madrid in late 
October. We must set the example for other nations of goodwill and work 
with them to avoid the near anarchy in which terrorists will feel right 
at home.
    When we launched military operations against Iraq we assumed a 
great responsibility that extends beyond defeating Saddam's military.
    If, after coming this far, we turn our backs and let Iraq lapse 
into factional chaos, we will have sewn the dragon's teeth which will 
sprout more terrorists and eventually cost more American lives. Make no 
mistake. These requested funds represent an investment in America's 
national security.
    You may think I exaggerate. I ask you to look at what happened in 
Afghanistan, another country which, after it was debilitated by decades 
of war and mismanagement, became easy prey for the Taliban and al 
Qaeda.
    The reconstruction of Iraq may seem distant from American concerns 
today. Eight time zones and two continents separate the east coast of 
the United States from Iraq. The west coast is effectively half a world 
away.
    Iraq only seems far away. Today Iraq is a focal point in our global 
war on terrorism. Failure there would strengthen the terrorists morally 
and materially.
    All of this requires the help of Congress.
    Mr. Chairman and members of the committee we respectfully ask 
Congress to honor the President's supplemental request, which responds 
to urgent requirements in order to achieve the vision of a sovereign, 
stable, prosperous and democratic Iraq at peace with us and with the 
world.
    Mr. Chairman, I welcome your questions.

    Chairman Warner. Thank you, Mr. Ambassador, for a very 
thorough and strongly delivered statement, with your own 
personal conviction resonating in every sentence.
    General Abizaid.

   STATEMENT OF GEN. JOHN P. ABIZAID, USA, COMMANDER, UNITED 
                     STATES CENTRAL COMMAND

    General Abizaid. Thank you very much, Mr. Chairman, Senator 
Levin, members of the committee. It's an honor to be here. It's 
an important opportunity to testify before you.
    CENTCOM stands at the center of the global war on 
terrorism. We're at the heart of it. We have over 200,000 
soldiers, sailors, airmen, and marines that are out there 
serving--in the east, all the way from Kyrgyzstan, to the west, 
in the Horn of Africa. They've had important tactical success 
in the past 2 years on the broader global war on terror, and 
they have, in conjunction with friendly nations in the area, 
done much to help defeat and disrupt the terrorist threat. But 
there is much work that needs to be done in that broader war.
    In both Afghanistan and Iraq, our troops are involved in 
combat operations to attain stability. In Iraq, our focus 
continues to be that of increasing Iraqi security capacity, 
looking for opportunities to integrate international forces 
into the coalition, building a stronger intelligence system to 
enable us to get actionable intelligence against the various 
enemies that we face there, building the infracture, and 
working an information campaign that tells the Iraqi people 
what we are doing, why we are doing it in order to bring them 
more strongly to the side of the coalition.
    I've said on numerous occasions, and I know all of you know 
it, there is no strictly military solution to the problems in 
Iraq. We must move together hand in hand with the CPA and 
Ambassador Bremer. We must synchronize the power of the United 
States Government in diplomatic, economic, and political 
measures, along with the military, in order to achieve success. 
Our young people are capable and they're confident.
    Much is made of my father's generation being the ``greatest 
generation.'' But I would tell you the next-greatest generation 
is out there serving in the Central Command area and fighting 
and winning and representing the American people in an 
absolutely outstanding manner.
    Their work will continue to be difficult, and it'll 
continue to be dangerous. We will need both patience and 
courage to see the mission through.
    Likewise, the Iraqi people have shown great courage. Many 
of them serve with us day after day to make their country a 
better place. They have put their lives on the line in the 
battlefield, and they continue to show optimism about the 
future.
    This battle for Iraq is a battle of moderation versus 
extremism. We have to give the Iraqis a chance to succeed. This 
supplemental is about giving our troops, the great people that 
work in the CPA, and Iraqis the tools necessary to succeed.
    Mr. Chairman, it's an honor to be here. I look forward to 
your questions.
    [The prepared statement of General Abizaid follows:]

            Prepared Statement by Gen. John P. Abizaid, USA

    It is an honor to report to this committee on the situation and our 
actions in the CENTCOM Area of Responsibility. Our command is focused 
on three main priorities: defeating transnational terrorism and 
creating safe and secure environments in Iraq and Afghanistan. CENTCOM 
operates within the geographic and ideological heart of the global war 
on terror. It is a war without borders that spans all 25 countries in 
the region. There is no doubt that the war on terror is connected to 
our efforts in Afghanistan and Iraq. Success in Afghanistan and Iraq 
will result in stable states that do not harbor terrorists and provide 
a visible alternative to the terrorist vision of hatred and conflict.
    The over 195,000 U.S. soldiers, sailors, airmen, and marines now 
serving in the CENTCOM Area of Responsibility are engaged in a wide 
range of activities, each of them critical to maintaining our national 
security. These include counterinsurgency, counterterrorist, stability, 
and civil affairs operations. Over 20 ships and 200 aircraft are 
sustaining our land forces and providing a potent deterrent to our 
adversaries. Our service men and women are also occupied with training 
exercises designed to increase our ability to operate with regional 
partners as well as enhance their military effectiveness. I visit our 
troops and their commanders frequently and they remain confident that 
we are winning the war on terrorism and winning the peace in Iraq and 
Afghanistan. They are also realistic and understand that success will 
not come without cost or without the cooperation of local populations. 
Those of you who have visited the region understand the great strides 
our servicemen and women have made toward accomplishing our objectives. 
We all recognize, however, that there are no easy answers to the 
problems we face in the region. At CENTCOM we also know that, while we 
are the military centerpiece of our national security efforts in the 
region, none of the problems with which we are engaged will succumb to 
military force alone. Integrating our efforts with those of other 
agencies and ensuring that our operations advance our political 
objectives are essential to our success.

                            WAR ON TERRORISM

    We have had good effect against terrorists throughout the Central 
Command Area of Responsibility. Our success has not been due to 
military actions alone. The United States Government, in cooperation 
with our regional partners, has killed and captured terrorists and 
attacked their infrastructure. CENTCOM is proud to have played a role 
in an effort marked by unprecedented cooperation between various 
agencies, regional partners, and members of the largest international 
coalition in history.
    Despite remarkable victories, the fight against terrorism is far 
from over. The enemy's ideological base, financial networks and 
information networks remain strong. Indeed, the demographic and 
economic conditions that breed terrorists may be worsening and those 
conditions are heightening the ideological fervor associated with 
radical Islamist extremism. It is clear that we must continually 
reassess our efforts and improve our effectiveness.
    We at Central Command, partnered as we are with many Islamic 
nations, recognize that the war on terrorism is not a war against 
Islam; it is a war against the enemies of Islam. It is not a war 
against religion; it is a war against irreligious murderers. Securing 
all of our futures depends mainly on collective action and 
international cooperation. Each of the three main Combined Joint Task 
Forces in our Area of Responsibility has an important role to play in 
the greater regional effort against terrorists. Through these task 
forces and Component Commands, we synergize theater cooperation efforts 
with other nations and build indigenous capabilities to combat 
terrorism and control borders. Central Command, our regional partners, 
and the 71 members of the Operation Enduring Freedom Coalition will 
remain on the offensive until terrorists no longer pose a threat.

                                  IRAQ

    In Iraq, our forces are working alongside the CPA to provide 
military capacity in our interagency and international efforts toward 
building a unified and stable country. The CPA's endstate for Iraq 
calls for a democratic and sovereign nation, underpinned by new and 
protected freedoms and a growing market economy, and made secure 
through the efforts of Iraqis--able to defend itself, but posing no 
threat to its neighbors or the international community.\1\
---------------------------------------------------------------------------
    \1\ This more closely follows Amb. Bremer's testimony yesterday. It 
reads: ``President Bush's vision, in contrast, provides for an Iraq 
made secure through the efforts of Iraqis. In addition to a more secure 
environment, the President's plan provides for an Iraqi economy based 
on sound economic principles bolstered by a modern, reliable 
infrastructure. Finally, the President's plan provides for a democratic 
and sovereign Iraq at the earliest reasonable date.''
---------------------------------------------------------------------------
    Coalition servicemen and women, alongside many Iraqi partners, are 
fighting our enemies and making progress toward a return of Iraq to the 
Iraqi people. While Iraqi police capacity still remains below 
requirements, joint coalition and Iraqi police operations are bringing 
to justice criminal gangs that have been preying on the Iraqi people. 
Neighborhood watch programs are springing up throughout towns and 
villages. Although large reconstruction projects will require 
considerable time and resources, military commanders are working with 
local townspeople to prioritize small reconstruction projects; 
thousands of these have been completed. Town and city councils are in 
place throughout the country. The first battalion of the new Iraqi army 
will graduate on 4 October and the second battalion begins training the 
next day; these soldiers are proud to be part of the new Iraq. The 
first 2,000 men and women of the Iraqi Civil Defense Corps are assuming 
security responsibilities alongside coalition soldiers. All this and 
more has been achieved in just over 4 months, despite the utter 
collapse of virtually every Iraqi institution. Our achievements, 
however, have not come without sacrifice, and there is more fighting 
ahead.
    Iraq has tremendous potential, but the coalition and our Iraqi 
partners must defeat our enemies and overcome considerable obstacles 
before the future of Iraq is secure. While all but a very few Iraqis 
recognize the promise of freedoms they are enjoying for the first 
time--freedom to express their personal views, freedom to practice 
their religion, freedom from fear, freedom to determine their own 
destiny--there are those who would deny the Iraqi people the peace and 
prosperity they so richly deserve. We continue to experience attacks on 
Coalition Forces, our Iraqi partners, and infrastructure punctuated by 
larger high-visibility attacks to discredit the coalition, disrupt 
reconstruction, and cause unrest. While former regime loyalists remain 
the focus of our operations, extremists, foreign fighters and terrorist 
groups are emerging as a major threat to Iraqis, the coalition, and the 
international community. Criminal activity continues to frustrate 
reconstruction efforts and is the major source of instability in some 
regions. While our enemies are too weak to challenge us militarily, 
they believe that we do not possess the will to persevere in Iraq. They 
are wrong.
    We are taking the fight to the enemy in Iraq. Attacks against our 
forces are localized in the Sunni areas and the city of Baghdad. Over 
75 percent of violent incidents and sabotage have occurred in only 4 of 
the 18 provinces. The preponderance of the country, including Baghdad, 
has achieved a very high degree of security and stability. Iraqis are 
providing intelligence that permits us to kill or capture the enemy and 
preempt attacks.
    We are focusing our efforts in five areas: improving intelligence, 
developing Iraqi security forces, internationalizing our security 
effort, protecting the infrastructure, and helping to communicate our 
aims, plans, and successes to the Iraqi people. We have also 
repositioned forces to concentrate our efforts in problem areas and 
establish a higher degree of control over Iraq's borders. In areas in 
which we achieve stability, we will disengage our forces and turn over 
security responsibilities to Iraqis while maintaining the capability to 
anticipate and respond rapidly to any changes in the situation. Later, 
as the new Iraq expands its security capacity, we intend to move our 
forces to less visible locations from which we can react to external 
threats and prepare to relinquish national defense responsibilities to 
the new Iraqi army.
    Violence, of course, is not the only obstacle to progress in Iraq. 
We must maintain the consent of the Iraqi people. Popular disaffection 
sets conditions for instability. Disaffection stems from many sources 
including high expectations, high unemployment, a lack of essential 
services, suspicion of coalition motivations for liberating Iraq, 
residual fear of the Baath Party, and the sudden end to the former 
regime's patronage system. Our efforts to rebuild Iraq are connected to 
the security situation because general disaffection among the populace 
provides available manpower to those who are inciting (and paying for) 
attacks against Iraqis, the infrastructure and Coalition Forces.
    We recognize that economic development, political development, and 
security are interdependent. Combined Joint Task Force-7 and CENTCOM 
are supporting fully the CPA's efforts in all areas. In addition to 
securing critical infrastructure alongside our Iraqi partners, two U.S. 
Army task forces, Task Force Restore Iraqi Oil and Task Force Restore 
Iraqi Electricity, are accelerating progress in restoring Iraq's failed 
oil economy--the financial engine to move Iraq forward--and providing 
the key enabler for all economic functions and public needs--
electricity. Brigade commanders have partnered with Iraqis to complete 
over 8,000 reconstruction projects. Also, our commanders and civil 
affairs personnel worked with Iraqis to establish local and provincial 
councils as a foundation for regional and national governance.
    Over the past 4 months, we have improved our understanding of the 
situation and identified what more needs to be done. We know what is 
working well and what areas require additional attention and resources. 
CENTCOM, Combined Joint Task Force-7, CPA, and our coalition partners 
are working together in accordance with our plans. We must remember, 
however, that the situation in Iraq is complex and dynamic; we are 
certain to encounter unforeseen difficulties and opportunities and we 
must remember that the future course of events depends not only on what 
we plan to do, but on enemy reactions and initiatives that are 
difficult to predict. We are resolved to reassess continually the 
situation, refine our plans, be prepared for contingencies, and refocus 
our efforts whenever necessary.
    Our commanders and troops are optimistic and feel that we now have 
before us an opportunity to gain tremendous momentum. In the short 
term, we believe that if we and our partners commit resources to 
accomplish three things--restore basic services (especially power), 
build Iraqi security capacity, and improve our ability to communicate 
our plans and successes to the Iraqi people--we will accelerate 
progress in the next months.

                              AFGHANISTAN

    The next year in Afghanistan, with the constitutional Loya Jirga in 
December and elections scheduled for June 2004, will prove critical to 
achieving peace and stability there. We have achieved much in 
Afghanistan, but there is much work that we, the coalition, and the 
Afghans have yet to accomplish. As in Iraq, there is no purely military 
solution to the problems we face there. We must simultaneously defeat 
our enemies, support the effort to establish representative government 
and set conditions for economic growth and long-term stability.
    The enemy adjusted after the devastating losses inflicted on them 
since the initiation of Operation Enduring Freedom (OEF). Al Qaeda, 
Gulbiddin Hekmatyar's Hizb-e-Islami (HIG) and Taliban forces are 
conducting low-level guerrilla and terrorist attacks. Their attacks aim 
to obstruct reconstruction efforts and incite chaos. Al Qaeda and HIG 
terrorist activity pose the greatest threat in the northeast while 
Taliban remnants have shown signs of reorganization and continue anti-
coalition/anti-Afghan operations in the southeast.
    We continue to seek out and defeat Taliban and al Qaeda forces. 
Cooperation with the Pakistanis will disrupt further the enemy's 
ability to reorganize and conduct operations. The formation of the 
Afghan National Army (ANA) continues to be a success story as units 
demonstrate their professionalism and gain operational experience. Our 
conventional force in Afghanistan is small in comparison to the force 
in Iraq, but it is very effective due to its ability to conduct joint 
and combined operations. During a recent mission, Combined Joint Task 
Force-180 successfully brought together U.S. conventional, Special 
Operations Forces, air, Afghan National Army and Afghan Militia Forces 
against a long-known Taliban operational base.
    Because political and economic initiatives will prove most 
important in maintaining stability in Afghanistan, we must ensure that 
our operations support those initiatives. The expansion of Provincial 
Reconstruction Teams from four to eight and the possibility that NATO 
might expand its security efforts beyond Kabul are particularly 
promising.
    The most important person in Central Command is the young soldier, 
marine, sailor, or airman performing his or her mission on the 
frontline of freedom in the middle of the night. It goes without saying 
that our successes will continue to depend on the bright, talented, and 
courageous servicemen and women who are taking risks and making 
sacrifices to preserve liberty and protect our Nation. Our missions in 
Afghanistan, Iraq, and in the global war on terror are bound to entail 
additional risks and sacrifices. However, our airmen, sailors, marines, 
and soldiers understand, as we all do, that a lack of perseverance in 
any of our vital missions would lead to even greater risk and loss. 
When I talk with them they invariably express to me their belief that 
we ``will either have to fight terrorists over here or fight them at 
home.''
    I want to thank this committee for your support to our men and 
women and for your oversight of the vital operations we are undertaking 
in Central Command.

    Chairman Warner. Thank you very much.
    Colleagues, it would be the desire of the chair to try and 
achieve two rounds of questioning. We'll start with 5 minutes 
each on the----
    [Audience interruption]
    The committee will stand in recess until the Capitol Police 
can restore order. [Pause]
    For those who may be interested, a similar incident 
occurred with this individual yesterday at another hearing, so 
we were prepared for this possibility.
    I'd like to do 5 minutes a round, in the fervent hope that 
we can achieve two rounds for all of our members. I urge the 
clerk to start with the chair and make sure I stay within the 5 
minutes. But I'd like not to be charged for that outburst.
    General Abizaid. Actually, it makes the Ambassador and I 
feel right at home.
    [Laughter.]
    Chairman Warner. Yes.
    First, Ambassador Bremer, each time I listen to you I 
develop a greater respect for your professionalism and the team 
that you're with, recognizing so many of them have been 
uprooted very quickly. Like the men and women of the Armed 
Forces, you're all volunteers. A well-done to you, and, indeed, 
those of the coalition with whom you work.
    On that point, I'd like to start off. The perception is 
given that this money will be under the control, if adopted by 
Congress, of yourself, but my understanding is that each day 
other departments and agencies of our Government and, indeed, 
the coalition partners, have a very strong voice in how these 
funds are utilized. Would you address that point?
    Ambassador Bremer. Yes, that's correct, Mr. Chairman. I 
have on my coalition staff, now, representatives of 17 other 
countries. I have representatives from 15 executive branches 
here from Washington, and there are more coming. It is very 
much an integrated effort by not only the United States 
Government, but also coalition governments.
    Chairman Warner. Good.
    On the question of the discussion by many--and, I must say, 
well-intentioned--Members of Congress with regard to 
structuring some type of security for the $21.3 billion part of 
this budget request, I don't know that there's a real precedent 
in history. I would hope that we could do further research on 
the comments made by my distinguished colleague here about the 
Marshall Plan and whether portions of that had some security 
interests. But what concerns me is, number one, you pointed out 
the first part, the debt now owed by Iraq, their total 
inability for the foreseeable future to do anything about that. 
There is no legal structure in Iraq by which there could be a 
borrowing authority, in my understanding, until the 
constitution is adopted, the election is held. But perhaps the 
most disturbing potential problem is that we would play into 
the hands of those who had repeated, since day one, ``The 
Coalition Forces are not there for peace, they are not there to 
allow democracy to begin, they are there to seize the oil.'' Do 
you share that view?
    Ambassador Bremer. Yes, I do. The oil revenues are a 
sensitive subject in Iraq, quite understandably. It is the 
major source of government revenues. In the new foreign-direct 
investment law, which the Governing Council asked me to sign a 
week ago today, they have explicitly excluded foreign 
investment in the oil sector for now until they have an elected 
government which can decide how they want to proceed with oil. 
I think we have to be respectful of that political sensitivity.
    Chairman Warner. Good.
    There's been a unique partnership between your organization 
and that of the coalition military headed up by General 
Abizaid. Let's just have a frank assessment. Is that working?
    Ambassador Bremer. Yes, sir. It is unique because the 
challenge of stabilizing Iraq after the war is a challenge of 
bringing together the civilian capabilities and the ongoing 
military capabilities in a way that is really quite 
challenging. The commander of the Joint Task Force in Iraq, 
General Sanchez, has colocated his headquarters with mine. Each 
of us have, as our first meeting of the day, a meeting together 
to discuss the plans for what happened overnight, what the 
plans for the day are. It is a totally integrated operation. 
All of the public affairs people who work for the military, for 
example, work under my direction.
    Chairman Warner. Do you share those views, General Abizaid?
    General Abizaid. Sir, I was the person that said to General 
Sanchez, ``Move your headquarters and colocate with Ambassador 
Bremer.''
    Chairman Warner. Let me throw out an idea that, indeed, 
I've read a good deal about and done some of my own study. I 
see the presence of Dr. Walter Slocombe here, who has been 
before this committee many times. I commend him and his team 
for what they're doing to try and restructure a security 
arrangement drawing upon former Iraqi military and the 
likewise. Are you giving consideration to perhaps utilizing 
this force earlier than anticipated as a part of the integrated 
security to augment the police?
    The problems that I see, and others, are that our soldiers 
do not have the language capability. Maybe some have fragments. 
There's always the presence of U.S. uniform facing the 
disparate elements that threaten them. Would it not be better 
if quickly you could put together, from the remnants of their 
former military and perhaps other sources, an Iraqi force to go 
out, and we'd change roles. Rather than the occasional Iraqi 
being an adjunct person to our military forces, that we are 
more or less the advisors to an Iraqi force. Is that 
achievable?
    Ambassador Bremer. Yes, it is. If you look at the 
President's request, $5.1 billion of it is directed at 
security. As part of that, we intend to raise four separate 
Iraqi forces. The new Iraqi army is one, which you mentioned. 
If this supplemental is approved, we'll be able to produce an 
Iraqi army of 27 battalions by a year from now.
    Chairman Warner. The point is that, can it be now used to 
confront the threats.
    So this is a new concept in this plan. We want to bring 
that to the attention of all. A new initiative.
    Ambassador Bremer. That's right. There is an Iraqi Civil 
Defense Corps, which is also in this supplemental, also puts 
Iraqis in place of Americans.
    Chairman Warner. My time is up.
    Senator Levin.
    Senator Levin. Thank you.
    General Abizaid, in your opening statement, on page 3, you 
point to a more dangerous threat from radical Islamist 
extremism than before. Just to quickly read this, because you 
did not in your oral presentation, ``The enemy's ideological-
based financial networks and information networks remain 
strong. Indeed, the demographic and economic conditions that 
breed terrorists may be worsening, and those conditions are 
heightening the ideological fervor associated with radical 
Islamist extremism.''
    In view of that assessment, what's the strategy for dealing 
with this apparently worsening threat?
    General Abizaid. Of course, Senator, what I was referring 
to there is not specifically Iraq, but the broader Middle East. 
I think, actually, if you look across the Muslim world, all the 
way from Morocco to Indonesia, you see that there are 
ideological movements that are very anti-Western, that are very 
anti-American in particular. While we are having good tactical 
success against this phenomenon, we are continuing to see 
growing strength in it.
    Now, having said that, I do believe that we have to 
continue to reevaluate the way that we will approach this 
internationally, and not only internationally, but also 
interagency.
    Senator Levin. Would it help if the governing council 
requested or endorsed foreign troop participation, in addition 
to what's already there, particularly from Muslim countries, in 
terms getting Muslim countries' troops there? Would it help if 
the governing council went on record as endorsing it?
    General Abizaid. As far as my point is concerned, yes, it 
would.
    Senator Levin. Have we asked the governing council, 
Ambassador, to do that?
    Ambassador Bremer. We've had some discussions with them, 
Senator.
    Senator Levin. Have we asked them to do that?
    Ambassador Bremer. Yes.
    Senator Levin. Are they willing to do that?
    Ambassador Bremer. Let me try to be more precise. Some of 
the countries that have been talked about have expressed an 
interest in either having the U.N. resolution passed or in 
having a governing council invitation, and we've discussed 
those two, in combination, with the governing council.
    Senator Levin. What has been their response to requesting 
other countries to send foreign troops, including Muslim 
countries?
    Ambassador Bremer. Their response has been varied. Some of 
them are in favor of doing that, some of them are more 
reluctant.
    Senator Levin. Will they be taking a vote on this issue?
    Ambassador Bremer. They might.
    Senator Levin. Would you encourage that?
    Ambassador Bremer. Yes. But I don't run it.
    Senator Levin. Of course. You would encourage it, though.
    Ambassador Bremer. Of course. Absolutely.
    Senator Levin. You will ask them then to----
    Ambassador Bremer. I have encouraged it.
    Senator Levin. One other question about the council, and 
that has to do with the seven steps which you've outlined. Have 
they formally endorsed those seven steps?
    Ambassador Bremer. The majority of the governing council 
endorses those steps.
    Senator Levin. Have they taken a formal action to endorse 
them?
    Ambassador Bremer. No, but they've acted in conjunction 
with it, because they're following it.
    Senator Levin. I think it would be very helpful if you 
asked the governing council, since you've appointed it and it's 
supposed to represent the people of Iraq, if they formally 
endorse the seven steps which you have laid out as what you 
believe to be the correct path. It makes sense to me, but I 
don't live there. It would be very helpful, it seems to me--to 
avoid this impression that somehow or other we are laying down 
the law, and we are laying down the path, and we are doing 
this, and we're doing that--if you ask the governing council to 
formally endorse those seven steps. I'm just asking you simply, 
would you do that?
    Ambassador Bremer. Yes.
    Senator Levin. Now, on the question of Iraqi oil, we were 
told by Secretary Wolfowitz, a number of months ago, that Iraqi 
oil would be used in the reconstruction, I believe he said, in 
a matter of months. Why should not we ask the governing council 
to pledge some of their future surplus now to collateralize it? 
We want them to control their oil, right? We don't want to 
control their oil. They control it. Now, the only answer that I 
have heard to that is, there's no government there that can 
technically make that pledge to collateralize that oil.
    Ambassador Bremer. That's correct.
    Senator Levin. But there is a government that is being 
asked to put up $20 billion that could guarantee that pledge. 
That's us. If the governing council were asked to pledge a 
portion of its future oil surplus, it would be up to them. But 
if they were asked to make that commitment to show just how 
badly they want to contribute financially to their 
reconstruction, which would help, it seems to us here--in terms 
of persuading the American people, ``Hey, we're not alone in 
this. The Iraqi people are pledging their own oil surplus''--we 
could then, if we simply guaranteed that pledge, help to 
collateralize that and produce current funds for 
reconstruction. Will you at least consider that possibility?
    Ambassador Bremer. Thank you, Senator.
    Yes, I will consider it. Let me just clarify one point. 
Effectively, oil revenues will be used for reconstruction next 
year, because oil revenues are funding the 2004 Iraqi budget. 
We may have a couple of hundred million dollars in revenues 
from taxes, but effectively oil revenue is what we have. In the 
Iraqi budget for next year, approved by the Iraqi Ministers and 
the governing council, there are some reconstruction projects. 
If I remember correctly, it's on the order of a billion-and-a-
half dollars. It's not a lot of money. So the question of what 
you've called ``excess revenues'' really doesn't arise----
    Senator Levin. I said future----
    Ambassador Bremer. Right that's--no, I know. I understand. 
I just wanted to put some numbers around it. It doesn't really 
arise until 2005, by which time we hope that the revenues will 
generate about $5 billion a year more than are needed for 
expenses. So the question arises in a couple of years.
    Senator Levin. I think you missed my point, but my time is 
up.
    Thank you.
    Ambassador Bremer. I'm sorry. Maybe we can----
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank Ambassador Bremer and General Abizaid for 
the outstanding work they are doing. I know that they share our 
sorrow and regret over the murder of Aquila Hashimi, who served 
her nation and the cause of freedom with valor and distinction. 
Her name will go down, I think, as an Iraqi hero. We regret her 
loss.
    With only 5 minutes, I'd like to try to get in two 
questions real quick. One is that we had an interesting poll 
this morning. Seven out of 10 Iraqis say they expect their 
country and their personal lives to be better 5 years from now; 
66 percent to 27 percent do not want an Islamic government; 74 
to 18 percent, Saddam's henchmen should be punished; and two 
thirds of the Iraqis say that the coalition troops should stick 
around for at least another year.
    I think that helps us put into perspective--that's the 
first significant poll I've seen of the Iraqi people. I think 
that's an indicator of great success and a testimony to the 
magnificent job that is being accomplished.
    But my first question, Ambassador Bremer, suppose that, in 
the very unlikely situation, we decided not to extend this 
reconstruction aid. My distinct view is that the hearts and 
minds of the Iraqi people are still up for grabs. What would be 
the implications, as briefly as possible, of our failure to 
approve not just the military aid, but, most importantly, the 
reconstruction aid, which impacts the Iraqi people most 
significantly?
    Ambassador Bremer. It would be directly contrary to 
America's interest. Obviously, it would be contrary to the 
Iraqi people's interest. But it would be contrary to our 
interest because it would create a situation of much greater 
insecurity. I think we would find more of the population 
turning against us. I think we would find more attacks on 
Coalition Forces. Eventually, Iraq would, as I suggested in my 
opening statement, recede into a situation of chaos, not 
dissimilar from what was experienced in Lebanon in the 1970s 
and 1980s. We would find another breeding ground for 
terrorists. So I think it's a rather grim outlook.
    Senator McCain. Do you share that view, General Abizaid?
    General Abizaid. Sir, I do. I think it's very important 
that we move together on all this simultaneously and quickly.
    Senator McCain. Time is not on our side. Is that correct?
    General Abizaid. I agree.
    Senator McCain. Thank you.
    I'm a little concerned to see an article today, ``Pentagon 
May Call Up Additional Reservists.'' Quote, `` `We've had one 
piece of bad news after another to share with families this 
year, and at some point it's got to take a toll,' said one 
senior Army National Guard official who spoke on the condition 
that his name not be used.'' Quote, `` `Our people don't sign 
up to be full-time soldiers. If they did, they would join the 
regular Army.' ''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. General Abizaid, in Sunday's New York 
Times, Tom Friedman wrote, ``The resistance from the Saddamists 
in Iraq is getting stronger, not weaker. It is becoming so 
strong . . . that a new war needs to be mounted against the 
Saddamist forces in the Sunni triangle near Baghdad.'' Friedman 
also wrote that an Iraqi internal security force is the only 
way to fully root out the Baathist threat. I think we both 
agree on that.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. When do you expect to deploy such an Iraqi 
force in sufficient numbers to go on the offensive against the 
Baathists? Until that time, don't you think we need more 
American forces, in addition to better intelligence from Iraqis 
and aggressive training of an Iraqi security force?
    General Abizaid. Thank you, Senator.
    Actually, we are on the offensive in the Ar Ramadi-Fallujah 
area, and we just moved in the 82nd Airborne Division into that 
area. We've moved them in there along with one brigade from the 
82nd plus a brigade from the 1st Infantry Division. You will 
see an upturn in combat in the Ar Ramadi-Fallujah area, no 
doubt about it, and you probably already have.
    There are many Iraqis in what we call the Iraqi Civil 
Defense Corps that are with them. They are not fully capable 
yet. In about 4 months, we'll have about 20 battalions that are 
fairly capable serving alongside our forces.
    I believe that the offensive action that we are 
undertaking, the increase that we've had over time with Iraqi 
forces, of both police forces, the Iraqi Civil Defense forces, 
and others, gives us the opportunity to maintain a stable 
environment to the best of our ability, and also conduct combat 
operations.
    I am confident that we have enough troops at the right time 
right now. I talk to my commanders in the field about this all 
the time, and I think we're okay, Senator.
    Senator McCain. My time is expired.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Kennedy.
    Senator Kennedy. Thank you very much.
    To Ambassador Bremer and General Abizaid, we all want to 
congratulate you and are very aware that your lives are at 
risk, those you represent, and we have enormous admiration and 
respect for those individuals. That's why we believe it's so 
important to get it right.
    Part of the trouble, I think, for many of us, not only as 
Members, but also our constituents, is to hear the rosy picture 
that you're describing, Ambassador Bremer, which is very 
similar to what the Secretary of Defense has described, and 
also read about what is happening on the ground, and try to 
understand the difference. We read in The New York Times, 
September 17, ``New intelligence assessments are warning that 
the United States' most formidable foe in Iraq in the months 
ahead may be the resentment of ordinary Iraqis increasingly 
hostile to the American military occupation.'' Goodwill is 
wearing thin. Indications are that hostility is going ``well 
beyond the Sunni heartland of Iraq, which has been the main 
setting.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. Just 2 days ago, The New York Times said 
Ambassador Bremer came to tell the President, among others, 
that the ``situation was bleak in Baghdad.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. We hear one rosy story from you, we read 
something else.
    We look at the newspapers this morning, and this is, I 
think, the indictment of the administration's current policy. 
First of all, in The Washington Post, ``Bush Fails to Gain 
Pledges on Troops or Funds for Iraq.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. We look at the front page of The New York 
Times here, ``The American leading the hunt for banned weapons 
in Iraq says his team has not found any of the unconventional 
weapons cited by the Bush administration as a principal reason 
for going to war.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. Though it's on the--look at the front 
page, again, of The Washington Post, ``Crossed wires deprived 
Iraqis of electric power. War plans ignored worn infracture.''
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. Many of us who are concerned about the 
rush to war by this administration anticipated the challenges 
that you were going to find, such as the worn-out 
infrastructure. Now you're saying to us, ``Unless we do this, 
it's going to be more and more of a breeding ground for 
terrorists.'' Welcome to the fact that we're finding that out 
now, because many of us believed that that was going to be the 
case previously.
    Then, if you read in The New York Times, as has been 
mentioned, ``Stretched Pentagon says it may need to call up 
thousands more reservists to serve in Iraq.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. You wonder why there's concern that we 
don't have a plan? This is what we have as the plan from the 
administration that was provided to us. It's 28 pages. It's in 
draft form, ``Working Document,'' July 23.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. This is an insult to the troops and an 
insult to Congress. We want to know where the policy is. Where 
the policy is.
    You could just review some of these items in security. 
August 1 through October 3, locate and secure and eliminate 
WMD. November 3 to January 1, continue to locate and secure 
WMD. February 4 onward, continue to locate and secure, 
eliminate WMD.
    Is this the best that this administration can do in terms 
of developing a plan that is going to have, not only the 
support of the American people, but also the international 
community, and that offers us the best hope to provide some 
relief to our troops, and to bring democracy to Iraq and 
hopefully bring our troops home with honor?
    Mr. Ambassador?
    Ambassador Bremer. Thank you, Senator.
    First, just let me react to one of those citations, which I 
somewhere missed, about I was coming back to say the situation 
was bleak. I don't know where that came from. It certainly was 
not----
    Senator Kennedy. That----
    Ambassador Bremer.--certainly was not----
    Senator Kennedy. That was in The New York Times.
    Ambassador Bremer. Well----
    Senator Kennedy. Elisabeth Bumiller, New York Times.
    Ambassador Bremer. Okay.
    Senator Kennedy. I believe it's September 22.
    Ambassador Bremer. All I'm saying is, that's not my 
message.
    Senator Kennedy. All right. Well----
    Ambassador Bremer. Anybody who----
    Senator Kennedy. If I can----
    Ambassador Bremer.--quotes me----
    Senator Kennedy. All right, let me just----
    Ambassador Bremer.--as saying that the situation is bleak--
--
    Senator Kennedy. In fairness to you----
    Ambassador Bremer.--is inaccurate.
    Senator Kennedy.--just indicate the--and I'll ask that this 
be in the record [see previously inserted article]--``Iraq and 
Ailing Economy, Bush Aides on Edge.'' Then it says, ``A new 
concern began this summer, one official said, when Bremer, the 
American, traveled to Washington to tell Mr. Bush, among 
others, the situation was bleak in Baghdad, he needed billions 
of additional dollars for the kind of security and 
reconstruction--administration began a troop withdrawal within 
a year. Although no administration official says so explicitly, 
the White House goal is to show substantial improvement in Iraq 
before next fall's elections.'' Next fall's elections. That 
bothers a lot of us. That's inaccurate?
    Ambassador Bremer. Yes, sir. That bothers me as much as it 
bothers you.
    Senator Kennedy. Okay. You're saying that you didn't talk--
--
    Ambassador Bremer. It was not part of our conversation.
    Senator Kennedy.--you didn't have the conversation with the 
President?
    Ambassador Bremer. I never said the situation in Baghdad 
was bleak. I've had many conversations with the President. I'm 
just objecting to somebody else characterizing how I report to 
the President. We have difficulties in Iraq. If we didn't have 
difficulties, I wouldn't be here before you asking the American 
taxpayer to put another $20 billion up.
    We've heard some citations from some polls. I do not 
believe it is accurate to say that resentment is growing. I 
think it is correct to say that we need to move urgently now to 
head off a problem of not being able to have essential services 
and security for Iraq.
    The main thrust of this request, Senator, as you have 
pointed out, is for security, to get the Iraqis to take more of 
the security onboard, and to restore essential services. That's 
the main thrust. I believe it's urgent. I believe we must do 
it.
    In answer to the previous question from Senator McCain, I 
said I think if we don't do it, the consequences for American 
troops and American interests will be severe.
    Senator Kennedy. Thank you.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Senator McCain 
talked about the poll that was out yesterday, and I wasn't at 
all surprised when I read this morning that 74 percent of the 
people believe that they (Saddam Hussein and his close 
advisors) should be punished. They appreciate our presence 
there and getting them out from under tyranny, and this is 
consistent with informal polls that we heard about when you and 
I were together, all of us were together over in Baghdad. I 
suspect that the majority of the Members sitting before you in 
the United States Senate here at this table have been to Iraq, 
and I would suggest that the senior Senator from Massachusetts 
pay Iraq a visit, talk to the troops, talk to the people, talk 
to the citizens who come up to us in the street thanking us for 
what we've done in this liberation.
    It disturbs me a little bit when we have a hearing like 
this--and we've had many. I agree with the chairman; I 
appreciate so much your making yourselves available, both of 
you. But people are watching, and when you hear the term which 
has been mentioned three times so far since we started this 
hearing, ``cut and run,'' I just hope that the American people 
know that probably I would suspect the majority of us up here 
would say that if there's one thing that should be taken off 
the table, it would be cut and run.
    Senator Akaka and I started the Army Caucus a couple of 
years ago, and yesterday morning we had General Schoomaker, the 
new Chief of Staff. He made a statement. He said, ``This war is 
about the will of the American people.'' He said that those 
attacking our troops are attacking our will and we cannot 
afford to cut and run.
    I strongly suspect that now the American people, after 
having seen the results of cutting and running, which is 
essentially what happened in 1991, realize, after looking at 
the mass graves, after knowing about the 328 kids under 12 
years old lined up and executed summarily, about the school 
buses where the kids were buried alive. I can recall that first 
freedom flight in 1991 after the war was over. Several of us, 
about five of us went over there. In fact, they didn't even 
know the war was over, but seeing the torture chambers, seeing 
a little boy with his ear cut off for carrying around an 
American flag, I don't think any American should ever think 
about cutting and running.
    Ambassador Bremer, when we met, you provided us with a 
rough time line, and it happened coincidentally that while we 
were there they had the bombing of the U.N. facility. Of 
course, obviously that changes time lines. I applaud you for 
your event-driven time line and would encourage you not to come 
up and be forced into any kind of a time-driven time line, 
because that's not the way it works over there. This has to 
happen and it has to happen right.
    General Abizaid, I've read some things in some of the 
newspapers about the 101st Airborne in the north and the 1st 
Marine Division in the south and perhaps some kind of a lack of 
coordination with the CPA. Do you have any comments to make 
about that?
    General Abizaid. Sir, I think that the 1st Marine Division, 
of course, just recently left and 101st has been up in the 
north in Mosul for a long time. In the early days, it was clear 
that we had the capacity to do a lot of work and so I wouldn't 
call it lack of coordination, I would say that before 
Ambassador Bremer got there that they were essentially moving 
out on their own azimuth to achieve what they thought was the 
right thing to do. Over time, Ambassador Bremer has set the 
policies, and we've had to bring the policies in-line. 
Sometimes that necessarily hasn't been in the interest of what 
some of the commanders up there wanted to do, but they know 
whose policy line they follow.
    I think today coordination is good. Ambassador Bremer 
visits up there all the time with all the commanders, as do I. 
What the commanders want more than anything else is Ambassador 
Bremer's money.
    Senator Inhofe. Thank you, General. Ambassador Bremer, 
there was some discussion over there when we were there about 
whether or not the CPA has the adequate organizational 
infrastructure to accomplish your goals and missions. Do you 
have any comments to make about that?
    Ambassador Bremer. I think it is the case that the buildup 
of the civilian part of the coalition authority was somewhat 
slow in the May/June time frame, but since the visit of, for 
example, John Hamre, who was over doing a study on behalf of 
Secretary Rumsfeld--he was there in late June and noted that we 
didn't have enough people in the CPA--I now have six times as 
many people working for me as I did on July 1.
    Senator Inhofe. Thank you very much. Then, lastly, my time 
has expired, but, General Abizaid, Senator McCain talked about 
the force structure there in your area. I would like to have 
you, for the record, since there isn't time in my time here, 
respond to my concern and the concern of many people at this 
table of the overall end strength and the overall force 
structure in terms of all the way around the world and other 
potential problems we might have, with specific emphasis on the 
Guard and Reserves. If you could give me your analysis of that 
for the record, I'd appreciate it very much. Thank you, Mr. 
Chairman.
    [The information referred to follows:]

    I can speak only for the United States Central Command (CENTCOM). 
Unlike many other commands, CENTCOM does not have assigned forces. When 
the situation in our area of responsibility (AOR) requires action 
necessitating the use of United States forces, we identify capabilities 
needed to accomplish the mission. The Joint Staff in turn asks the 
Services to meet these capabilities. We are concerned with whether we 
are able to accomplish the mission with the capabilities the Services 
have provided. Title 10 of the United States Code clearly places 
responsibility for organizing and equipping (force structure) on the 
Services. The essential requirement is that we properly and clearly 
identify capabilities in long-term planning so the Services may build 
force structure to meet future mission needs.

    Chairman Warner. Thank you very much for asking that 
question to be put into the record, Senator Inhofe. I 
appreciate the cooperation of all members. We will be able to 
get to a second round.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my thanks to Ambassador Bremer and General Abizaid for your 
great service to our country and I want to tell you that we owe 
both of you a debt of gratitude for your efforts under very 
difficult circumstances. I want to ask that my statement be 
included in the record, Mr. Chairman.
    [The prepared statement of Senator Akaka follows:]

             Prepared Statement by Senator Daniel K. Akaka

    Mr. Chairman, I would like to add my thanks to the witnesses here 
today for their great service to our country. The Nation owes them both 
a debt of gratitude for their efforts under very difficult 
circumstances. Thank you, General Abizaid, and thank you, Ambassador 
Bremer.
    Mr. Chairman, I will support additional funding for our troops in 
Iraq. This committee has a tremendous record of supporting our military 
both in peace and in war. We want to do all we can to ensure that our 
troops are the best prepared, the best supported, and the best led in 
the world. Seeing General Abizaid before us today is a telling example 
that the American military is the finest.
    But we would not be doing our job of supporting our American 
fighting men and women in Iraq if we did not raise in today's hearing 
key questions about our post-war strategy in Iraq.
    I have concerns about the lack of information regarding the funding 
in the administration's proposal for reconstruction. We need to know 
what our reconstruction plans are, how much they will cost, how long 
will they take, how many more troops will be required, and when will 
troops leave. These are the same questions our servicemen and women, 
their families, and other Americans are asking. They deserve answers.
    I opposed going to war with Iraq because I believed that we needed 
to take more time to prepare for the postwar situation and I saw no 
imminent and direct threat to American interests by Iraqi WMD.
    As chairman of the International Security and Proliferation 
Subcommittee of the Governmental Affairs Committee, I had chaired some 
of the first hearings into Iraq's WMD program. As a result, I believed 
then and I still believe that Iraq's WMD programs did not pose such an 
immediate threat to the United States that we could not take the time 
to prepare adequately for war and the postwar situation.
    Now the President is requesting an additional $87 billion in 
supplemental funding for our military and reconstruction efforts. 
Again, I fully support the funding for the troops. I have difficulties 
with the approximately $20 billion which is included under the category 
of reconstruction or infrastructure. We need to take the time to 
discuss thoroughly our postwar strategy and to scrutinize the 
administration's proposal.
    For example, the President proposes to spend $100 million on a 
witness protection program for 100 families in a country where the 
annual per capita income before the war was only equivalent to $2,400. 
The same program in the U.S. last year covered 250 witnesses and their 
families for a cost of $31.5 million.
    There is a request for $150 million to start construction on a $700 
million new children's hospital. Is a new hospital needed? Wouldn't 
investment in the current Iraqi health service produce more immediate 
and lasting effects? Do we need to spend this much money to address 
health care in Iraq when additional resources are needed to meet the 
rising health care needs of our communities and reinforce our health 
care safety net?
    The proposal includes $19 million to build a wireless Internet 
network for the Iraqi post office and $150 million to create a national 
911 emergency service.
    What is the development strategy behind these proposals? Is there a 
1-year, 2-year, or even a 5-year plan in which these programs fit so 
that at the end of the term Iraq is self-sufficient?
    We have been told that there are timetables but plans need to be 
flexible. Plans do need to be flexible, but they must start by being 
coherent.
    A key question is, how soon do the President's proposals make it 
possible for American soldiers to leave Iraq? The President's deadline 
is unclear and the proposals for improving security inside Iraq are 
controversial.
    Comparisons have been made to the Marshall Plan and rebuilding 
Europe. However, in Europe, we had the support of a people who had a 
tradition of democracy and free enterprise who were not attacking our 
troops. That is not the situation in Iraq. In addition, there were many 
hearings held on the Marshall Plan, and Congress took the time it 
needed to thoroughly review the plan prior to its implementation.
    I want to again state that I fully support the funding of our 
troops; however we need more time and information regarding the 
administration's proposal for reconstruction.
    I look forward to the testimony and once again thank our witnesses 
for being here today.

    Senator Akaka. General Abizaid, I understand that the 
supplemental request assumes that there will be a continued 
presence of already committed two multinational divisions and 
possible contributions of up to two additional divisions, from 
other nations. What are your expectations about the rotation 
base for the international forces, and are the coalition 
members expected to continue their future rotations at the same 
level? If so, how realistic are these expectations to be?
    General Abizaid. Thank you, Senator. The two multinational 
divisions that are currently serving, the British multinational 
division in the South and the Polish multinational division in 
the central South, are both expected to continue to source 
forces over time. Certainly the British will continue as long 
as the mission continues.
    I've been assured by British military leaders at the 
highest level, and they also assured me that the members of 
their coalition will continue to bring troops in as part of the 
British force.
    The Polish force is a little bit harder to say, although 
it's clear that the Poles are committed. I talked to the Polish 
commander a couple of days ago down in Al Hillah. He told me 
that his nation is committed for the long run. It's hard for me 
to say exactly what that means, but I believe certainly the 
Polish part of that contingent. That is a very large mixed 
contingent. There's a brigade of Spanish troops, a brigade of 
Ukrainian troops that form the core of the division. I could 
not say for sure that they are here beyond a year, but I 
believe that most of the nations that are part of the Polish 
division are committed.
    As far as a third division is concerned, I have been 
hopeful that we can get a third division, and, as I've said to 
the committee before, I have been hopeful that we could get a 
third Muslim division, led by either Turks, Pakistanis, 
Moroccans, or another major Islamic country that has a large 
degree of military capacity. We could certainly use them in a 
lot of different places, and we're hopeful that over time we 
will be able to include a third multinational division on the 
force. As of now, we don't have that commitment, which is one 
of the reasons you see CENTCOM saying to the Joint Staff that 
we need to maintain our commitment of forces, of total 
brigades, which has then caused them to go to the National 
Guard and Reserve component to look for how they're going to 
source.
    Senator Akaka. Mr. Chairman, I also want to indicate that I 
will certainly support additional funding for troops in Iraq 
and wherever it's necessary. General Abizaid, we have not 
received very many details about the level of effort--and I'm 
shifting a little bit--involved in Joint Task Force Horn of 
Africa. Can you provide a brief description of the mission 
there, its relationship to operations elsewhere in the theater, 
and how many people are involved? Acknowledging that, of 
course, you cannot predict the future, do you expect that this 
mission will remain at about the same level of effort during 
fiscal year 2004 or will it be growing?
    General Abizaid. Senator, it will be my recommendation to 
the Department that Joint Task Force Horn of Africa continues 
its mission. There's about 1,400 people in that task force. 
They're based in Djibouti. They primarily work with the local 
nations in the Horn of Africa to increase their capacity 
against terrorism. For example, the other day I was in Yemen 
visiting with our Special Forces trainers that are working with 
the Yemeni army to increase their Special Forces' capacity. 
I've also seen them do civil military projects and training 
projects with the Ethiopians and the Kenyans. It is a small 
task force that doesn't have a direct combat role as yet. They 
do have the capacity to execute a combat mission should a 
terrorist target appear in their region, but for the most part, 
they are designed to increase the confidence and capacity of 
those nations in the Horn of Africa that are beginning to see 
the influx of some foreign fighters.
    Senator Akaka. Mr. Chairman, my time, I think, expired, but 
I want to clarify, Mr. Chairman, that I have the utmost respect 
for my colleague, Senator Inhofe, who is co-chair with me of 
the Senate Army Caucus. In response to his comment about 
members suggesting we ``cut and run,'' I have not heard that 
sentiment on this side. I believe we have been very thoughtful 
on how best to support our troops. Thank you very much, Mr. 
Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. As a former 
newspaper publisher and editor and as chairman of the Senate 
Select Committee on Intelligence, I would make the observation 
that while The New York Times and The Washington Post are very 
respected newspapers and fountains of self-assertive knowledge 
in this city, they are not 100 percent accurate in terms of 
actionable intelligence. We don't rely on the Times and the 
Post for intelligence in terms of the decisions that are being 
made.
    Let me say that I think the key to this hearing is 
something called staying power and resolve, and I'm going to 
quote Winston Churchill, who said something after Pearl 
Harbor--we call September 11 the Pearl Harbor on the global war 
on terrorism--I think that's accurate. He said, ``Silly people, 
that was the description many gave in discounting the force of 
the United States. Some said they were soft, others that they 
would never be united, that they would never come to grips, 
they would never stand blood-letting, that their system of 
government and democracy would paralyze their war effort. Now 
we will see the weakness of this numerous but remote, wealthy, 
and very talkative people. But I had studied the American Civil 
War fought out to the last desperate inch. American blood 
flowed in my veins. I thought of a remark made to me years 
before. The United States is like a gigantic boiler. Once the 
fire of freedom is lighted, under it there is no limit to the 
power it can generate. It is a matter of resolve.''
    I am just wondering in terms of the criticism--not 
wondering, I'm very concerned that if the criticism is so harsh 
as to create the impression of lack of resolve, I wonder what 
goes through the minds of President Karzai, President 
Musharraf, Prince Saud, King Abdullah, and President Mubarak. 
Not only are men and women serving in uniform, but the very 
terrorists who are killing our troops and their fellow Iraqis.
    It concerns me a great deal in that I think we have a leaky 
boiler, and I think we better fix that leaky boiler real quick, 
and, as Senator Akaka has pointed out, make dog-gone sure what 
we're saying is interpreted in the right way in regards to the 
global war on terrorism.
    General Abizaid, I think you put the Iraqi challenge into 
perspective when you said, ``If we can't be successful here, we 
won't be successful in the global war on terrorism.'' Based on 
your expertise and experience, can you give us a sense of how 
the Baathists and the foreign fighter terrorists in particular 
would benefit from the adoption of a mere timetable? We've 
heard a lot about a timetable here for the coalition departure, 
as opposed to a set of milestones, such as outlined in the 
much-criticized Ambassador Bremer's CPA strategy that did come 
to Members over 2 months ago? What would be the effect on the 
global war on terrorism?
    General Abizaid. I believe that you always run the risk 
when you set a timetable to send the wrong signals. We need to 
have a conditions-based strategy that allows us to get at our 
objectives in a coherent and a synchronized fashion, and I 
believe with regard to Iraq that militarily and politically we 
are probably lashed out better there than any place I've been 
before.
    With regard to the broader war on terrorism, I think we 
have to continue to look at the various movements throughout 
the theater that shows the danger continues to grow and we need 
to develop a more unified, international, and interagency 
strategy to deal with the broader problem.
    Ambassador Bremer. Senator, may I pick up on something you 
just said?
    Senator Roberts. Certainly.
    Ambassador Bremer. The fires of freedom are lighted in 
Iraq, and we have newspapers today. There are 186 new 
newspapers since liberation. These are two of them. This 
particular one happens to be very critical of me and the CPA. 
That's freedom of the press. This particular one happens to 
support us, but there are 184 other newspapers being produced 
in Iraq today. There are 85 new radio stations. There are more 
than 20 television stations.
    The fire of freedom that Churchill talked about have been 
lighted in Iraq, and we need to nurture it forward to 
democracy.
    General Abizaid. Senator, if I just might add one thing. 
This notion of will and how we're seen in the theater--I talked 
to President Karzai and President Musharraf and others, but the 
best manifestation of our will in the theater is the work that 
our young soldiers do out there, and when you see the work that 
a young captain does on the Afghan/Pakistani border and you see 
the confidence in his eyes, you know there is no problem with 
understanding our will to get the job done, and I believe those 
leaders see that.
    Senator Roberts. My time has expired, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Ambassador Bremer, 
I'd like to follow up on a couple of statements that you made 
in your opening comments if I may. One was something to the 
effect that Iraq is the focal point of the global war on 
terrorism. I can't remember the exact words that you used, but 
that was the gist of it. Tell the committee what you mean by 
that.
    Ambassador Bremer. I think the term I used, or anyway meant 
to use, was it has really become the main front in the war on 
terrorism. What has happened, Senator, is that Saddam Hussein 
supported terrorism. He was identified as a state sponsor of 
terrorism for almost 20 years. He played hosts to terrorists 
like Abu Nidal and Abu Abbas. There were connections with al 
Qaeda over the last decade. There was particularly a strong 
connection with an al Qaeda-related group called Ansar al-
Islam. You may recall in the early days of the war we attacked 
a camp in the Northeast of Iraq. We killed quite a few of the 
terrorists, unfortunately not enough of them. Several hundred 
of them escaped into Iran, and what we found was they 
reconstituted themselves and started to reintegrate back into 
Iraq in roughly early July.
    We now estimate that there are several hundred of these 
trained professional al Qaeda-type terrorists in Ansar al-Islam 
back in Iraq. We have captured several dozen Ansar al-Islam and 
al Qaeda terrorists in our military operations, so we have a 
serious terrorist threat in Iraq.
    Senator Pryor. Now has that terrorist activity increased 
since U.S. troops have been present there?
    Ambassador Bremer. I would say it has increased, as I 
suggested, since they reconstituted and came back in. The 
reconstitution seems to have taken them a couple of months, and 
they started coming back in in July.
    Senator Pryor. What were the terrorists doing before we 
came into Iraq, because apparently they were not attacking the 
Saddam Hussein regime. What were they doing there?
    Ambassador Bremer. They were supported by the Saddam 
Hussein regime. What they were doing was killing Kurds.
    Senator Pryor. Okay, so it's terrorism mostly against the 
Kurds?
    Ambassador Bremer. It was. It is now a very serious threat 
to not only us, but we've seen attacks against the U.N., we've 
seen attacks against religious leaders. We don't know at this 
time who conducted those attacks, but we certainly have seen an 
increase in terrorism.
    Senator Pryor. Have you seen an influx of new individual 
terrorists and new terrorist organizations in Iraq since we've 
been there?
    Ambassador Bremer. It's a bit hard to parse it. We know 
that during the war a number of countries sent what they said 
were volunteers to fight alongside Saddam, foreign fighters. We 
have captured 278 of these people since the war. Most of them 
are Syrians. We have seen crossing points established across 
the Syrian border where we have more of these people coming in, 
foreign terrorists and foreign fighters.
    Senator Pryor. Let me switch gears to another thing you 
mentioned--I believe it was in your opening statement, it may 
have been in response to a question--and that was you wanted to 
have transparency in the money allocated to rebuild Iraq. You 
said something to the effect--again, not trying to quote you 
exactly, but pretty close here--that all the contracts in the 
future will be about competitive bid. Is that right?
    Ambassador Bremer. That's correct.
    Senator Pryor. My question for you is, have all the 
contracts in the past been by competitive bid?
    Ambassador Bremer. Senator, my understanding is that 95 
percent of the contracts that we have let have been by what is 
called a full and fair open competitive bid.
    Senator Pryor. Okay, 95 percent of the contracts or 95 
percent of the dollar amount?
    Ambassador Bremer. Contracts.
    Senator Pryor. Of the contracts. Do you routinely meet with 
the private companies who are operating in Iraq today?
    Ambassador Bremer. Do you mean the American?
    Senator Pryor. Yes, the American.
    Ambassador Bremer. Yes, I do.
    Senator Pryor. You do? How routine are those meetings? Do 
you have them weekly, daily?
    Ambassador Bremer. One of the major contractors is heavily 
responsible for our efforts on restoring power, and I meet with 
them every morning.
    Senator Pryor. Okay. Which contractor is that?
    Ambassador Bremer. Bechtel.
    Senator Pryor. Bechtel. Do other members of your staff meet 
with contractors as well?
    Ambassador Bremer. Oh, yes, sure.
    Senator Pryor. How, in your view, have the contractors been 
performing in Iraq to date?
    Ambassador Bremer. I think they've been performing very 
well. One must remember it's not an easy environment. There are 
security concerns. But given everything, we expected to see 
these big contracts begin to really develop some momentum 
towards the end of August. It takes months to get a big 
contract going, and, in fact, that happened. We're really 
seeing a build-up here in the last couple of weeks.
    Senator Pryor. Specifically--and I'm out of time here--but 
specifically there have been a lot of questions asked in the 
U.S. about Halliburton being in Iraq. I was just curious about 
what they're doing over there, how large of a contract they 
have, and whether it was offered by competitive bid.
    Ambassador Bremer. My understanding is that there is a 
Halliburton contract. I think the amount in that contract is 
$1.2 billion, but I may be off a bit, and their main job is 
working with the Army Corps of Engineers to restore the oil 
field productions.
    Senator Pryor. Was that by competitive bid?
    Ambassador Bremer. No, I think that was not by competitive 
bid. I believe that was a contract that was let even before the 
war.
    Chairman Warner. Thank you, Senator. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. First, I too am 
concerned about the nature of some of the criticism that we've 
had from people who opposed the war from the beginning, even 
though we voted over three-fourths to support it. The President 
supports it. The American people have supported it. We are 
committed as a Nation, and it is important that we have staying 
power and go through it. I just want to take a minute to say 
how much I appreciate Chairman Warner's leadership. He has been 
a person who puts America first. When President Clinton was in 
office, he supported him on every single foreign policy matter 
that came up that I know of because he puts America first. He 
served in the Navy as a young sailor in World War II, in Korea. 
He was in the Department of Defense in Vietnam, and Secretary 
of the Navy, but I think he sets the example--and the Marine 
Corps, too, marine Pat Roberts says. He set an example for us 
that politics ought to stop at the water's edge, and legitimate 
criticism is fine but some of this criticism, in my view, has 
gone beyond legitimate to destructive comments. I want to be on 
the record about that.
    I want to ask you quickly, General Abizaid, I think Alabama 
has one of the highest numbers of reservists and guardsmen in 
Iraq. I've met with two of those units directly. There's an 
article that has been out quoting General Pace, I believe, as 
saying that we may call up additional reservists. There is one 
thing I'd like for you to clarify. It suggests in those 
headlines that we're going to be having an increased number of 
American troops in Iraq and those would be National Guard and 
reservists. As I understand it, it's saying in the future that 
to replace existing troops, we may need to call up more 
guardsmen and reservists. Can you clarify that?
    General Abizaid. Sir, in order to rotate the troops that 
are there we will call up additional Guard and Reserves. It 
will not increase the overall number of troops.
    Senator Sessions. So the headline that suggests we are 
calling up more National Guard and reservists because we're 
having a terrible time in Iraq and we have to increase our 
troop strength is not accurate?
    General Abizaid. That is not accurate, but, Senator, we 
cannot do the job without the National Guard and the Reserve.
    Senator Sessions. You are certainly correct, and I was so 
proud of the troops that I met with, in active duty too, but I 
particularly had the opportunity to be with some National Guard 
units that are performing superbly.
    With regard to this supplemental and the need for it, 
Ambassador Bremer, you suggested to me when I was in Iraq the 
critical need of speed. Is it your view that if we delay 
stepping forward with this infrastructure improvement, 
particularly electricity, that it jeopardizes General Abizaid's 
soldiers, among other risks that we undertake?
    Ambassador Bremer. Yes, as I said earlier, Senator, I think 
it will increase the security threat to our men and women in 
the Armed Forces and to the Iraqi people.
    Senator Sessions. In other words, it could undermine 
confidence of the Iraqi people and the ability of the coalition 
leadership to be effective?
    Ambassador Bremer. I believe that's correct.
    Senator Sessions. That could be destructive in a number of 
different ways?
    Ambassador Bremer. It will be destructive and it would be 
basically, as I said in my opening statement, leaving the job 
that we've started unfinished.
    Senator Sessions. Now I know you've about gotten 
electricity back up to prewar levels, but there's still a 2,000 
megawatt shortage?
    Ambassador Bremer. Exactly.
    Senator Sessions. Are those the right words?
    Ambassador Bremer. You remembered the briefing.
    Senator Sessions. Ambassador Bremer, our main contract to 
Bechtel has received a lot of money on this. I'm not sure they 
understand that this is life and death for American soldiers. 
People in this area right now are up in arms because 
electricity in some areas has been off 8 days. Are you 
confident that this corporation is interested in moving quickly 
and would you be prepared to terminate their involvement if 
they don't show the sufficient intensity of interest in 
bringing this electricity online?
    Ambassador Bremer. Yes. Let me just make three points. I am 
convinced that they're moving very quickly; it is the major 
part of their contract. Second, we have a group brought in at 
General Abizaid's request and with his assistance from the Army 
Corps of Engineers to undertake an urgent, additional effort on 
power over the next 3 months. Of course, in the supplemental we 
have almost $6 billion for power generation. That will be done 
in a free and open bid. We'll see who bids on it. That will be 
an open contract. But, of course, if Bechtel or any contractor 
were not performing up to the standards of the contract, we 
would not hesitate to take the appropriate action.
    Senator Sessions. I thank you for your service and 
leadership. I believe we need to keep the heat on everybody on 
that issue, and, if they don't perform, they ought to be out of 
there.
    Chairman Warner. Thank you, Senator.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today. We appreciate very much the 
opportunity to discuss these critical issues with you. One of 
the concerns that my colleague from Alabama just mentioned was 
the further call-up of Guard and/or Reserve units. During their 
reappointment hearing in July, I mentioned to Generals Myers 
and Pace the concern that I have about rotation deployment and 
not knowing a date when the deployment is to end. With these 
future call-ups, can we be assured that there will be a 
termination date that will be communicated to the Guard and 
Reserve units so that they know how long the deployment will 
be, even if it is extended? Thus far, the criticisms that have 
come from the family more than from the troops is that they 
don't know and that they can't plan accordingly. Their lives 
are on hold, their jobs are on hold, their potential 
advancements are on hold. Can we assure them with these future 
call-ups that we can communicate to them when the deployment 
will end, even if extended?
    General Abizaid. Thanks very much for that, Senator. One of 
the most important things for any soldier to know is when are 
they coming home. They need to know that, and, unfortunately, I 
can report to you that not all of them know that.
    Senator Ben Nelson. That's the problem.
    General Abizaid. It is a problem. I was out talking to 
reservists just the other day, not only in Baghdad, but also 
around the country and also in Qatar and other places. There is 
a problem that the reservists do not understand when they're 
coming home because of the 1-year boots-on-the-ground policy. 
I've talked to the Army, our Active Forces. They know when 
they're coming home. Everybody that's there needs to know when 
they're coming home. I take it as my responsibility. I will 
work it and I will ensure that the new guys coming in know when 
they're coming home, nothing more important. It is not right 
now and it needs to be fixed.
    Senator Ben Nelson. As much as I appreciate it, I know 
they'll appreciate it a lot more, so I thank you very much.
    Ambassador Bremer, there has been more than a slight amount 
of criticism and major inquiry into what the cost of 
reconstruction might be and who's going to pay for it. Can you 
tell me if there's been any consideration of securitizing the 
oil revenues from Iraq over a period of time, subordinating the 
debt of the other countries that have not participated with us 
to date, to be able to make sure that the revenues pay for the 
Iraqi reconstruction, don't come to the United States for other 
offsets, but go to the reconstruction of Iraq? Because if we're 
able to do something with that construct, it seems to me that 
we can avoid paying as much as we would otherwise pay out of 
American taxpayers' pockets for the reconstruction of Iraq.
    Ambassador Bremer. Thank you, Senator. We had a brief 
conversation with Senator Levin about that earlier. On the face 
of it, the $200 billion or so which Iraq has in debt and 
reparations hanging over it could be colored as odious debt. If 
you look at it----
    Senator Ben Nelson. Well, at least that.
    Ambassador Bremer. Well, but it's a legal term.
    Senator Ben Nelson. I know.
    Ambassador Bremer. I'm not an attorney, but apparently it 
allows some possibilities for what you do with that debt.
    Senator Ben Nelson. Exactly.
    Ambassador Bremer. With the American Government's lead, we 
have an agreement from the group of seven and, therefore, 
through most of the large creditors of the government debt, an 
agreement to suspend the debt servicing until the end of 2004. 
The intention is to try to come up with some kind of an 
agreement on a substantial reduction of Iraq's government debt 
by the end of next year.
    That is going to be a very, as it always is, complicated 
negotiation. The reparations, which represent about $100 
billion of the $200 billion, maybe a little less, are 
essentially a political issue that the Iraqi Government is 
going to have to address at some point with its neighbors, 
because these reparations, of course, were incurred because of 
Saddam's aggressive wars against his neighbors. Mostly the 
reparations are owed to Saudi Arabia and Kuwait, particularly 
Kuwait.
    The governing council has already begun to be seized of 
this issue because it is so important, and has encouraged us, 
and we have encouraged them. We agreed to start looking at a 
major effort to get rid of the reparations overhang. But both 
of these efforts, Senator, which are laudable and which we 
support, are going to take time. They're going to take probably 
a year and a half, maybe even longer. The history of debt 
renegotiations is fraught with great delays, and we don't have 
a year and a half to wait. Until that happens, in my view, it 
is not wise to seek to put any more debt onto the Iraqis, even 
if it's in the form of collateralizing future oil revenues, 
which also has the disadvantages--I think Senator McCain may 
have mentioned--of making it look as if we, no matter how you 
do it, are in some way taking a lien against oil revenues and, 
therefore, that's why we fought the war. So there's a political 
problem and there is most of all a timing problem.
    Senator Ben Nelson. But there's a political problem here at 
home of----
    Ambassador Bremer. I understand.
    Senator Ben Nelson.--paying American money to reconstruct 
Iraq in light of loans to other countries but no loan to the 
United States. I have a real difficult time--I don't want to 
load them with debt, but they're already loaded with debt. I 
don't want to also unload the potential for debt by gifts from 
the American people in the form of taxes to reconstruct Iraq if 
we can avoid doing that through debt. It seems to me that there 
is a threshold here for subordination of the other debt if we 
want to push it hard to get reconstruction accomplished today 
in the midst of the turmoil that exists at the present time. 
Subordination is a common practice in the investment world. 
This looks to me like if we're going to make an investment for 
Iraq, we can invest their money in this way, and it's not money 
coming to America, but it's not outflowing from America in that 
process.
    Chairman Warner. Thank you, Senator, very much.
    Senator Ben Nelson. Thank you. My time has expired.
    Chairman Warner. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Ambassador, 
General, let me begin my questions by thanking you for your 
extraordinary service. Your leadership and courage are 
inspiring, and I do want you to know that we do very much 
appreciate your efforts and your leadership. I'm going to begin 
my questioning, Mr. Ambassador, by following up on the 
questions just raised by Senator Nelson. I do not contest at 
all the urgent need for the supplemental and in the amount that 
you have recommended, but I think that it is appropriate for us 
to raise questions and look to see if there is a way to lessen 
the impact on the American taxpayer.
    The American taxpayer is very generous. We understand that 
in the short term Iraq clearly cannot repay the money that is 
necessary to help construct the infrastructure that's needed to 
boost the economy, but, in the long run, Iraq will be a 
prosperous country. Therefore, it seems logical to many of us 
to come up with a way to structure part of the construction 
costs as a long-term loan. One of the arguments that you put 
forth this morning and previously is that Iraq is already 
burdened with an estimated $200 billion in debt and reparations 
from Saddam Hussein's regime, but what is often left out is 
that the largest holders of that debt are Saudi Arabia, France, 
Germany, and Russia. If the leaders of three of those nations 
had had their way, the Iraqi people would still be suffering 
under Saddam Hussein's regime.
    The American people will be justifiably outraged if a dime 
of their money is essentially used to finance the repayment of 
debt to those nations. I am very concerned that at a time when 
we're asking the American taxpayer to invest billions of 
dollars in the infrastructure of Iraq, these countries will be 
repaid part of the debt that they're owed, so how are we going 
to prevent that situation from occurring?
    Ambassador Bremer. Thank you, Senator. I was going to 
answer this. Effectively, the debt is already subordinated 
because I said yesterday in testimony that not a penny of this 
money will be going to repaying those debts.
    Senator Collins. But money is fungible.
    Ambassador Bremer. It isn't going to happen. In effect, no. 
First of all, you have to remember, let's look at the timing. 
The debt servicing has been tolled until the end of 2004, so 
Iraq is under no pressure to pay any debt servicing or any debt 
repayments before the end of next year. In the supplemental we 
will be asking for, all of the money will be obligated and most 
of it will, in fact, be spent before we even get to the end of 
2004.
    Senator Collins. When I was in Iraq, I was struck by how 
little damage there really was from the war. What we're talking 
about is not really rebuilding Iraq; we're talking about an 
infrastructure that has been looted by Saddam for decades and 
that now is often the target of sabotage. Wouldn't it give the 
Iraqi people more of an investment in their own infrastructure 
for us to structure at least part of the supplemental--just 
that part that is being used to rebuild the infrastructure--as 
a long-term loan? I just don't see why the administration is 
opposed to that. I'm not talking about a short-term loan. I'm 
talking about after Iraq is back on its feet and producing oil 
revenues and, once again, a prosperous, democratic country.
    Ambassador Bremer. The part you identified is not a small 
matter. It's $15 billion out of the $20 billion. It's not a 
small loan. I think it's important to remember that--I said, I 
think, in answer to an earlier question--the Iraqi people are 
already paying for their reconstruction through, somewhat, the 
2003 budget but a lot in the 2004 budget. As I suggested 
earlier, by 2005 they will be generating excess revenues, which 
will help fill the gap between the $60 billion the World Bank 
says is needed over the next 4 to 5 years and the $20 billion 
that we are asking for over the next 12 to 18 months. The Iraqi 
people will, in fact, be paying that money, but if you then 
say, ``No, instead of that, you're going to have to use that $5 
billion to pay back the American loan,'' then necessary 
investments that the Iraqis should be making in their country 
will not happen and we will not be closing the gap.
    Chairman Warner. Thank you, Senator.
    Ambassador Bremer. The facts here are rather compelling, I 
think.
    Chairman Warner. Thank you very much.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman. I join with my 
colleagues in thanking each of you for your service.
    Ambassador, when you appeared before the Democratic Caucus 
on Tuesday, you were specifically asked whether there would be 
any further requests for funding beyond the $20 billion that 
has been requested now. Your answer was ``No, this is it.'' Is 
that still your answer?
    Ambassador Bremer. Yes. What I said was we will not ask for 
a supplemental like this. If there is any further need I would 
anticipate--and I made this a point to the Appropriations 
Committee yesterday--any further requests will be done through 
the normal appropriations process. In other words, it will come 
forward as part of the regular appropriations process, the 2005 
budget presumably early next year.
    Senator Clinton. In other words, what many of us heard in 
the Caucus, which is that the $20 billion was the end of the 
requests with respect to financial resources, means somewhat 
differently today that it was to be construed as not a request 
for additional supplementals, but there may be additional money 
for reconstruction and related costs that would come through 
the regular budget system?
    Ambassador Bremer. Yes, Senator, and I'm not trying to be 
cute here. There are a lot of unknowns. We know there's a big 
gap; we know that the World Bank says there's going to be a 
need of $60 billion over the next 4 to 5 years. We are asking 
for $20 billion here. We're hoping we'll get a substantial 
amount from the donors conference, but that's an unknown. The 
Iraqi Government is going to have to do its own 2005 budget, 
which hasn't yet been started; we just finished the 2004 
budget. There are a number of moving parts here that will have 
to be pinned down in the next 4 to 5 months before the 
administration puts together its regular 2005 budget request, 
but I would anticipate if we need any more money, it would come 
through the regular appropriations process.
    Senator Clinton. Ambassador, I join with both Senator 
Collins and Senator Nelson in urging the administration to look 
for a way that there can be some assurance to the American 
people that we will be in line at least to receive payments 
from a future Iraqi Government, and, given all the talk about 
the Marshall Plan, I think it is instructive that President 
Truman required a dollar-for-dollar match from beneficiary 
countries. We would hope that you would be more open to such a 
possibility than we've heard thus far.
    I just want to ask a few specific questions. Also, at the 
Democratic Caucus, you said that 535 copies of this CPA plan 
were sent to Members of Congress in July. I can only speak for 
myself; I didn't see it until this week. But in looking at it, 
with respect to the security section and the specific points 
that are included--to defeat internal armed threats; undermine 
support for paramilitaries; deter external aggression; locate, 
secure, eliminate WMD; eliminate munitions caches--we need more 
specific information. Those are all very laudable goals. We all 
want to do all of those things and we know that you are working 
very hard to achieve those, but let me just try to get on the 
record so that I have some benchmark against which to judge 
this. First, how many members of the Iraqi army are there at 
this moment?
    Ambassador Bremer. The Iraqi army has one battalion, which 
is about 750.
    Senator Clinton. Seven hundred and fifty? How many troops 
do you plan to train for the Iraqi army in the next year?
    Ambassador Bremer. You won't find it in that plan because 
we've updated it. We plan to have 27 battalions ready by August 
next year.
    Senator Clinton. For the purpose of the record, how many 
people are we talking about?
    General Abizaid. Forty thousand.
    Senator Clinton. Forty thousand within the next year?
    General Abizaid. That's correct, Senator.
    Senator Clinton. Now, in May or June, I know that there 
were press reports that while Members of Congress were visiting 
Iraq a previous estimate was that you were to have 7,000 
trained. How have you increased that number so dramatically?
    Ambassador Bremer. Because, Senator, one of the things we 
are trying to do now is get the Iraqis more responsible more 
quickly for their own security. That's why you find the large 
number of $2 billion in the supplemental to train the army. We 
want to do what we were planning to do in 2 years in 1 year. 
The same is true for the police. If you looked at our planning 
back in June, July, we were planning to train a police force of 
about 75,000 to 80,000, but I was told it was going to take 
almost 6 years. I said that's simply too long; we have to do it 
faster. The plan now is to do it in the next 18 to 24 months, 
and you have another $2 billion in the supplemental to make 
that happen.
    Senator Clinton. The goal for the number of police is what?
    Ambassador Bremer. About 75,000 to 80,000 in the next 18 to 
24 months.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much, Senator. That's an 
important question. It follows in the Warner-McCain issue about 
the use of these troops ahead of time for internal security. 
Not on my time, but address it when you can. Thank you. Senator 
Dole.
    Senator Dole. Thank you, Mr. Chairman. I've regarded the 
war against Saddam Hussein as a righteous cause. This man 
thumbed his nose at the world community. He violated 17 U.N. 
resolutions over a period of 12 years. He gassed 5,000 men, 
women, and children, his own people. As you've said so 
poignantly, Ambassador Bremer--and I've quoted you many times 
on this--``Gone are Saddam Hussein's torture chambers, gone are 
the mass graves and his rape rooms, gone is his threat to the 
United States and to the international community.'' I certainly 
want to take this opportunity to express my admiration to you 
both, my tremendous respect for the job that you are doing and 
our young men and women who are serving around the world.
    Earlier this week a proud grandmother handed me a letter 
from her grandson who is currently stationed in Baghdad. 
Different points of view have been expressed in this hearing, 
and I'd like to just read a couple of lines from what this 
soldier on the front lines had to say. He says, ``I was invited 
to meet with a local Iraqi who works the engineering for our 
building's electricity. He graduated from the Baghdad 
University in engineering and showed me his class picture from 
1979. We talked about what it was like then and the difference 
now. You could see the suffering in his eyes as he talked about 
the years of terror that people lived with while Saddam was in 
power. I felt the same emotions of sadness for these people 
when I first rolled up here from Kuwait, to see their cheering 
faces of relief. Many a soldier's eyes were filled with tears 
that day. I pray that we finish the job we started.''
    Defeating terrorism is more than removing the leaders of an 
evil regime from power. Terrorism must be torn out by its roots 
so that there is no toehold for its sponsors to reestablish 
their violent ways. More than words, more than negotiations, 
the President's significant spending request sends an 
unmistakable signal to these sponsors of terror, to the 
liberated Iraqi citizens, and to the world that the United 
States is staying the course, lest the fight again return to 
American soil. Failure to follow through in our mission could 
leave a lethal void, a void that would rapidly be filled with 
terror and its supporters.
    Of course, the American people must know how this money 
will be expended, and I'd like to ask several questions. 
General, as part of the Department of Defense supplemental 
request, military personnel costs come in at approximately $18 
billion. The specific details mentioned call for enhanced 
special pay, imminent danger pay, family separation allowances, 
and hardship duty pay that come in above the standard expected 
personnel costs for a typical budget year. In the 2004 Defense 
Appropriations conference, $128 million was provided to 
continue the rate increase for imminent danger pay and family 
separation pay. Was this rate increase figured into this 
request? The $18 billion also includes salaries for service 
members retained on active duty through stop loss. Does it 
include salaries for activated Guard and Reserve members, and 
has an additional call-up also been calculated in this figure?
    General Abizaid. I know that in terms of the calculation 
for Reserve and Guard call-ups, yes, I believe it is included. 
In terms of the additional danger pays, et cetera, I can't 
answer that question and I'll have to get back to you on the 
record, and the reason is because there is some debate within 
the administration as to how that will be paid for. With regard 
to your other questions, the answer is yes, it was factored in. 
With regard to danger pay, I'll have to get back to you.
    [The information referred to follows:]

    OSD has assured me that the $128 million was provided to continue 
the rate increase for imminent danger pay and family separation pay 
through the first quarter of fiscal year 2004.

    Senator Dole. Thank you. Within the Department of Defense's 
military construction request, over $100 million is requested 
for air field ramps at Qatar and the United Arab Emirates 
(UAE). Are these governments providing any matching funds for 
these projects?
    General Abizaid. I can't answer specifically whether 
they're providing matching funds for those projects, but they 
provide substantial funds for other projects that we have been 
very anxious to get done. For example, we moved our forces from 
Saudi Arabia that were in a combined air operations center to 
Qatar and put them in the combined air operations center there, 
and the Qatari's paid a great portion of that cost. The same in 
the UAE, they have paid for substantial costs to upgrade the 
facilities. I can't answer as to whether or not there are 
matching funds on these projects, and I'll have to get the 
answer to you.
    [The information referred to follows:]

    The Governments of UAE and Qatar have both contributed greatly to 
U.S. facility projects in their respective countries and we expect this 
support to continue. UAE agreed to provide almost $60 million in 
facility construction at Al Minhad and Al Dhafra Airfields to address 
critical CENTCOM airfield and force protection concerns. At Al Udeid, 
Qatar is funding an estimated $145 million in construction projects 
that directly support U.S. and coalition operations.
    CENTCOM's approach toward permanent construction funding in our AOR 
has been, and will continue to be, to first seek host nation support 
and funding for our long-term facility requirements. Historically, host 
nations have funded over 50 percent of these type projects.
Background:
    Matching funds can be viewed as directly or indirectly contributing 
to U.S. facility requirements.

          Direct support--funding portions of a specific requirement--
        e.g. splitting costs.
          Indirect support--funding other projects that enhance and 
        support U.S. presence.
    UAE
          UAE Investment--$60 million: Minhad Air Base development ($20 
        million)--Expand runway and construct support facilities. Al 
        Dhafra Air Base ($40 million)--Relocate AF cantonment area and 
        replace tentage with ``hard'' facilities to meet force 
        protection requirements.
          U.S. Government Investment--$62.3 million: Al Dhafra ramp and 
        fuel system and temporary cantonment facilities.
    Qatar
          Government of Qatar Investment--$145 million: Al Udeid 
        development--Base operational support facilities.
          U.S. Investments--$180 million: Life support facilities 
        (Millennium Village) and aircraft ramps.

    Senator Dole. I think my time has expired. Thank you, Mr. 
Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman. Gentlemen, thank you 
for your service. Regardless of where any of us were on the 
commencement of hostilities in Iraq, we have no choice but to 
be successful now. I think there is unanimity of opinion with 
regard to that. I think the American people share that 
sentiment and are willing to be both patient and generous as we 
pursue this, but there are limits to both the patience and the 
generosity of our people.
    The patience will be tested, Ambassador, by the existence 
of a strategy that is coherent, detailed, and persuasive in 
terms of bringing an end to this eventually. As a couple of my 
colleagues mentioned, I think that this still appears to be a 
work in progress and that more progress needs to be 
forthcoming; otherwise, the patience will wear thin.
    With regard to the generosity, I think it depends upon the 
equity of the program that you put forth. My guess is that the 
American people would support just about anything, would 
support anything for our troops, would support just about 
anything for the security of the Iraqi people. The economic 
assistance is another matter. My back-of-the-envelope 
calculations indicate that the value of proven or potential 
Iraqi oil reserves is between $5.5 trillion and $2.8 trillion, 
clearly enabling them to bear part of this burden themselves.
    I want to follow up on Senator Nelson's and Senator 
Collins' line of inquiry, Ambassador, and I understand that--
I've listened to your testimony today--a lack of a functioning 
government limits our ability somewhat in the existence of the 
$200 billion of debt, although $100 billion of it is 
reparations, and it seems to me that ought to be waived, so 
we're really dealing with $100 billion of other debts here. My 
question very simply is, how do I explain to my constituents 
that those who helped to prop up Saddam's regime, the French, 
the Russians, and others, could potentially be repaid, but 
those who financed the war to liberate the Iraqi people will 
not be repaid? How do we explain that?
    Ambassador Bremer. Senator, I appreciate the difficult 
situation this puts legislators in, but again it's a question 
of timing. I agree. I've said--and I was the first in the 
administration to say it back in early July--that there must be 
a substantial reduction in Iraq's debt. That is the position of 
this government; it is also the position of the group of seven 
when they met in Evian in June. There's no contest there. We 
understand that there has to be a significant haircut, as they 
call it on Wall Street, and, incidentally, we're into this game 
for about $4 billion ourselves. There is about $4 billion--$2 
billion in principal, $2 billion in interest from the American 
taxpayers. There is going to have to be a very substantial 
reduction in debt----
    Senator Bayh. I don't want to interrupt, but could I ask 
about the question of timing. Maybe this gets to the heart of 
the matter somewhat. We're expected to pony up the money while 
we continue to negotiate with the same people who diddled us 
around at the United Nations and elsewhere and expecting them 
to ultimately do the right thing. Can you understand why the 
American people would be a bit skeptical about that?
    Ambassador Bremer. I can, and I think we're going to have 
to work with the Iraqis. It's after all their debt; it's their 
country we're talking about here. We're going to have to work 
with the Iraqis. Hopefully we will have before too long a 
legitimate Iraqi Government that in fact can enter into 
contracts and agreements, but, again, my problem is timing. We 
have an urgent need to get this reconstruction started.
    Senator Bayh. Let me ask about that, the legitimate Iraqi 
Government. You can understand the position this puts you in, 
where we are potentially honoring the commitments that Saddam 
Hussein made, but are giving the current governing council no 
authority to make alternative choices. That is ironic to say 
the least.
    Ambassador Bremer. There are lots of ironies in the 
situation in Iraq.
    Senator Bayh. I must also say I agreed with Senator 
Collins, and I understand the timing issue here, Ambassador. 
But money to some extent is fungible. To the extent that we're 
making grants today, that does increase the new Iraqi 
Government's capacity to repay other obligations later, and it 
would be more than ironic. I agree with her characterization; 
it would be outrageous if the American taxpayers were 
indirectly repaying even a single franc or ruble to the French 
or to the Russians.
    Ambassador Bremer. I agree with that and I said so 
yesterday and I repeated it today. I agree.
    Senator Bayh. General, perhaps a question for you. 
Ambassador, I hope you'll forgive me if I turn my attention 
elsewhere.
    Ambassador Bremer. Yes.
    Senator Bayh. Ansar al-Islam was on our radar screen for a 
long time. We knew that we were going to go in there and do 
something about them. We knew that they were located close to 
the border. The possibility of flight into Iran was an obvious 
possibility. How did so many of them escape?
    General Abizaid. Senator, I'm not so sure how many of them 
escaped. During the war, the strike that we had on their 
facilities up on the northeastern border with Iran was very 
devastating. A large number were killed there. Many of them 
that are currently operating in the country are probably 
survivors that were in position in places such as Baghdad, 
elsewhere. Some of them went into Iran and moved up into the 
mountainous regions there and then figured a way to infiltrate 
back. We think that the number of Ansar al-Islam is somewhere 
between 200 and 400 perhaps within the country. We remain 
concerned about the capacity of Ansar al-Islam. We remain 
concerned about their ties to al Qaeda. Certainly we should 
also have expected that some of their other people from abroad 
would have returned to join Ansar al-Islam as things have 
developed in Iraq as well.
    Chairman Warner. Thank you, Senator.
    Senator Bayh. Thank you, Ambassador.
    Chairman Warner. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman. I would like to 
make my prepared statement a part of the record.
    [The prepared statement of Senator Cornyn follows:]

               Prepared Statement by Senator John Cornyn

    Ambassador Bremer, General Abizaid: I would first like to express 
my appreciation for the excellent work that both of you have done in 
Iraq. All of our men and women working there--military and civilian--
are doing a remarkable job. Unfortunately, much of the positive 
accomplishments in Iraq are drowned out here at home by the 
irresponsible rhetoric of those who are motivated by the politics of 
the moment. This is the sad reality of the political season we are in.
    I am sure you have seen the recent Gallup Poll indicating that 
nearly two-thirds of individuals in Baghdad believe that ousting 
Sadddam Hussein was worth the hardships that they are experiencing 
today. I wish some of the politicians in our own country would share 
the same level of optimism as the Iraqi people. The fact is, the plan 
we have in place for Iraq is working, and we are indeed making 
progress.
    The American people are being asked to pay $87 billion for our work 
in Iraq and Afghanistan over the course of the next year. This is a 
tremendous sum of money by any measure, but we cannot simply walk away 
from Iraq as some are suggesting and allow another dictator to rise up. 
We have no other choice but to finish the job in Iraq.
    I am confident that the American people understand the importance 
of finishing the job in Iraq, and that the naysayers here in Washington 
will be proven wrong. Unfortunately, the constant and politically 
motivated criticism of our efforts only undermines the good work of our 
men and women in Iraq.

    Senator Cornyn. Thank you, Ambassador Bremer and General 
Abizaid, for being here. I know you've been through several of 
these hearings this week. We appreciate your testimony and your 
service and your stamina.
    I just want to make sure I understand the choices that 
you're telling us we have. Do we really have any alternative 
but to finish the job in Iraq? In other words, what is the 
alternative and what is the message that America would send to 
our enemies in the war on terror?
    Ambassador Bremer. Senator, I don't think we do have a 
choice, and I don't think when the American people think it 
through they'll decide not to finish the choice. I have said 
before: we are not a nation of quitters. In the 18th century, 
we didn't quit until we got the British out of here. In the 
19th century, we didn't quit until we'd freed the slaves. In 
the 20th century, we twice didn't quit until we had freed 
Europe. We will see this job through, I am confident.
    Senator Cornyn. General Abizaid, I know there are some who 
would like to separate the monies being requested in this total 
$87 billion supplemental between assistance to our troops in 
the field and economic assistance in the reconstruction of the 
Iraqi people. In your opinion, are the economic assistance and 
the reconstruction money that are being requested essential to 
the success and security of our troops in the field?
    General Abizaid. Senator, I think that they are 
inextricably linked, and there is no doubt about it in my mind. 
First of all, you have the supplemental portion necessary for 
sustaining the Armed Forces over time, but just having that 
will only keep us the way it is. What we need is to have 
immediate improvement, and that requires the $5 billion in 
particular for security so we can build Iraqi security 
capacity. The many other parts that Ambassador Bremer has 
talked about are essential for the security environment. After 
all, this mission is about achieving consent within the Iraqi 
populus that will allow them and us to work together to build a 
more prosperous and more representational Iraq, and I believe 
that this is absolutely essential to keep it together.
    Senator Cornyn. I share my colleagues' concerns and their 
sense of fiscal responsibility when dealing with taxpayers' 
dollars, and I know you share that concern as well. I just wish 
that concern pervaded all aspects of our responsibilities in 
this Congress because, of course, spending continues to be a 
problem for the American taxpayer in terms of the deficit. But 
to put this in context, there was an article in USA Today just 
a couple of days ago that says that if the cost to defeat 
Saddam was less than half of a percent of America's annual 
income measured as gross domestic product (GDP), if spending 
continues at the current pace, our involvement would cost us .4 
percent of our income for the rest of the year. If President 
Bush's request for $87 billion for Iraq and Afghanistan is 
approved, the cost on these two fronts will amount to about .8 
percent of our income next year.
    Now, these numbers are hard to grasp, but to boil it down 
for the American taxpayer, the article concludes, ``Each year 
American households spend about 1 percent of their income on 
alcoholic beverages and another 1 percent on tobacco products. 
We spend about .7 percent of our money on cosmetic products. In 
other words, our combined operations to combat terror in the 
Middle East cost a bit more than we spend on makeup and shampoo 
and a bit less than we spend on booze and tobacco.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Cornyn. I think it's important for the American 
people to understand that we are talking about taxpayer money 
and we are the stewards of that trust that's placed in us. But 
we really, in my opinion, have no alternative, and I think your 
testimony supports that.
    Finally, let me just ask Ambassador Bremer, I know there 
was reference made to The New York Times and The Washington 
Post and the perhaps mischaracterization, if not misstatement, 
of certainly Ambassador Bremer's conversations with the 
President and testimony here today. But I do note that there 
are at least two other newspapers, in addition to the fact that 
now the oil minister of the Iraqi Governing Council has 
participated in OPEC proceedings recently, the foreign minister 
accepted at the Arab League. But The Los Angeles Times and USA 
Today both point out that the President's efforts to--turn 
around perhaps is too strong a word--but to reach some 
rapprochement with the heads of the German and French 
Governments on Iraqi reconstruction have shown some signs of 
success, and I think in order to make this picture complete and 
to put it in proper context that we ought to talk about the 
great successes that we have seen. I see my time has expired, 
Mr. Chairman. Thank you very much.
    Chairman Warner. Thank you very much, Senator.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Ambassador, and thank you, 
General Abizaid, for being here and for the work that you are 
attempting to do. I have been, I suppose, one of the fiercest 
opponents of our going to war in Iraq. I didn't vote for, I 
believe it was, the October 11 resolution that gave to the 
President the power to determine when and where and how to use 
the Armed Forces of the United States in dealing with Iraq. I'm 
just as fierce, if I may use the word that has been used, an 
opponent today as I was then.
    I do, however, try to be realistic. Our troops are in Iraq. 
I always support our troops and shall continue to do so. They 
don't ask to go and we are responsible for getting them back 
home again and for meeting their needs while they are in war. 
Now, when it comes to the other part of the request that deals 
with infrastructure, I think that's an entirely different 
matter. I'm willing to listen. I've had a hard time, however, 
getting some other people to listen.
    Now, you, Dr. Bremer, earlier said something to this 
effect. I can't write very well because I have benign essential 
tremor, but as I make out my own writing, the effort requires 
the cooperation of both parties in Congress, and I want to 
compliment you on that statement. The effort you're talking 
about in which you caused me to write that down, I think, was 
this effort that's going on here and that has been going on in 
the Appropriations Committee, of which I have been an active 
part.
    I think that you do need the cooperation of the minority. I 
think you have it. I think you get it, but we don't agree with 
everything that's being done, naturally. The American people--
if they were asked to vote on some of these matters, I doubt 
that you'd get a majority. I wish that you would do whatever 
you can do to have the Republican leadership here slow down 
this train a bit. We were brought into hearings--it's not your 
fault, Mr. Chairman. We were brought into hearings on Monday of 
this week. Members on our side were not, to my knowledge, 
informed that there would be a hearing on Monday morning.
    Now, the chairman of the committee reset the hearing to the 
afternoon because I couldn't be there on Monday morning. But 
here we were on a Monday, when most Members of the Senate are 
elsewhere or coming from far points of the compass, and now 
we're expected to have a markup next Monday. It appears to me 
that my friends on the other side of the aisle are being a 
little too fast. I don't think it works to the betterment of 
what you are trying to accomplish here. It would seem that 
you'd have more goodwill on my side of the aisle. Now, I 
shouldn't make this sound like this is personal when I say 
``you,'' but you're asking for funds.
    You see my time has already expired, and I don't complain 
about that except to say that's the way it is, and yet the 
administration's people here in the Senate, the 
administration's party I should say, is pushing this matter to 
the extent that it will not get the attention that it may 
deserve. I guess that leads me to this question. I believe you 
said that you didn't need the money until January. I believe 
you said that in the Appropriations Committee or in the 
Democratic Caucus, whichever it was. Is that a fact?
    General Abizaid. No, Senator. We need this money right 
away. I think there's some confusion. I was asked a specific 
question, which was, ``When does the Iraqi Government run out 
of money?'' and I said, ``Sometime in January.'' That's not the 
same as this. We have to get these reconstruction programs 
going right away, as quickly as possible. There's nothing more 
urgent.
    Senator Byrd. It's my understanding my time is up?
    Chairman Warner. Yes, but that's an important question that 
you raise. I had intended myself to raise it, so why don't you 
finish it out because that should be clarified to give the 
Ambassador adequate opportunity to inform the Senate.
    Senator Byrd. Mr. Chairman, I believe also that the House 
is not marking up this bill until next week, if next week, and 
their markup would be next week or later. It leads me to say, I 
just feel that it would be in your interest and the cause which 
you're here to represent to lend a good word to this 
administration to slow down. I don't remember seeing any 
measure so important as this one, important because it has $87 
billion in it on top of the $79 billion that we appropriated 
earlier this year. You would certainly help me to better 
understand the request if we had a little bit more time.
    Now, as I say, that portion of the request which deals with 
the troops, I intend to support that, but the other, I think 
there ought to be a lot of questions asked. I think we're going 
down a long road when we start to establish a democracy in Iraq 
and from that to democratize the Middle East. The American 
people didn't go into this war with that understanding. They 
weren't told that, but I certainly would hope that you'd use 
your good authorities to impress upon this administration the 
need to slow down this train. You don't need that money, if you 
need it all, you don't need that money all that fast. We should 
have time, Mr. Chairman, to ask questions. Thank you very much.
    Chairman Warner. I thank you, Senator Byrd. I'm told that 
the leadership is trying to work out a schedule to accommodate 
that bipartisanship as we are hearing today.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Ambassador Bremer, 
do you have accurate expense reports for the expenditures 
you've already made in Iraq?
    Ambassador Bremer. Yes, we do.
    Senator Reed. Who has custody of those reports?
    Ambassador Bremer. It depends on which funds we're talking 
about.
    Senator Reed. I'm talking about everything, since you're 
the authority.
    Ambassador Bremer. No, I know, but there are different 
pools. There are the appropriated funds. There are frozen 
assets, there are seized assets.
    Senator Reed. I'm talking about appropriated funds, Mr. 
Ambassador.
    Ambassador Bremer. Okay, yes, we do. The custodian of that 
is, I guess, the Office of Management and Budget (OMB)--the 
place you would go for the ultimate authority.
    Senator Reed. OMB would have detailed reports of all the 
expenditures to date?
    Ambassador Bremer. Yes, it would.
    Senator Reed. Thank you. One reason I raise that is, as 
you're here in Washington, the Iraqi Governing Council has been 
in New York the past few days, and one of the members, in fact, 
speaking I think not just for himself but others, has 
complained that the Americans are spending money here to secure 
themselves at a rate that is two to three times what they are 
spending to secure the Iraqi people. It would be better for us 
if we would be in charge of how to spend this money, and, of 
course, they could monitor how it is spent. The article alludes 
to claims apparently that this gentleman made about $20,000 a 
day to feed Americans at the hotel, laundry being sent to 
Kuwait, overhead from supporting and protecting the large 
American and British presence less efficient, fees that 
American contractors charge, premiums.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Reed. Is this Mr. Ahmad al-Barak inaccurate, 
irresponsible?
    Ambassador Bremer. The story is inaccurate. I don't 
remember which part he was quoted on. I think I answered in 
testimony the other day that the spending amount for food is 
actually $17,500 a day. That feeds 3,000 people, therefore, at 
an average cost of about $5.50, which, as I pointed out to that 
committee, is $2.50 less than Meal, Ready-to-Eat (MRE) costs, 
and I might add is only marginally better than an MRE.
    Senator Reed. Is he incorrect, though, in terms of his 
charges that they would be better prepared to spend the money?
    Ambassador Bremer. Oh, I'm sure there are plenty of people 
in Iraq who would like to spend $20 billion, but he is 
incorrect if he thinks that the Iraqi Government can spend it 
in a better and more responsible, more transparent and 
accountable way than we can do it, yes.
    Senator Reed. Let me ask another question. Is any of the 
money in this supplemental for the oil industry in Iraq?
    Ambassador Bremer. Yes, there is $1.2 billion for 
reestablishing the infrastructure so that we can get the Iraqis 
to a point where they can generate oil revenues, which you'll 
see in the supplemental, $1.2 billion.
    Senator Reed. As we're here today talking, the Iraqi oil 
minister is in Vienna inviting foreign oil companies, 
international oil companies to invest in Iraq. It seems to me 
that we are restoring the infrastructure so that foreign oil 
companies can come in and essentially and probably securitize 
and do all the things you think are terrible, securitize this 
oil so they can invest and make a profit?
    Ambassador Bremer. I'm not sure what the ultimate policy 
will be on foreign investment in the oil industry. The foreign 
investment law, which they asked me to sign a week ago today, 
explicitly excludes investment by foreigners in the oil 
industry. This is an extremely sensitive subject, as you can 
appreciate, and the governing council explicitly excluded the 
oil industry for the time being, so we'll just have to see how 
that evolves. I honestly don't know what they'll do. I think 
they should allow foreigners to invest, but it's a sensitive 
subject.
    Senator Reed. In an interview with The Wall Street Journal, 
the oil minister said that ``Baghdad welcomes proposals from 
foreign oil companies about how to develop Iraq's fields, and 
said he plans to talk with representatives from several 
international oil companies in coming days.'' Apparently he has 
decided that.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Ambassador Bremer. Well, good.
    Senator Reed. Good. So we will be preparing the 
infrastructure for foreign investment?
    Ambassador Bremer. If we're lucky, if he is able to carry 
his government, and I point out that he, as you read that, said 
he was inviting proposals. He didn't say they were going to 
invest. Let's see what happens. I hope the government will. In 
fact, I think they should. I've told them that if they're going 
to be successful economically, they must at least double their 
oil productions, because even if they get back to the prewar 
level, which is where we hope they can get in a year, it means 
a per-capita income of less than $1,000 per Iraqi. That's not 
very impressive for a country that should be wealthy, and the 
only way to substantially change that wealth is to greatly 
increase oil production. That's going to cost them $30 billion 
to $40 billion that they're going to have to get, I presume, 
from foreign investment. But that is a decision that I think 
they have to make.
    Senator Reed. But, Mr. Ambassador, we seem to be the only 
investor that's not taking any future receipts or future claims 
on the oil, because I can't think of any international oil 
company that's going to walk in and invest a nickel unless they 
are assured that they're getting something back.
    Ambassador Bremer. As I said, they don't have a policy of 
letting anybody invest in oil yet. That's the policy. I signed 
the law. I know what's in it, Senator.
    It does not allow investment in the oil industry.
    Senator Reed. You picked the oil minister, also, and he 
wants to invest from foreign----
    Ambassador Bremer. Actually, I didn't pick him. The 
governing council did.
    Senator Reed. Oh, you didn't. You just picked the 
government who picked the oil minister.
    Ambassador Bremer. He is a very good man. He is a petroleum 
engineer. He's another example of what I said to the chairman 
earlier about the competence of this government. They are 
extremely competent people.
    Chairman Warner. Gentlemen and ladies of the committee, I 
certainly thank you for assisting me and Senator Levin in 
running this hearing on time. I'd like to acquaint you with the 
following information. At 1:15, the Senate will be voting on 
the Defense Appropriations conference report.
    We'll all want to make that vote. We have two colleagues 
who have not had their opportunity for the first round, so 
we'll proceed to recognize those two colleagues now with the 
understanding that I will return, and perhaps the distinguished 
ranking member, for such remnants as we have so that our 
witnesses are on their way at about 10 minutes to 1:00, because 
they have a 1:30 appearance before the House Armed Services 
Committee.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman, and welcome 
gentlemen.
    Chairman Warner. Excuse me, yes, 1:15 vote, so I guess 
we're out of the opportunity for a second round. Well, we'll go 
to 1:15 with these two colleagues.
    Senator Levin. What time is it now?
    Chairman Warner. I think I have misspoken, you're right, 
and I correct myself. We'll recognize our two colleagues, and 
the note didn't reflect the time. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, welcome. General, you're my home State 
Floridian, and we think that you're doing a great job. You will 
have this Senator's support, and I support the judgment of the 
commanders on the ground, as well in your military structure. 
But I need to make you aware that I am receiving evidence of 
increasing fatigue in the units that participated in the major 
combat phase of the operation, evidence such as increased 
accident rates. This is one way that I receive that 
information; that's all e-mails, e-mails from the troops that 
are there in Iraq as well as e-mails from the family.
    I have a couple of questions that I want to ask you if you 
could comment for the record, but I want to first give you one 
example. Company C, the 2nd battalion, the 124th infantry of 
the Florida National Guard, before the war actually dug by hand 
through the berm that marks the Jordanian/Iraqi border, and 
then they went into Iraq--this is before the 19th of March--in 
support of the 5th Special Forces group. Since then, in Iraq, 
Charlie Company has been passed around the theater from command 
to command about 10 times, from the 5th Special Forces group to 
Special Ops headquarters to the 5th Corps headquarters to the 
3rd Infantry Division to the 2nd Armored Cavalry Regiment and 
now to the 1st Armored Division. Charlie Company is still 
there. They've suffered two fatalities--one gunned down at the 
university in Baghdad, it was a Gainesville, Florida, National 
Guard soldier, another in a vehicle accident also from 
Gainesville, Florida, and a third has been wounded in the neck.
    Other companies of the three Florida National Guard 
battalions have been passed among headquarters all over the 
theater no less than 40 times since arriving in the area of 
operations. Now, I can tell you--and you probably know the 
reputation of our Florida National Guard--they are justifiably 
proud of their contribution to the war. We, in Florida, have 
the third highest number of Guard and Reserve soldiers 
mobilized and deployed globally. Florida has deployed the 
second highest number of Guard soldiers to the Iraq theater and 
is only exceeded by Alabama by 38 soldiers. Alabama and Florida 
among the Guard are in a class by themselves, mainly supplying 
those troops. No State has provided more infantry from its 
Guard than Florida.
    General, the sense that I'm getting is that they are 
fatigued, and, as the commander, you have to be concerned about 
fatigue and replacing with fresh troops. Yet this new policy 
has come in, 12 months boots-on-the-ground, which is going to 
allow some Guard units to go back having been there 11 months, 
but is going to cause some Guard units such as Florida to be 
extended all the way out close to a year and a half. I would 
ask for your comment for the record. What is your assessment of 
fatigue in the current force, and when, in your judgment, do 
you have to have fresh troops? Let's take that one first.
    General Abizaid. First of all, let me comment on the 124th. 
One reason they've been passed around a lot is because they do 
a pretty good job; people want to have them. You know how it 
is, sometimes when you're good, what happens to you. Fatigue in 
the force exists no doubt in those areas especially where 
there's a lot of fighting going on, and the 124th has been in 
an area in the Baghdad/Ar Ramadi/Fallujah area, which is really 
one of the most geographically hot areas that our troops 
experience.
    I know that we have to address the issue of fatigue, and 
we're doing that in a couple of different ways. One way is we 
are allowing what we call the fighter pass management program 
to go ahead, which allows troops to go into the local area, for 
example, into Qatar for a few days, where they get away from 
the combat zone, they can relax, take a shower, and have a 
beer. We're also getting ready to start a rest and recuperation 
program that will allow troops to get away for a couple of 
weeks, back into Europe and in some cases back as far as the 
States if the transportation system will support it.
    We are mindful of the fact that it is a tough mission, it 
is a fatiguing mission, and we're also very mindful of the 
sacrifices of our soldiers, and God bless our soldiers that 
have given the full sacrifice. We do everything we can to be 
equitable. There's no difference in my mind between what the 
Guard and Reserve and the Active Forces do. They all have to 
serve their country. You weren't here before, Senator, but I 
said clearly that I'm not satisfied that we have alerted our 
National Guard soldiers and Reserve soldiers to their go-home 
date, which is essential for every soldier to have, and I take 
responsibility for that and I will fix that.
    Let me close by saying thanks to them for their great 
service and all the National Guard and all the Reserve and all 
the active troops that are out there. This is a tough 
environment. It's a deadly environment in some cases, but 
whenever I talk to the soldiers, and I talk to a lot of them, 
it's clear to me that they know why they're there, they know 
it's going to be long, and they know they either fight there or 
they fight here.
    Senator Bill Nelson. I will be following this up privately, 
Mr. Chairman, on the question of the equity of some units less, 
others more, where this could be extended all the way to a year 
and a half.
    Chairman Warner. Senator, you have been consistent in 
raising these important questions, not only on behalf of 
Florida but other Guard and Reserve units across the country. I 
thank you for that.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. Mr. Ambassador, 
General, I want to thank you both for your very distinguished 
service. Mr. Ambassador, I'm respectful of what you said before 
our caucus the other day that you'd rather be with your family. 
You're both making that sacrifice, as are our 138,000 
Americans, many Minnesotans, who also miss their families, and 
I will support your request, the President's request. I may 
join with my colleagues in trying to fine-tune the economic 
recovery part of it, but I believe that part is equally 
indispensable to getting our troops home as quickly as possible 
with a lasting victory secured, which ought to be our 
objective. That's certainly my objective.
    When I was in Iraq the brief time with the chairman, I 
couldn't keep up with him there. He wouldn't take me to 
Liberia. He said I slowed him down in Iraq. But it was clear to 
me that the economic rehabilitation is essential. I guess I 
would say editorially that I think that much of what is in this 
request now for economic rehabilitation should have been in 
last spring's request. It should have been anticipated, not 
every specific, but certainly the fact that we have been 
delayed in getting these projects fully underway is affecting 
our troops and their safety as well as the attitudes of that 
country toward our own. So I support it. I just have a couple 
of questions regarding it, and I'll try to be brief in my 
questions and ask you to be concise in your answers so I can 
get through before my time is expired.
    Mr. Ambassador, bottom line, just elaborate here, how many 
Iraqis are we paying and out of what source of funds? It said 
here that 250,000 Iraqi officers will receive a monthly 
stipend, salaries that the authorities are paying teachers, 
health care workers, pensions, emergency payments, and 39,000 
electrical workers. Another one here says that 92,000 Iraqis 
are receiving social security and benefits four times higher 
than they received under Saddam Hussein. Good, and 1.3 million 
Iraqi civil servants are drawing salaries. What does all this 
add up to?
    Ambassador Bremer. The total number of people that the 
Iraqis are paying, not the American taxpayer. These funds come 
from Iraqi funds. It's about 1.5 million, and our monthly 
payroll is about $200 million.
    Senator Dayton. We're paying 1.5 million Iraqi citizens for 
various duties or just survival?
    Ambassador Bremer. The kinds of people you mentioned, 
right? Their salaries.
    Senator Dayton. That money is entirely out of Iraqi 
revenues?
    Ambassador Bremer. That's right.
    Senator Dayton. Okay. Presumably, if Iraqi revenues were 
used for something else, then there would be fewer dollars that 
would have to be drawn down the United States. I won't quibble 
with you on that, but thank you. General, we get these 
different statements about what is really occurring over in 
Iraq. On September 6, Secretary Rumsfeld, being over there, 
said that the impact of continued attacks against U.S. Forces 
have been overstated and likened them to ``isolated terrorist 
violence in every country in the world.'' Four days before 
that, September 2, Deputy Secretary Wolfowitz said that the 
international extremists and terrorists are coming into Iraq to 
take part in something that they think will advance their 
cause. He said that in the last month more than 200 foreign 
terrorists who came to Iraq to kill Americans, do everything 
they can, have been killed, have been captured by the United 
States, so they must be defeated and they will be.
    Are we talking about something that's just run-of-the-mill 
or are we talking about something that's different from that? 
What is the extent of which there are foreign terrorists 
infiltrating Iraq now? I apologize if this question was asked 
before.
    General Abizaid. No, Senator, I think it's an excellent 
question for me to answer. There's nothing run-of-the-mill 
about what we're doing in Iraq with regard to fighting a low-
intensity conflict. It is a very dangerous place, and I would 
summarize the various groups that we are fighting as first of 
all being the former regime loyalists, the Baathists that are 
primarily operating in the Tikrit/Ar Ramadi/Baghdad area. 
Although over time we are isolating it geographically more and 
more.
    I would characterize that threat as diminishing, primarily 
because they understand that there's no hope to bring Saddam 
back and there's no hope to reestablish the Baath party. 
Nevertheless, it is a threat.
    The next threat which is growing is that of what I would 
call anti-American. I hate to use the word Islamists because 
they certainly aren't Islamists; they're just the opposite. 
They're anti-Islamic. But these extremists that are now 
starting to develop in the Sunni area are probably increasing 
in strength, although not at an alarming rate, but it is 
something that we have to watch.
    Senator Dayton. I'm sorry, General, my time has expired. 
I'll have to cut us both off here, but I did promise several 
constituents that I would ask, is combat pay being continued 
for both Afghanistan and Iraq?
    General Abizaid. Yes.
    Senator Dayton. Thank you, sir. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator. Colleagues, 
we've now completed the first round. Again, our witnesses are 
due to testify before the House at about 1:30. As a courtesy to 
the other body of Congress, I would hope that we can release 
them here at 12:45 and I think that will enable us to have a 
second round. I personally will take no more than 3 minutes.
    First, Ambassador Bremer, in response to Senator Byrd's 
important question about the January issue, have you sufficient 
time to clarify that? If I could go a step beyond and say, to 
the extent Congress acts early on the decision on these funds, 
is the extent to which you can accelerate certain programs, 
which programs, be it electricity, water, are the most 
important of $5 billion for security? Then, General Abizaid, is 
there a correlation to that acceleration to your hypothesis 
that the two parts are integral and that we would hope there 
would be less threat and injury and harm to U.S. troops and 
Coalition Forces?
    General Abizaid. Yes, Senator, the most important thing 
that is accelerated by this supplemental are the security 
parts, the part where we can speed up the training of the Iraqi 
army, instead of taking 2 years, take 1. We can't do that 
without more money, speeding up in particular the training of 
the Iraqi police force, which will require almost $2 billion. 
Every month that goes by where we don't start those projects is 
a month longer before those guys go out and potentially can 
relieve our troops of some of the duties that I've outlined in 
my statement.
    The same is true for the infrastructure projects. We need 
to start letting contracts. We have to have open bids. It's 
going to take time. If we can start those bids now, quickly, we 
can get the repairs started more quickly.
    Chairman Warner. Is there a correlation in your 
professional judgement, General Abizaid?
    General Abizaid. Sir, there certainly is. The more Iraqis 
that are policing, that are patrolling, that are doing the 
security work to defend their own country, the sooner we'll be 
able to draw down our forces and the sooner we'll be able to 
turn over the country to the rightful owners, which are the 
Iraqis.
    Chairman Warner. It has a correlation to the tragic 
situation of deaths, loss of life and limb by our forces and 
coalition, am I correct?
    General Abizaid. Sir, there is a correlation, but we should 
all make sure we understand that as long as American troops are 
in Iraq, there will be casualties. It is a violent place, and 
it will remain violent for some time.
    Chairman Warner. Thank you. My second goes back to the 
earlier question that I asked, that Senator McCain asked, and I 
think Senator Clinton was also trying to urge. In this $5 
billion for security, and particularly the funds related to the 
national army, if you look at The Sunday New York Times, 
there's a very interesting article by Tom Friedman [article 
previously inserted] indicating that to the extent you can put 
forces in Iraqi army uniforms directly in confrontation with 
the threats faced by our forces and Coalition Forces, the less 
likelihood, because of the language barrier and other things, 
of casualties. Is this directed toward expediting that?
    General Abizaid. Indeed it is, both in the respective 
police and army, and I would also add the Civil Defense Corps, 
where we hope to have 10 battalions by the end of the year.
    Chairman Warner. But you said it's a new initiative?
    General Abizaid. Yes, it is. It's a new and urgent 
initiative.
    Chairman Warner. Fine. If you could further define it, I 
think it would be helpful.
    Senator Levin.
    Senator Levin. Thank you. Ambassador Bremer, I raised with 
you the question of collateralizing some of the future sales of 
Iraqi oil where they expect they will be in surplus to the 
needs to run the government on an ongoing basis. This is not a 
loan. This is a collateralization, which would be guaranteed by 
the United States, which is the opposite of our lending them 
money. As a matter of fact, we would be taking risk for them by 
guaranteeing that loan.
    Senators Collins and Clinton and Ben Nelson raised this 
same question, in a perhaps different form, but it's 
essentially the same question. When I asked you that question, 
you indicated that you would be willing to think about the 
possibility of that pledge of future surplus oil to be sold now 
by collateralizing it, and with our guaranteeing that, so that 
even though there is no government there at the moment, it 
could be sold.
    Now, when I asked you would you give consideration to that 
approach, you indicated you would. Did you mean it?
    Ambassador Bremer. Of course.
    Senator Levin. Because in answering to some of the other 
questions that followed, it sounded as though you had already 
made up your mind.
    Ambassador Bremer. No, Senator. I'm perplexed as to how it 
would actually work. I'm concerned that if we are not careful 
we wind up with two problems. One, we wind up in effect taking 
a lien against the resources which we want the Iraqis to put 
into their reconstruction in the years ahead. You can't spend 
it twice.
    Senator Levin. We're not taking a lien. I didn't make any 
reference to a lien, Ambassador.
    Ambassador Bremer. Effectively, it is a lien if you 
collateralize it.
    Senator Levin. I said we would guarantee it. I didn't say 
we'd take a lien on it. At any rate, are you willing to look 
into that? Obviously we're troubled here.
    Ambassador Bremer. I understand.
    Senator Levin. Many of us are troubled here by the fact 
that we're being asked to put up $15 billion for reconstruction 
funds and that the Iraqis have this huge asset. They're going 
to have surplus oil sales in a few years. You could 
collateralize it now with our guarantee--not a loan, but our 
guarantee--which supports the Iraqi Government, which makes 
them contribute to their own reconstruction. I'm not talking 
about ongoing operations.
    If you can at least openly address that deep concern that 
we have, it would be progress in terms of trying to see if we 
can't get some ideas exchanged around here which address the 
concerns of the American people.
    Ambassador Bremer. I took your suggestion as a helpful one 
and I agreed to look at it.
    Senator Levin. All right. Now, General, I agree with almost 
everything you've said. But one of the things you said troubles 
me, and that is that the mission of the $15 billion--okay, my 
time's up.
    Senator Dayton. I'll cede my time, Mr. Chairman.
    Chairman Warner. I accept that if you wish to continue.
    Senator Levin. I want to thank Senator Dayton. When you 
talked about the $5 billion of the $20 billion, I agree with 
you totally. That's training and Army, that's building police 
force, and I'm with you; I'd vote for that tomorrow. But then 
when you go to the other $15 billion, you said that its mission 
is to achieve the consent of Iraq's people. That troubles me. 
We cannot buy that consent. That will, which we need, and by 
the way I share that, I think we need willpower here. This is a 
very difficult situation. We need willpower. But the Iraqi 
people need willpower as well. We can't buy it.
    As I said in my opening statement, and here I'm going to 
just quote myself, which I don't usually do, but I meant it so 
deeply I want to just repeat one line--``that it is essential 
that the people of Iraq want to become a unified and secured 
nation badly enough that they're willing to make that pledge 
and that financial commitment to raise funds now for their 
reconstruction.'' That would be addressing a major concern 
which a lot of us have.
    We've given huge amounts in blood and treasure. We know the 
Iraqi people are sacrificing, in terms of their risk-taking, 
they're at risk obviously, the terrorists and the Baathist 
remnants and so forth. But when they have an asset such as they 
have in future surplus of oil sales in the fairly near future, 
which can be collateralized, pledged, and sold now with our 
guarantee, I think it's wrong to look at that $15 billion as a 
way of buying their consent or achieving their consent. I just 
think it's wrong. I think we have it wrong. They have to want 
it badly like our fellow Americans wanted in 1776--to be 
independent, and to pledge their lives, their fortunes, and 
their sacred honor. That's what is needed now and what they 
have to do. One way to do it is to work something out relative 
to that future oil surplus, again not necessarily a loan from 
us--even though I don't think that would be so bad either 
because I think we ought to subrogate the other loans--but in 
terms of our supporting that pledge, that sale.
    I just wanted to express that, General. You and I have had 
agreement, I think, on most things. I just think you're doing 
an absolutely superb job and have a real command of the history 
of the region, which is essential, as well as language, which 
is so essential to our success. But on that one comment of 
yours, particularly, I wanted to just tell you I'm troubled by 
stating it that way, that $15 billion is part of the mission to 
``achieve consent of Iraq's people.'' Just to let you know I 
disagree and give you a chance to comment on it if you want.
    General Abizaid. Thank you, Senator. First of all, I don't 
believe we can buy the Iraqi people, and I do believe that in 
these difficult times, in these formative times, they need the 
help. Perhaps my choice of words didn't convey what I really 
mean because I have great faith and great confidence in the 
Iraqi people to expend their own blood, sweat, and tears in 
this endeavor. They're doing that, but when you look at the 
structures that exist to allow them to be able to organize 
themselves in this particular time, they don't much exist. That 
is what Ambassador Bremer is building, and I don't think that 
this needs to be an endless amount of money that flows into 
Iraq. I believe that this supplemental gives us a chance to get 
the security moving in the right direction, get reconstruction 
moving in the right direction, and give the Iraqis a chance to 
help themselves.
    Senator Levin. Thank you for that. I think they need our 
support. We need to get the world involved much more deeply 
than they are. That's going to take certain actions on our 
part, but we need the Iraqi Government such as it exists now to 
find that way that they can pay part of the reconstruction 
costs so it's not just us delivering assistance to Iraq, but 
it's them pledging their fortune in the same endeavor, which is 
an important endeavor. Thank you.
    Chairman Warner. Thank you, Senator Levin. Senator Talent, 
and thank you, even though this is your first round, for 
agreeing to the 3 minutes.
    Senator Talent. That's fine, Mr. Chairman. I had to step 
out although I was here for your statements earlier. I want to 
congratulate you on the progress that you're making. I agree. 
To do what we've done in 4 months is, I think, a testimony to 
the quality of the people we have on the ground and your 
leadership, and I'm grateful for that.
    A couple of points. First of all, I'm rather pleased, it 
seems to me, on the fairly broad range of consensus that I've 
heard in the committee about this request. I mean, the 
difference really seems to be not over whether we ought to 
provide the money, but whether part of it ought not to be 
purely some kind of grant, and I think actually that bespeaks a 
rather great amount of unity. Now, as I understand what you're 
saying, and certainly this is my understanding of the 
situation, we're not spending this money for the electrical 
system and the other things.
    You're not proposing that purely or even mostly out of a 
desire to be charitable to the Iraqis, however laudable that 
may be. We're doing this because we think this helps protect 
American security and freedom because it's going to help Iraq 
become a reliable and stable ally in the war against terror. Is 
that a fair statement to you?
    General Abizaid. Yes, that's right, Senator. When we spend 
American money, it should be in America's interests, and that's 
what this is.
    Senator Talent. Yes, we do a lot as a Nation and privately 
and publicly for charitable reasons, but that's not what we're 
talking about. It does seem to me that if that's a correct 
thing to do, which we all seem to agree that it is, we ought to 
do it in such a way that makes it most likely Iraq will indeed 
become an ally in the war against terror or not do it. To me, 
if we don't think it's necessary to accomplish that goal, then 
let's not spend the money. If we do, let's spend it in the way 
that makes it most likely that they'll be a reliable ally.
    Another point I wanted to make, and I think you touched on 
this before, Iraq already has a lot of foreign debt. We're 
asking other countries, are we not, to contribute directly in 
the form of grants to Iraq? It's going to be hard to ask them 
to make outright grants to Iraq if we're conditioning our money 
as a loan, isn't it?
    General Abizaid. Yes, that's correct. There is a donors 
conference at the end of next month in Madrid where we're 
hoping for substantial grants from other countries.
    Senator Talent. I hope we're repairing our relationship 
with old Europe, but I don't expect it to be at such a point 
where they're going to be willing to give money to Iraq if 
we're loaning it to Iraq. I don't think we can expect that much 
from the French.
    Finally, I'll just close with this. Mr. Chairman, I 
appreciate your patience. Would you restate again the urgency 
of this in your mind? I think that's important. The reasons 
you're trying to get this done as quickly as possible are 
because we want an ally in Iraq as quickly as possible and also 
because there are dangers if we don't move quickly. Would you 
just restate that again?
    General Abizaid. Every day that goes by where we are not 
speeding up the army, speeding up the Civil Defense Corps, 
speeding up the training of the police, is a day when our 
soldiers, men and women, are not being substituted for by 
Iraqis. That's the security part of this supplemental, about $5 
billion of the $20 billion. Every day that the Iraqis do not 
get power, do not get water, do not get sewage treatment, is a 
day when their quality of life is such that they're less 
inclined to view us as liberators, more inclined to view us as 
occupiers, and that also increases the danger to our men and 
women.
    Chairman Warner. Thank you very much.
    Senator Byrd.
    Senator Byrd. Mr. Ambassador, you said today that the CPA 
is better able than the Iraqi Government to spend this $20 
billion request in a manner that is ``responsible, transparent, 
and accountable.'' Yet, when asked for detailed expense reports 
for appropriated funds, you referred this committee to the 
White House, in other words to OMB, and we're not going to hear 
the OMB. I wish we would, especially in the Appropriations 
Committee. I think we should, but we're not going to get any 
``outside'' witnesses.
    Let me say that again. You referred this committee to the 
OMB for that information. If you're so committed to 
transparency and accountability, why can't you provide detailed 
information about your expenses directly to Congress? Can you 
do that?
    Ambassador Bremer. I believe these funds belong to the 
Executive Office of the President. That's how they were 
appropriated, Senator. I'm not an expert on reporting 
requirements, but my understanding is the reporting 
requirements attached to the legislation required the Executive 
Office of the President, in the form of the OMB, to be the 
channel, which these funds are reported to Congress. But I'm 
not an expert in these matters, sir.
    Senator Byrd. I'll let the record stand as it is because I 
don't have time to pursue it. In your opening statement, that 
every reconstruction contract awarded using this $20 billion 
request will be competitively bid, does this mean that you will 
not exercise any national security waivers to cut short the 
competition process?
    Ambassador Bremer. It is my intention not to exercise any 
such waivers.
    Senator Byrd. It is your intention not to do so.
    Ambassador Bremer. That's right.
    Senator Byrd. Will you also commit to providing this 
committee information about these contracts after they are 
awarded so that the committee can monitor the costs of 
reconstruction to make sure that taxpayers are not being 
fleeced by companies. Halliburton is very much in the news, 
very prominently displayed in the front pages and so on, so 
that's what I'm driving at.
    Ambassador Bremer. Senator, we will follow whatever 
reporting requirements Congress puts in the legislation.
    Senator Byrd. Is my time up?
    Chairman Warner. Yes, thank you, Senator Byrd.
    Senator Bill Nelson. Senator Byrd, would you like my time? 
I would yield it to you.
    Senator Byrd. That's very nice of you. Mr. Chairman?
    Chairman Warner. Yes, of course.
    Senator Byrd. The White House has stated that in your 
position as the Administrator of the CPA, you report directly 
to the Secretary of Defense. However, the administration has 
given you a very long leash with which to work, and the CPA 
appears to be exercising its own independent authority and day-
to-day operation. The first regulation you signed in Iraq 
contained the following statement, ``The CPA is vested with all 
executive, legislative, and judicial authority necessary to 
achieve its objectives, to be exercised under relevant U.N. 
Security Council resolutions, including Resolution 1483'' and 
so on.
    ``This authority shall be exercised by the CPA 
Administrator.'' Now that's a very powerful statement. Does 
this authority mean that, as CPA Administrator, you are the 
person who is ultimately accountable for the policy and 
spending decisions being made on the ground in Iraq? In other 
words, does the buck stop with you?
    Ambassador Bremer. Yes, it does.
    Senator Byrd. In answer to that first question, you are the 
person. What is the basis for the broad authority that you are 
claiming in this regulation?
    Ambassador Bremer. The basis for that authority, Senator, 
is international occupation law and the U.N. Resolution you 
cited, 1483.
    Senator Byrd. Did the President issue any specific order 
giving you this authority?
    Ambassador Bremer. Yes, that order relates to the 
international legal implications of being the occupying power 
in Iraq. My authority within the executive comes from a letter 
from the President, which is consistent with letters and 
legislation that are issued to every American ambassador 
overseas.
    Senator Byrd. Do I have any further time?
    Chairman Warner. You have about half a minute, sir.
    Senator Byrd. Very well, thank you. General Abizaid, if we 
have contractors coming in to take over the jobs that our 
National Guard has been doing, does that mean that our 
guardsmen will be coming home sooner?
    General Abizaid. Sir, we have contractors moving in to do 
various things, and with regard to some of our logistic units, 
whether they be active or National Guard, if we contract out 
that function, those units will not stay. They will come home.
    Senator Byrd. Thank you, Mr. Chairman, for the time.
    Chairman Warner. Senator Byrd, I thank you very much for 
your cooperation and that of all Senators here.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I was advised 
during my absence that one of the questions I was going to ask 
has already been asked. For either one of you: There has been 
some criticism that there is too much concentration of 
authority in Baghdad and perhaps some of the areas in the 
north, in the south, might feel that there is too much 
centralized control. Do you have any thoughts about that?
    Ambassador Bremer. It's a legitimate concern, Senator, and 
one of our broad political objectives as we move forward is to 
try to get away from an overly centralized government and try 
to devolve power to the governances, to the municipalities, and 
we're doing that.
    Senator Inhofe. Lastly--and you can take whatever time you 
want to answer this--you have been attacked in many hearings 
about not having a plan, and you clearly do have a plan. In 
this plan that we have seen, it outlines four areas. I'll read 
those: security, essential services, economy. Then when it gets 
down to governance, if I understand this correctly, that's 
where your seven-point plan comes in. Is that correct?
    Ambassador Bremer. That's correct.
    Senator Inhofe. All right. On the first three--not now, but 
for the record--I'd like to have maybe a percentage, for 
example, establishing a secure and safe environment. Where are 
you along that road approximately? The same under essential 
services, and under services I hope that we're not talking 
about putting a country back into services it didn't have 
before the liberation. I think that's a very important part to 
keep reminding people. So perhaps where we are on that road, 
and then, lastly, creating the conditions for economic growth, 
where we are there.
    [The information referred to follows:]

    This question is hard to quantify exactly. The percentages within 
these categories vary at any moment, but we are making significant 
progress. I should emphasize that we are actively addressing each of 
these areas. The 2207 report provided to Congress in accordance with 
the Supplemental Appropriations Bill provides the outline of how we are 
focusing our efforts. Our ministries and their advisers are pushing 
forward in each respective area.

    Senator Inhofe. Now you mentioned under governance, you are 
into point four now?
    Ambassador Bremer. Yes.
    Senator Inhofe. Do you feel that that is pretty much on 
schedule of where you thought you would be at this time?
    Ambassador Bremer. No, I think we've slipped about a month. 
Now at this point, the preparatory committee is due to report 
back to the governing council by Tuesday on their 
recommendations on how to convene the constitutional 
conference. I was hoping we would have that conference convened 
in September or October. I frankly just don't know what the 
recommendations will be and, more importantly, how long it will 
take the governing council to make a decision.
    Senator Inhofe. I understand that, and if you'll recall in 
my opening round I commented that we were there when the 
unfortunate thing happened to the U.N. building, so things like 
that are going to change, and even if you were in a position to 
say when four, five, six, and seven will be completed, that 
will change. Since I feel you have been unfairly challenged on 
the plan, is there any final comment you'd like to make in 
terms of the plan?
    Ambassador Bremer. Let me just make one point on the plan 
because Senators have been looking at it this morning and 
yesterday. The plan that was sent to the Hill on July 23 is 
obviously by definition already 2 months out of date, and those 
of you who visited Baghdad know that Baghdad time is different 
than normal time; 2 months is a lifetime. We review this plan 
formally once a month, and it gets updated. To answer your 
question, how are we doing against the metrics? We change our 
targets from time to time. We are in a very fluid environment. 
I use the term when I talk to the President that I call a lot 
of audibles. I get up to my staff meeting in the morning and I 
look over at the defense and say, ``We're going off-tackle 
right today, not off-tackle left.'' But we keep the strategy 
the same. Those four areas are the heart of our plan, and we 
will execute to that plan.
    Senator Inhofe. An excellent plan, thank you.
    Chairman Warner. Thank you, Senator.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. General Abizaid, if 
there is a terrorist attack upon the United States, is it more 
likely to emanate from Baghdad and Iraq or along the Pakistan/
Afghanistan border where bin Laden is hiding?
    General Abizaid. Senator, if there is another attack on the 
United States, it would be organized, planned, and executed 
through a worldwide network of connections that are borderless. 
It would be difficult to say where its geographic center would 
be. There are certainly places on the Afghanistan/Pakistan 
border that are semi-havens for terrorists, in the Wazinstan 
area, that the Pakistanis are working to clean up. There are 
other ungoverned spaces where this is also possible. It is 
possible that a terrorist group working in Baghdad, or New York 
for that matter, could organize the attack, so there is no 
geographic center that I would point to other than to say we 
have a lot of cells in a lot of locations that require careful, 
difficult work to uncover and destroy.
    Senator Reed. It seems the President has clearly identified 
Iraq as the center of the war on terror, and my point of the 
question obviously was I concur with your vision that this is 
an international phenomenon and, in fact, is less likely, I 
think, to emanate from Baghdad than it would to emanate from 
the Pakistani/Afghani border regions, if anywhere. There's a 
real concern here that underlies our overall strategy, not just 
what we're doing in Iraq, but whether these $87 billion for 
Iraq might be missing the point. Afghanistan is deteriorating. 
They now have a drug culture and a drug industry that is 
refueling the rearming of the Taliban, and they're reasserting 
themselves in that country and giving direct aid and comfort to 
the individual that attacked us. I commend the President for at 
least recognizing that the Saddam Hussein regime was not 
involved in the September 11 attacks. I think there are some 
strategic issues here as well as just the dollars. Thank you, 
General, for your answers, always very well-composed and very 
thoughtful.
    Mr. Ambassador, one final question. I understand from press 
reports that the U.N. staff is advising Secretary Kofi Annan to 
withdraw his presence or the presence of the U.N. from Baghdad. 
What do you propose to do to try to prevent that if you can?
    Ambassador Bremer. I've seen those press reports. I don't 
know whether they're accurate or not. I would find it deeply 
regrettable if the U.N. chose to draw down the rest of its 
staff there. They've been extremely helpful to us in the period 
since the war. We've had a dozen U.N. specialized agencies who 
have been very actively supporting reconstruction, humanitarian 
assistance, and so forth. I worked very closely with the 
Secretary General's Special Representative, who was killed in 
the bombing, and I certainly hope the U.N. will continue to be 
present in Iraq and I would regret it if they left.
    Senator Reed. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Roberts.
    Senator Roberts. General, I believe you said, after your 
last visit to Washington, words to the effect that after being 
in the U.S. a week and a half and listening to news reports on 
the conditions in Iraq, it was as if you would be going back to 
Iraq to ``find someone to surrender to.'' What part of the Iraq 
picture do you worry the public is still not getting?
    Ambassador Bremer. Sir, it's difficult to get the story 
here because we concentrate on every bad incident and we don't 
seem to get through the wonderful work that is being done, not 
only by the folks in the military, but also at the CPA. For 
every one combat operation, there's probably 50 civic actions 
that are absolutely amazing in their organization and the good 
that they do, in the capability that they provide a better life 
for the Iraqis.
    So it's difficult for us to get the word out. We put out 
press releases that talk about the good work we do, but the 
nature of life in the States is to concentrate on the bad as 
opposed to the good. This cynicism does not help the troops.
    Senator Roberts. You mean that's not in The New York Times 
and The Washington Post? I can't understand that.
    Ambassador Bremer. Sir, I'm an optimist and I know what our 
troops are doing, and everybody around this table and in this 
conference room here knows what our troops are doing. We need 
to be optimistic for them and for the Iraqi people. There are 
tough times ahead, and I don't want to ever mislead the 
committee that the war is necessarily over anytime soon. There 
will be more casualties. There will be more expenditure of 
treasure, but ultimately we will win. We will win because we 
can persevere in our very difficult tasks.
    Senator Roberts. Mr. Ambassador, in the very short time I 
have left, I'd like for you to connect the dots. That's the 
euphemism we use in the intelligence community. We have an 
inquiry on regional stability, human rights, terrorist 
sanctuary, WMD, historical precedent, resolve to stay the 
course. You're both with me at a town hall meeting in Dodge 
City, Kansas, and some old cowboy stands up and says, ``Now, 
General and Mr. Ambassador, what the hell has this got to do 
with me? How does this affect my daily life and pocketbook?'' I 
know who would ask the question. I'd say, ``Now, Kirby, just 
control your temper here a minute. Basically, if we allow the 
sanctuary to continue and the global war on terrorism 
continues, somebody may kill you.'' He might understand that. 
Now, would you connect that final dot as to what that means to 
the individual person in Nebraska, Minnesota, Alabama, or 
wherever? What does it mean to them?
    General Abizaid. Sir, I'll just tell you what all of our 
soldiers tell me when I talk to them. Fight them here or fight 
them at home.
    Senator Roberts. Thank you.
    Chairman Warner. Thank you very much. Senator Sessions, 
will you wrap it up?
    Senator Sessions. Thank you, Mr. Chairman. There have been 
some comments from this Congress, which I am very dubious 
about, that we need to have the U.N. more involved and maybe 
even taking a lead in this. I'm convinced that if we want it to 
take longer, to be less efficient, to be done with more 
corruption and at greater expense, we should turn it over to 
the U.N., but I was in fact particularly distressed that the 
U.N.--I'm looking at this little item here--Jan Egeland told 10 
or 9 permanent Security Council members in a closed-door 
meeting today that they didn't foresee coming back in 
significant numbers. Now, what that says to me is it's another 
example of why, in a matter of this seriousness in which the 
United States has made such a significant commitment and is so 
important to the future of the world and to the United States 
foreign policy, if the U.N. is going to leave after one attack, 
it would be unwise for us to put our confidence and faith in 
them. Ambassador Bremer, would you comment on that?
    Ambassador Bremer. Let me first say, as the President has 
said not only Tuesday, but before, we think the U.N. can play a 
vital role in Iraq, and I for one certainly welcome it. I've 
already, in answer to Senator Reed's question, pointed out how 
useful I think they can be, but it is true that there's 
something of a contradiction behind the people who are anxious 
for the U.N. to play a leading role and the U.N.'s apparent 
decision--we don't know if it is a decision--to draw their 
people out of Iraq.
    The people of Iraq are still going to need electricity. 
They're still going to need security. They're still going to 
need water. They're still going to need sewage in the next 2 to 
3 months. They need it now. If the U.N. is going to spend some 
time out of the country thinking about whether they can go 
back, then that's time that's lost. That's more dangerous for 
our soldiers. It's a time when we are losing time getting Iraq 
reconstructed.
    Senator Sessions. I couldn't agree more, and thank you.
    There's a question about the commitment of the people of 
Iraq. I met the police chief there, who was personally leading 
raids and who had been shot in the leg the week before. An 
attempt was made on his life not long after I got back there. 
You lost the female cabinet member. The people that are leading 
your city councils, police, are each one of them expressing 
courage and commitment to a new Iraq every day they go to work.
    Ambassador Bremer. That's right. The fires of freedom have 
been lit, to use Winston Churchill's quote.
    Senator Sessions. They are at risk, just as American 
soldiers are.
    Ambassador Bremer. Yes, they are. They're a courageous 
group of people, like the woman who was killed last week.
    Senator Sessions. General Abizaid, I asked you when we were 
there about more up-armored Humvees for our personnel. I think 
some steps have been taken to improve that situation to give 
them more protection as they do their patrolling and also the 
Stryker vehicle. Can you assure us that we are making progress 
with getting better armament for those troops and guardsmen 
that are there?
    General Abizaid. Sir, we are making progress on individual 
protection. For example, the protective vests: By November, 
every soldier in the theater will have the newest and latest 
version of that. We're making progress on the number of 
Humvees, although that will take longer to fix with regard to 
the up-armored Humvees, but they are coming in at a rate that's 
probably 100 or 200 vehicles a month. As far as the Stryker is 
concerned, I am looking forward to the arrival of the Stryker. 
I know the Army has looked at some difficulty with certain 
parts of the armor and I am confident when the Stryker arrives 
that it'll be a great addition to the battlefield.
    Senator Sessions. Provide more safety for the soldiers?
    General Abizaid. Absolutely.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Warner. When you referred to vests, it's the flak 
vests, and you've addressed that problem, and I'm delighted 
that you have. Thank you.
    Senator Levin, I thank you and your colleagues. I thank my 
colleagues.
    Senator Levin. Just a request, if we could, of Ambassador 
Bremer. Could you send us the August update of that July 21 or 
23 plan? You say that you update it, or modify it, monthly. 
Could you send us the August update, plus can you send us each 
monthly update as you adopt them?
    Ambassador Bremer. Senator, many, not only in this 
committee, but other committees, have asked for more 
visibility. Let me make it a more general commitment to keep 
you informed. We may want to change the format. Actually, the 
August one, of course, is out-of-date. We've just completed the 
September one----
    Senator Levin. I think we'd like to see it.
    Ambassador Bremer.--and we will have a major review of the 
quarter starting next week. I will keep you informed, but I 
want to reserve some latitude on how I do that.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Levin. I think it is important that since the 
August and apparently September modifications have been made, 
that we get copies of those.
    Ambassador Bremer. I will keep you informed, but I'm going 
to keep my hands free as to how I do that.
    Senator Levin. There's no reason that I can imagine why 
this Senate should not get a copy of your August and September 
modifications just the way you----
    Ambassador Bremer. Maybe you will, sir. I just want to go 
back and----
    Senator Levin. Not a maybe. No, no, not maybe. I can't 
think of a reason why--if it's classified, send it to us in 
classified form. But there's no reason why we're not entitled 
to that.
    Ambassador Bremer. I will keep you informed, sir.
    Senator Levin. I'm sorry, Mr. Chairman, on that one, but 
that's not good enough. Are you asserting some kind of a 
privilege in sending us that?
    Ambassador Bremer. I'm not, Senator. I just want to go 
back----
    Senator Levin. There is no reason why we're not entitled to 
a document which you have prepared.
    Ambassador Bremer. Senator, I just remind you that within a 
week, which is the time frame in which I can send you anything, 
I will have the first quarter reviewed, and that is more useful 
than going back to August, which is out-of-date. Even the 
September one is out-of-date now. The next one will be----
    Senator Levin. You've sent us the July one. We finally got 
that a few weeks ago.
    Ambassador Bremer. No, Senator. Let's not go over that 
again.
    Senator Levin. This is not a matter of argument. This is a 
matter of whether we are entitled to those documents.
    Ambassador Bremer. You are entitled to be kept informed 
about our planning and our progress, and I will commit to do 
that.
    Senator Levin. I'm sorry, Ambassador. We are entitled to 
those documents. I thought that was a routine question. I did 
not intend that that was anything other than a routine 
question. Now it's no longer a routine question. We are being 
asked to spend $20 billion of American taxpayers' money. You 
said you had a plan. You pointed to the July document, which 
most of us never got until a few days ago.
    If there were modifications, which you said there were, in 
that plan in August and you said recently in September, this 
Senate is entitled to those documents. Now if you want to get 
some legal advice on that question, you can get it, but you 
can't just say you're going to keep us informed. That is not 
good enough. I don't think anyone on this committee, Democrat 
or Republican, is going to accept that from any member of the 
executive branch.
    Now, I would suggest you get advice on that before you 
stick to that position.
    Chairman Warner. Senator, we will, and I will join you in 
trying to reconcile what appears to be some difference, which 
I'm not sure what it is, and we'll give you adequate----
    Ambassador Bremer. We can resolve it.
    Chairman Warner. We can resolve it. I wish to have this 
hearing concluded on what I perceive has been a very thorough, 
in-depth and tempered exchange of viewpoints. That's what the 
American public expects from Congress, working with the 
executive branch, particularly when it relates to matters of 
our national security and the life and the limb of our brave 
soldiers and their families here at home. I think I can speak 
for this committee that each of you are discharging your duties 
as public servants, consistent with the finest traditions of 
our country. Thank you.
    Senator Levin. Mr. Chairman, there's a markup on Monday. I 
think we're entitled to those documents before that markup in 
the Appropriations Committee and I think we need a formal 
answer from the administration on that issue by tomorrow.
    Chairman Warner. We are adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

                          IRAQI OIL CONTRACTS

    1. Senator Sessions. Ambassador Bremer, the State Oil Marketing 
Organization (SOMO) in Iraq has begun the process of trying to restart 
oil exports. I am told that SOMO has been dealing almost exclusively 
with oil companies with whom they dealt prior to the war. To the best 
of your knowledge, can American companies who did not deal with the 
Saddam regime participate in future contract bidding?
    Ambassador Bremer. Contrary to the latter years of the Saddam 
regime, American companies are not barred from bidding for and 
purchasing Iraqi crude oil. In fact, large buyers of Iraqi crude oil 
include Exxon-Mobil, Marathon Oil, Koch, and Chevron/Texaco, and the 
United States has received the majority of the exported Iraqi crude 
oil. As of the beginning of October 2003, 53 million barrels of crude 
oil (66 percent of the total) left free Iraq, destined for the United 
States.

    2. Senator Sessions. Ambassador Bremer, if SOMO is accepting bids 
from American companies, are you aware of a procedure through which an 
American company can request a meeting with SOMO officials, and, if so, 
could you outline that procedure?
    Ambassador Bremer. Any American company wishing to do business with 
SOMO may contact them directly via fax at 00873 763 705020 or via email 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4f7ebe9ebe4d1d6d1cfc8cdcacf8acac1d08a">[email&#160;protected]</a> SOMO's contact information has been in industry 
press since June. Correspondence should be directed to the Director 
General.

    3. Senator Sessions. Ambassador Bremer, I have been told that it 
was common practice during the Saddam era for SOMO to add special 
``surcharges'' to the price of oil sold under the U.N. oil-for-food 
program. I am also told that these funds were effectively skimmed off 
the top by SOMO and placed in secret bank accounts for the exclusive 
use of the Iraqi Government in a manner totally outside U.N. 
supervision. Are you aware of any steps by SOMO to put an end to this 
practice?
    Ambassador Bremer. SOMO specifically targets clientele that are 
highly reputable, world-class oil companies. This policy is designed to 
restore SOMO's reputation as a leading oil export organization, but 
this also helps to prevent improprieties in the crude oil transactions.
    The standard procedure for crude oil sales is designed to prevent 
improprieties. Iraqi crude oil is sold on the basis of official selling 
prices announced during the beginning of the month preceding month of 
loading. Buyers submit letters of credit to the New York branch of the 
Federal Reserve Bank. Payment is made within 30 days after loading. The 
CPA monitors the quantity of oil exported, its price, SOMO's clientele, 
and deposits into the Development Fund for Iraq.
    As for secret accounts, the entire Iraqi banking system collapsed 
with the fall of the Saddam regime; therefore, accounts internal to 
Iraq no longer exist. Accounts external to Iraq are being identified, 
and we are working to return the assets they contain to the people of 
Iraq. SOMO employees have been and continue to be of great assistance 
in locating and returning these assets to the people of Iraq.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins

                               RESERVISTS

    4. Senator Collins. General Abizaid, last Saturday I had the 
opportunity to meet with some of the family members of reservists 
serving in the 94th Military Police Company. They expressed to me their 
disappointment that their loved ones will be in Iraq longer than 
expected and their frustration over the poor communication about 
rotation schedules. Previously, these reservists were led to believe 
that their entire activation would only be for a year, which includes 
training and travel. Earlier this week, I learned that the husband of 
one of the women I met with was wounded in an ambush in Iraq. Sergeant 
Curtis Mills sustained a compound arm fracture and took shrapnel in his 
back. We need to continue to have a significant military presence in 
Iraq, and I believe that most of our reservists also understand that. 
However, I am concerned that the demand on our Reserve and Guard 
members is approaching the commitment that we expect of our regular 
troops. How long do you anticipate we will need to sustain the current 
troop levels in Iraq?
    General Abizaid. The number of U.S. troops required in Iraq depends 
mainly on three factors: the level of enemy activity, our ability to 
build Iraqi security capacity, and the number of international troops 
who join us. While we must be prepared for a range of contingencies, it 
seems likely that we will be able to reduce the numbers of U.S. troops 
and numbers of reservists deployed in the coming year. The increasing 
size and effectiveness of Iraqi security forces is particularly 
promising in that connection.
    We greatly appreciate the distinguished service of our reservists. 
The inherent uncertainties of war led to a change in policy that 
committed reservists to 1 year in theater rather than 1 year of 
activation. Because we recognize the strain that the mission is placing 
on reservists in particular, we are determined to first ensure that 
every reservist understands his or her return date. We are also doing 
everything possible to reduce the numbers of Reserve units deployed 
after force rotation. We are, for example, contracting out many of our 
transportation requirements. Additionally, our servicemen and women now 
have the opportunity to participate in mid-tour leave and rest-and-
relaxation programs.
    I share your admiration for the selfless service of Sergeant Curtis 
Mills and all our reservists. I, along with the Department of the Army 
and the Department of Defense, am committed to doing all we can to 
lessen the burden on these great Americans who are contributing 
immeasurably to the important mission in Iraq.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                                  SOMO

    5. Senator Cornyn. Ambassador Bremer, I believe it is in America's 
and Iraq's interests that all competitive oil refiners be allowed an 
opportunity to bid in the reemerging Iraqi oil industry. Please explain 
how the CPA is working with Iraq's SOMO to ensure that SOMO follows an 
open, fair, and competitive process in soliciting and awarding these 
contracts.
    Ambassador Bremer. The CPA has monitored SOMO's general business 
policies and practices, which are widely accepted within the petroleum 
industry. Its tenders were open and published in Reuters, Platts, Dow 
Jones, Argus, Bloomberg, and the Middle East Economic Survey (MEES). 
SOMO's medium-term contracts were by invitation; however, this is 
customary for many oil producers. The significant majority of these 
term contracts were awarded to large, well-known, reputable ``end 
users'' of crude oil (i.e., refiners), and the volume of each contract 
is based on the buyer's size and capacity. This fits SOMO policy, which 
is designed to minimize risk, to maximize Iraqi exports, and to restore 
Iraq's standing in the petroleum industry.

    6. Senator Cornyn. Ambassador Bremer, what is your evaluation of 
the openness, competitiveness, and transparency with which SOMO has 
publicized and solicited bids on crude export tenders? How can this 
process be improved?
    Ambassador Bremer. SOMO tenders were open and published in Reuters, 
Platts, Dow Jones, Argus, Bloomberg, and the MEES. SOMO's medium-term 
contracts were by invitation only, but the preponderance of these were 
awarded to large, well-known, reputable companies. SOMO is following 
practices widely accepted within the petroleum industry.
    SOMO's practices and polices, which are reviewed and approved by 
CPA, are designed to minimize risk, to maximize Iraqi exports, and to 
restore Iraq's standing in the petroleum industry. SOMO, the Ministry 
of Oil, and CPA are always striving to improve SOMO's practices and 
processes. SOMO's operations are monitored. If improvement or more 
transparency is necessary, changes will be made; however, currently, no 
specific improvements have been identified or are pending.

                         MOBILE PHONE LICENSES

    7. Senator Cornyn. Ambassador Bremer, as I understand, the CPA 
issued a tender in August for the issuance of three mobile phone 
licenses in Iraq. Please provide an update on the status on this 
tender. Will U.S. companies be evaluated for this award under the same 
selection criteria as other companies in the region?
    Ambassador Bremer.
Status of Tender:
    On 6 October, the Iraqi Ministry of Communications announced its 
selection of three consortia to provide initial wireless service in 
Iraq.
Evaluation Criteria:
    After the submission of bids closed on August 21, a team of experts 
drawn from Iraq, the U.S., and the U.K. analyzed and compared 
proposals. A majority of that team was made up of Iraqis, and a panel 
consisting of two Iraqis and two officials of the CPA made the final 
recommendation. Proposals were received from some 35 companies that 
submitted a total of over 100 bids for the 3 licenses that had been 
offered. In line with best international practice, the bids were 
assessed against a list of criteria, including technical capability, 
management ability, and cost of use to the subscriber that had been 
prepared before the bids were received. The criteria were designed to 
ensure an objective and fair assessment of the merits and failings of 
each bid. It is this open and transparent process that has led to the 
selection of the three consortia.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

            CPA REQUEST TO REHABILITATE AND RECONSTRUCT IRAQ

    8. Senator Levin. Ambassador Bremer, describe the process of 
developing the CPA Request to Rehabilitate and Reconstruct Iraq for the 
fiscal year 2004 supplemental request. Who drafted the plan?
    Ambassador Bremer. CPA drafted the plan in consultation and 
collaboration with the Iraqi ministries. The plan was further 
coordinated within CPA, OSD, and OMB.

    9. Senator Levin. Ambassaor Bremer, what input, if any, did you 
receive from private companies or individuals working for private 
companies in deriving the estimates for the cost of the various items 
described in the plan?
    Ambassador Bremer. We did not solicit any input from private 
companies or individuals. We believe that private involvement in the 
crafting of this request would have been inappropriate and have 
unfairly advantaged any company with firsthand knowledge of the plan.

    10. Senator Levin. Ambassador Bremer, did personnel from the U.S. 
Agency for International Development (USAID) and/or others from the 
State Department participate in drafting recommendations and discussing 
priorities for funding and project development?
    Ambassador Bremer. Yes, USAID and State Department representatives 
provided recommendations and identified their priorities prior to 
finalization of CPA's supplemental request.

    11. Senator Levin. Ambassador Bremer, did you seek the input of 
World Bank or U.N. experts or officials in developing the programs and 
cost estimates?
    Ambassador Bremer. The Iraqi Ministries, in determining their 
estimated requirements, considered all relevant sources of information 
including known World Bank estimates of need. However, because the 
supplemental request was an inherently governmental process, we do not 
believe it would have been appropriate to involve international 
organizations in the final review of our recommended programs and 
estimates.

    12. Senator Levin. Ambassador Bremer, at a press briefing on Iraq 
in Dubai, United Arab Emirates, World Bank officials stated that they 
had been working on a needs assessment for Iraq since early July. They 
took a look at 14 different sectors, such as health, education, 
agriculture, water supply, sanitation, electricity, and so forth, 
starting with the 2004 budget. They also stated that they ``would hope 
to have numbers in another 2 or 3 weeks time'' in time for the Madrid 
conference at the end of October. They also mentioned that they needed 
to discuss their findings with the Iraqi authorities, which was an 
essential step in their process.
    How were you able to come up with your assessment of Iraq's needs 
and to come up with a figure that would be required when the World Bank 
had not even completed its work--did you use a similar methodology to 
that used by the World Bank?
    Ambassador Bremer. Our supplemental request focuses predominately 
on security and infrastructure needs. The World Bank did not assess 
security requirements although all recognize that reconstruction cannot 
proceed without a stable Iraq. Further, although the World Bank had not 
finalized its numbers at the time the supplemental request was being 
prepared, it was already apparent that our plan would only address a 
fraction of the total needs. We do not believe it would have been 
prudent to wait for their numbers when the lack of security and 
infrastructure was painfully obvious. The supplemental request makes a 
large down payment on those needs.

    13. Senator Levin. Ambassador Bremer, did Iraq officials or senior 
experts participate in drafting the proposal?
    Ambassador Bremer. Each ministry with direct requirements in the 
supplemental participated in drafting the proposal. The ministries 
include Iraqi officials and coalition personnel, many of whom are 
experts in their field.

    14. Senator Levin. Ambassador Bremer, did the Iraqi Governing 
Council or members of the council have an opportunity to comment on the 
proposal, and, if so, how did you respond to any comments or 
recommendations from the council or from council members?
    Ambassador Bremer. We did not coordinate the request with the Iraqi 
Governing Council, but they fully concur that this supplemental request 
is essential to the reconstruction and rehabilitation of Iraq.

    15. Senator Levin. Ambassador Bremer, was there an opportunity for 
the Iraqi public and media to learn about the contents of the plan 
before you presented it to the U.S. Congress?
    Ambassador Bremer. No. We believe presenting the plan to the Iraqi 
public and media prior to submission to the United States Congress 
would have been inappropriate. However, subsequent to the release in 
the United States, I discussed the plan in several of my weekly 
broadcasts to the Iraqi people. While explaining what the supplemental 
would do for Iraq, I cautioned that the decision was subject to 
approval from Congress . . . that in a democracy the leader cannot 
simply take funding from their citizens as Saddam did.

    16. Senator Levin. Ambassador Bremer, what, if any, programs or 
components of programs were eliminated from the plan due to 
recommendations or comments from Iraqi officials or development 
experts?
    Ambassador Bremer. The final decisions on what remained in the 
supplemental request were mine alone. No programs were eliminated based 
on comments from Iraqi officials or development experts.

                        BEYOND FISCAL YEAR 2004

    17. Senator Levin. Ambassador Bremer, roughly $20 billion of the 
supplemental appropriations request is intended to cover the costs of 
Iraqis providing their own security ($5 billion) and reconstruction 
($15 billion) through the end of fiscal year 2004. What additional work 
and at what cost do you estimate will be required beyond fiscal year 
2004, and will that require an additional emergency supplemental 
request? If you do not have an estimate of the cost, do you have an 
estimate of the range of costs?
    Ambassador Bremer. For 2003 and 2004, Iraq will have a transitional 
economy and will require substantial international assistance to regain 
economic prosperity. In addition to the supplemental, we will utilize 
international donations stemming from the Madrid Donors Conference as 
well as limited international investment to bridge the investment gap 
and stimulate the local economy. We do not expect to request further 
supplemental appropriations for reconstruction in Iraq.

             AUTHORITY OVER FINANCIAL AND SECURITY AFFAIRS

    18. Senator Levin. Ambassador Bremer, are there any plans to give 
the Iraqi Governing Council more authority over financial and security 
affairs? If not, why not?
    Ambassador Bremer. The Iraq Governing Council's authority over 
security and financial matters is continually increasing. The most 
significant step was the recent appointment by the Iraq Governing 
Council of Interim Ministers in each Ministry. These ministers are 
responsible for the day-to-day operations of their ministries and are 
accountable to the Iraqi Governing Council. The 2004 Iraqi budget was 
developed in close consultation with the ministries and approved by the 
governing council. We anticipate the Minister of Finance will assume 
significant responsibilities for managing the development fund for Iraq 
within the framework of the national budget; that Iraqis nominated by 
the governing council will sit on the International Advisory and 
Monitoring Board as observers; and that all ministries will be involved 
in administering international financial assistance. We are committed 
to transferring responsibility to the interim Iraqi administration in 
this area as quickly and efficiently as practicable. With respect to 
security, the Minster of Interior, who acts under the authority, 
direction and control of the governing council, is responsible for the 
reorganization of the Ministry of Interior. The governing council has 
formed a Joint Security Committee comprised of governing council and 
coalition representatives, who develop and coordinate security 
proposals.

                      OIL INFRASTRUCTURE CONTRACTS

    19. Senator Levin. Ambassador Bremer, the administration's 
supplemental request includes $2.1 billion to rehabilitate Iraq's oil 
infrastructure. What steps will the administration take to ensure that 
all of this work is performed on a fully competitive basis, and that 
none is awarded on a sole-source basis to Halliburton or any other 
company?
    Ambassador Bremer. Under an acquisition strategy approved in June 
2003, the Army Corps of Engineers is conducting a full and open 
competition which will result in the award of two contracts for the 
repair and continuity of operations of the Iraqi oil infrastructure--
one for the north and one for the south. The Army issued a Request for 
Proposals (DACA63-03-R-0021) on July 9, 2003. The Army is following 
formal source selection procedures applicable to major competitive 
procurements.
    On October 29, 2003, the Corps of Engineers announced it has 
amended the solicitation to increase the maximum value of the two 
contracts. Award is expected to occur in 30 to 60 days to give offerors 
an opportunity to revise their proposals and allow the Corps to 
evaluate the revisions. We anticipate these awards in December.

                  MANAGEMENT OF RECONSTRUCTION EFFORT

    20. Senator Levin. Ambassador Bremer, up until now, DOD has been 
responsible for the reconstruction of the Iraqi oil industry, while the 
Department of State has had responsibility for the balance of the 
reconstruction effort, including electricity, water, sewers, roads, 
schools, and ports. Under the supplemental request, reconstruction 
funds would be appropriated to the President, rather than to any 
specific agency, giving the administration complete flexibility to 
decide what agency will be responsible for executing the funds.
    I understand that DOD has now hired Admiral Dave Nash to set up a 
Program Management Office (PMO) in Iraq and that you have directed 
Admiral Nash to put in place a capability to execute the entire $15 
billion requested for the Iraqi reconstruction effort. Admiral Nash's 
office will have contractor employees working under the direction of 
DOD financial management officers and contracting officers.
    Does this mean that DOD will now have responsibility for the entire 
reconstruction effort in Iraq?
    Ambassador Bremer. As CPA Administrator, I have established the PMO 
headed by retired Rear Admiral David Nash, to oversee the 
implementation of the supplemental. The PMO will play the central role 
in supporting me as I identify, plan, and prioritize all of the 
reconstruction effort. This will be done in coordination with the Iraqi 
Ministries and Governing Council, as well as U.S. advisors, the Council 
for International Cooperation, International Donors, and the other 
organizations involved with the rebuilding of the infrastructure of 
Iraq. The management of the reconstruction effort, funded with U.S. 
appropriated funds, will be assigned to various U.S. Government 
agencies for execution, including Department of State, USAID, and 
others, based on their capability and capacity to execute. This overall 
process of oversight and management will enable the CPA to harmonize 
efforts to execute the supplemental. The PMO will consist of a blended 
staff made up of Government employees, particularly in finance and 
acquisition, and contracted staff. The responsibility for the 
reconstruction effort in Iraq remains under the direction of the 
Administrator, CPA.

    21. Senator Levin. Ambassador Bremer, why was the decision made to 
exclude the Department of State and USAID from the central role that 
they have played up until now?
    Ambassador Bremer. There has not been a decision to exclude the 
Department of State, USAID, or others from a central role in 
establishing a secure, peaceful, democratic Iraq. These agencies and 
others have played, and will continue to play, a critical role in the 
Iraq reconstruction effort. Given the magnitude of the effort, more 
than seven times the previous appropriation, what is needed is a 
process to systematically coordinate the efforts of all the 
organizations to ensure that priority requirements are being addressed, 
funding is being applied to accomplish the President's strategy, and 
that there be transparency.

    22. Senator Levin. Ambassador Bremer, how will you determine what 
part of the reconstruction effort should be conducted through Admiral 
Nash's PMO and what part should be conducted under the myriad of 
contracts already in place under the auspices of DOD, USAID, and other 
Federal agencies?
    Ambassador Bremer. I have assigned managing the entire $18 billion 
reconstruction effort to the PMO headed by retired Admiral David Nash. 
The PMO will be in charge of planning and prioritizing all the 
reconstruction effort using information from many sources--Department 
of State, USAID, and others currently involved in the rebuilding 
efforts. All reconstruction work performed under the fiscal year 2004 
supplemental appropriation for reconstruction will comply with the 
requirements set forth in the legislation for reporting, as well as 
full and open competition. The services of USAID, the Department of 
State, and other U.S. Government entities will be utilized wherever 
their capability and capacity allow.

                           IRAQI POLICE FORCE

    23. Senator Levin. Ambassador Bremer, things have been rough for 
the Iraqi police. Recently, 10 policemen in Fallujah were killed in a 
firefight with U.S. forces, the Khaldiya chief of police was 
assassinated, and earlier in July, 7 other Fallujah policemen were 
killed returning from their graduation exercises after U.S. training. 
How would you characterize the state of training and equipping of the 
Iraqi police forces? What more do we have to do in that regard?
    Ambassador Bremer. Iraqis are eager to participate in their own 
security, and recruitment of Iraqi police is proceeding apace. Some 
50,000 Iraqi police officers are on board, and we are building up 
toward a professional force of 70,000-plus. Equipment and other vehicle 
shortages continue, and we are working to address them. International 
police trainers will also provide support and on-the-job training in 
technical skills and professionalism.

    24. Senator Levin. Ambassador Bremer and General Abizaid, what is 
the relationship of U.S. forces, particularly the military police, to 
the Iraqi police? What is the state of cooperation and coordination 
between those forces?
    Ambassador Bremer. Coalition Forces and Iraqi police are conducting 
joint patrols, and our strategy emphasizes assisting Iraqis to provide 
for their own security. The relationship between U.S. forces and Iraqi 
forces is a positive one that emphasizes building professionalism and 
rule of law. As we help build an effective Iraqi police force, we will 
relieve the burden on Coalition Forces and free them up further to 
pursue the enemies of progress.
    General Abizaid. U.S. Military Police (MP) are in a supporting role 
to the Iraqi Police Service (IPS). They work side-by-side to provide a 
safe and secure environment. In Baghdad, for example, the IPS, 1st 
Armored Division, and 18th MP Brigade all work together in a Joint 
Operation Center to coordinate their efforts. Across Iraq, all units 
have established similar procedures. There is tremendous cooperation 
not only between the IPS and MPs, but also between the IPS and our 
tactical units. They conduct joint patrols and share critical 
information. Over the past weeks, that level of cooperation has 
increased dramatically the availability of critical information to 
Coalition Forces. For example, largely due to information that Iraqis 
give to local police, Coalition Forces have been able to detect over 
half of enemy explosive devices before detonation.

    25. Senator Levin. Ambassador Bremer and General Abizaid, what 
should be done to avoid such fratricide incidents in the future?
    Ambassador Bremer. We regret the tragic accidents that have 
occurred, and we are always looking to improve jointly our training and 
communication. Continued training and cooperative efforts, including 
joint patrols, will reduce the risk of future accidents. In addition, 
we have established a Joint Coordinating Center (JCC) in Baghdad. The 
purpose is to provide situational awareness of military and police 
deployments as well as information sharing and operational planning. 
The center, which is based at 1st Armored Division Headquarters, is 
staffed by 1st AD personnel, U.S. MPs and U.K. civilians. It is being 
assessed for possible rollout to other areas of operation.
    General Abizaid. Improve the Tactics, Techniques, and Procedures 
and Standard Operating Procedures (SOP) to optimize the Identification 
of Friendly Forces (IFF) and minimize fratricide. Currently at Combined 
Joint Task Force-7, there is an IFF working group to minimize these 
incidents. Incoming soldiers train according to the IFF SOP to ensure 
they recognize National Iraqi Security Force vehicle markings and 
uniforms.

    26. Senator Levin. Ambassador Bremer, are ordinary Iraqis beginning 
to identify the Iraqi police as stooges of the Americans and therefore 
enemies?
    Ambassador Bremer. Iraqis are eager to participate in their own 
security, and the success of our recruitment efforts attest to this. 
Across the country about 70,000 Iraqis now provide security to their 
fellow citizens, and some 50,000 Iraqi police officers are on board. 
More and more Iraqis are also providing information to both Iraqi 
police and coalition authorities on those who have or who are planning 
to attack Iraqis and/or coalition targets, as well as pointing out 
caches of arms. 

    27. Senator Levin. Ambassador Bremer, what can be done in locations 
such as Fallujah to bolster a police force that must feel embattled 
from all sides?
    Ambassador Bremer. Our successful recruitment of Iraqis to serve in 
security forces continues, and the President has requested $5 billion 
to help Iraqis assume increasing responsibility for the security of 
their own country. This will go toward, among other things, training 
and equipping Iraqi police.

                             ANSAR AL-ISLAM

    28. Senator Levin. Ambassador Bremer, you said in response to an 
earlier question that the Saddam Hussein government was supporting 
Ansar al-Islam prior to the war. Could you please expand upon the 
nature of that relationship, and provide any classified or unclassified 
materials that indicate the types of support that existed?
    Ambassador Bremer. In Secretary of State Colin Powell's address to 
the U.N., he reported that Saddam's government had an agent in the most 
senior levels of the radical organization Ansar al-Islam in the north 
of Iraq.

    [Whereupon, at 1:04 p.m., the committee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
